<html>
<title> - EXAMINING PROPOSALS TO CREATE JOBS AND STIMULATE INDIAN COUNTRY ECONOMIES</title>
<body><pre>[Senate Hearing 111-5]
[From the U.S. Government Publishing Office]



                                                          S. Hrg. 111-5
 
    EXAMINING PROPOSALS TO CREATE JOBS AND STIMULATE INDIAN COUNTRY 
                               ECONOMIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 15, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs




                   U.S. GOVERNMENT PRINTING OFFICE
46-627 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            TOM COBURN, M.D., Oklahoma
DANIEL K. AKAKA, Hawaii              JOHN BARRASSO, Wyoming
TIM JOHNSON, South Dakota            _____, _____
MARIA CANTWELL, Washington           _____, _____
CLAIRE McCASKILL, Missouri
JON TESTER, Montana

                                     RICHARD BURR, North Carolina
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 15, 2009.................................     1
Statement of Senator Barrasso....................................     6
Statement of Senator Dorgan......................................     1
Statement of Senator Murkowski...................................     4
Statement of Senator Tester......................................     6

                               Witnesses

Butterfield, Robin, Vice President, National Indian Education 
  Association....................................................    20
    Prepared statement...........................................    22
Franklin, Reno, Chairman, National Indian Health Board...........    25
    Prepared statement with attachment...........................    27
Johnson-Pata, Jackie, Executive Director, National Congress of 
  American Indians...............................................    15
    Prepared statement...........................................    17
Kitka, Julie, President, Alaska Federation of Natives............    32
    Prepared statement with attachments..........................    33
Middleton, Dr. Robert, Director, Office of Indian Energy and 
  Economic Development, U.S. Department of the Interior; 
  accompanied by Jack Rever, Director, Facilities Management and 
  Improvement....................................................     7
    Prepared statement...........................................    11

                                Appendix

Allen-Weddell, Cyndi J., Vice President, Flandreau Santee Sioux 
  Tribe, prepared statement......................................   174
Barrett, John A., Chairman, Citizen Potawatomi Nation, prepared 
  statement......................................................   108
Bordeaux, Rodney M., President, Rosebud Sioux Tribe, prepared 
  statement......................................................   165
Brundin-Miller, Kara, Tribal Chairperson, Smith River Rancheria, 
  prepared statement.............................................    93
Cook Inlet Tribal Council, prepared statement....................   119
Council for Tribal Employment Rights, prepared statement.........   111
Devers, Hon. Chris, Chairman, Pauma Band of Mission Indians; 
  Chairman, Council of Energy Resource Tribes, Prepared statement   102
Jerred, Hon. Jeanne, Chairwoman, Confederated Tribes of the 
  Colville Reservation, prepared statement.......................   117
Jurrius, John P., President/CEO, Native American Resource 
  Partners, LLC, prepared statement..............................   130
Lukachukai Community Board of Education, Inc., prepared statement 
  with attachments...............................................   135
Martin, Hon. William E., President, CCTHITA, prepared statement..    95
National Center for American Indian Enterprise Development 
  (NCAIED), prepared statement...................................   161
National Council of Urban Indian Health, prepared statement with 
  attachments....................................................   163
Native American Contractors Association, prepared statement with 
  attachment.....................................................   149
Navajo Nation, prepared statement................................   157
NCAI:
    Indian Country Economic Recovery Plan........................    57
    Tribal Government Economic Recovery Plan.....................    73
Pesata, Levi, President, Jicarilla Apache Nation, prepared 
  statement......................................................   126
Shuravloff, Marty, Chairman, National American Indian Housing 
  Council, prepared statement with attachment....................   153
Smith, Chad, Principal Chief, Cherokee Nation, prepared statement   106
Turtle Mountain Band of Chippewa Indians, prepared statement.....   169
Wilson, Ryan, President, National Alliance to Save Native 
  Languages, prepared statement..................................   176
Supplementary information and letters submitted for the record 
  by:
    Allen, W. Ron, Chairman, Jamestown S'Klallam Tribe...........   281
    Barlese, Warner, Chairman, Summitt Lake Paiute Council.......   256
    Barrett, John A., Chairman, Citizen Potawatomi Nation........   208
    Bear, Robert C., President, Shoshone-Paiute Tribes of the 
      Duck Valley Indian Reservation.............................   249
    Begay, Dixie, President, Ramah Navajo Chapter................   238
    Box, Matthew J., Chairman, Southern Ute Indian Tribal Council   254
    Buckner, Diana, Chairperson, Ely Shoshone Tribe..............   281
    Cagey, Henry, Chairman, Lummi Indian Nation..................   281
    Carroll, Marie, President/CEO, Arctic Slope Native 
      Association, Ltd...........................................   198
    Charles, Ronald G., Chairman, Port Gamble S'Klallam Tribe....   234
    Charles, Frances, Chairwoman, Squaxin Island Tribe...........   281
    Chavez, Ervin, President, Dzilth-Na-O-Dith-Hle Community 
      Grant School Board.........................................   195
    Coby, Alonzo A., Chairman, Fort Hall Business Council........   281
    Cooeyate, Norman J., Governor, Pueblo of Zuni................   264
    Cook, Robert, President, National Indian Education 
      Association................................................   297
    Culler, Melissa, Executive Director, Shiprock Associated 
      Schools, Inc...............................................   248
    DeCoteau, Betty, Port Gamble S'klallam Tribal Chairperson....   281
    Denson, Miko Beasley, Chief, Mississippi Band of Choctaw 
      Indians....................................................   196
    Doney, Julia, President, Fort Belknap Indian Community.......   218
    Donohue, Esq., Patrick B., Founder, The Sarah Jane Brain 
      Foundation.................................................   244
    Enos, Diane, President, Salt River Pima Maricopa Indian 
      Community..................................................   242
    Fink, Judy E., Tribal Council Chairperson, North Fork 
      Rancheria of Mono Indians of California....................   230
    Franklin, Reno, Chairman, National Indian Health Board.......   228
    Gipp, David M., President, United Tribes Technical College...   275
    Garcia, Martha, President, Ramah Navajo School Board, Inc....   197
    Guerro, Steve, President, Alamo Navajo School Board, Inc.....   181
    Harris, Cynthia M., Chairman, Sauk-Suiattle Indian Tribe.....   246
    Hill, Richard G., Chairman, Oneida Tribe of Indians of 
      Wisconsin..................................................   281
    His Horse is Thunder, Ron, Chairman, Standing Rock Sioux 
      Tribe......................................................   285
    Ivanoff, Steve, Transportation Planner, Village of Shaktoolik   274
    Johnson, Dr. Sherry, Superintendent, Enemy Swim Day School...   211
    Kashevaroff, Don, CEO, Alaska Native Tribal Health Consortium   281
    Killam, Linwood, CEO, Riverside-San Bernardino County Indian 
      Health, Inc................................................   240
    Lake, Michael C., President/CEO, Norton Sound Health 
      Corporation................................................   281
    Lopeman, Dave, Chairman, Squaxin Island Tribe................   281
    Marcallais, Richard J., Tribal Chairman, Turtle Mountain Band 
      of Chippewa Indians........................................   258
    Martin, Lonnie L., Chairman, Chitimacha Tribe of Louisiana...   281
    Meshigaud, Kenneth, Tribal Chairperson, Hannahville Indian 
      Community..................................................   290
    Millett, Jerry, Duckwater Shoshone Tribe.....................   281
    Moyle, Alvin, Chairman, Fallon Paiute Shoshone Tribe.........   179
    Nelson, Charlene, Chairwoman, Shoalwater Bay Indian Tribe....   281
    Nez, Willis, President, Ch'ooshgai Community School Board of 
      Education, Inc.............................................   186
    Panamaroff, Jr., Alex, Chairperson, Kodiak Area Native 
      Association................................................   226
    Patterson, Brian, President, United South and Eastern Tribes, 
      Inc........................................................   260
    Pavel, Joseph, Chairman, Skokomish Tribal Council............   251
    Pearson, Myra, Tribal Chairperson, Spirit Lake Tribe.........   281
    Penney, Samuel N., Chairman, Nez Perce Tribe.................   294
    Pino, Henry, President, Blackwater Community School Board....   184
    Pinto, Sr., Robert, Tribal Chairman, Ewiiaapaayp Band of 
      Kumeyaay Indians...........................................   212
    Pyle, Gregory E., Chief, Choctaw Nation of Oklahoma..........   281
    Rogers, C. Bryant, Attorney, VanAmberg, Rogers, Yepa, Abeita 
      and Gomez, LLP.............................................   183
    Rolin, Buford L., Tribal Chairman, Poarch Band of Creek 
      Indians....................................................   232
    Romanelli, Larry, Tribal Ogema, Little River Band of Ottawa 
      Indians....................................................   281
    Sanchez, Chandler, Governor, Pueblo of Acoma.................   292
    Secatero, Tony, President, To'hajiilee Community School Board 
      of Education, Inc..........................................   190
    Sharp, Fawn, President, Quinault Indian Nation...............   236
    Sharp, Jr., Willie A., Chairman, Blackfeet Tribal Business 
      Council....................................................   200
    Shopodock, Philip, Chairman, Forest County Potawatomi 
      Community..................................................   216
    Schuerch, Paulette, President/CEO, Copper River Native 
      Association................................................   283
    Toledo, David, Governor, Pueblo of Zuni......................   268
    Tripp, Maria, Chair, Yurok Tribe.............................   262
    Yazzie, Fernie, President, Borrego Pass School Board.........   185


    EXAMINING PROPOSALS TO CREATE JOBS AND STIMULATE INDIAN COUNTRY 
                               ECONOMIES

                              ----------                              


                       THURSDAY, JANUARY 15, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We are going to call the hearing to order. 
This is a hearing of the Indian Affairs Committee of the United 
States Senate. I will be joined by Senator Murkowski 
momentarily and a couple of other colleagues. I appreciate the 
witnesses being with us today.
    Today the Committee is going to examine the need for 
infrastructure and job creation on Indian lands and in Indian 
Country in this Nation of ours. We are having this discussion 
because of the current state of the national economy and 
because the President-elect has talked about the urgent need to 
create an economic recovery program, described by some as a 
stimulus program. Work is underway now, I am chairman of one of 
the appropriations subcommittees, and work is underway in my 
subcommittee and all subcommittees on the economic recovery 
program.
    The President-elect and many others have described a need 
for a very substantial program. The press reports talk about 
$500 billion, $700 billion, last week I heard $1.2 trillion. If 
so, the question is, where is that investment made and what 
kind of jobs will it create in what area of our Country?
    It is the case that there will be no earmarks on this 
legislation. This will be legislation, when it is completed, 
and the size of it has not yet been finally determined, it is 
legislation that when completed that will provide funding for 
what are to be job-creating opportunities and investments. And 
that funding in most cases will be sent to a Federal agency to 
be determined with respect to the investment around the 
Country.
    For example, roads and bridges, my expectation is that 
funding will go to the State governments, and the State 
governments under some formula have already projects on the 
shelf that are engineered and ready to be completed. The 
contracts have not been awarded because the funding does not 
exist. But when such funding is made available, those contracts 
will be awarded, people will be hired and the projects will be 
pursued: roads, bridges, water projects, and the list goes on.
    Nowhere in this Country is the need for infrastructure 
greater than on Indian reservations. The unemployment on those 
Indian reservations is very, very substantial. I have a chart, 
I believe, somewhere that shows the unemployment rate of 49 
percent. We have very substantial unemployment in the tribes in 
the Great Plains region, which is the region that I am from. 
Forty-nine percent unemployment nationally on Indian 
reservations. We also have a chart that shows the majority of 
residents that are living in eight of the ten poorest counties 
in this country. The majority of those residents are Indian 
Country, Indian reservations.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    I don't need to continue to make the case about 
unemployment and poverty. But the second case that attaches to 
all this as you determine where the desperate need for 
investment in roads is, it is in Indian reservations. Roads are 
in desperate disrepair on those Indian reservations.
    Where are some of the poorest maintained schools in the 
Nation? On Indian reservations. Where are some of the poorest 
health facilities in this Nation, the poorest maintained health 
facilities and the most desperate need for new health 
facilities? On Indian reservations. Detention facilities, where 
is the greatest need? On Indian reservations.
    So my point is, to call this hearing not to believe there 
will be earmarked funding for any projects in this economic 
recovery package. It is, however, to say that whatever 
mechanism exists to get projects started, to create jobs and 
make investments in areas where those investments are 
desperately needed, Indian nations, tribal governments ought to 
be a portion of that consideration, given the economic 
circumstances on those reservations, and given the need for the 
investment and given the special need for those jobs.
    So that is the purpose of this hearing. I very much 
appreciate the witnesses who have agreed to be with us. Dr. 
Robert Middleton, the Director of Indian Energy and Economic 
Development is with us. Dr. Middleton, we appreciate your being 
here. You are accompanied by Mr. Jack Rever, the Director of 
Facilities Management and Improvement.
    We will hear from Ms. Jackie Johnson-Pata, the Executive 
Director of the National Congress of American Indians; Ms. 
Robin Butterfield, who is the Vice President of the National 
Indian Education Association; Mr. Reno Franklin, Chairman of 
the National Indian Health Board; and Ms. Julie Kitka, 
President of the Alaska Federation of Natives in Anchorage, 
Alaska.
    We appreciate very much your testimony today. I will call 
on you in a moment, but I want to call on the Vice Chairman of 
the Committee, Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
your scheduling this very important hearing. I also want to 
commend you. I have been your Vice Chairman now for this past 
Congress, and I am going to leave this role as Vice Chairman, 
still be on the Committee, but won't be sitting to your 
immediate right here, as I take over as Ranking on Energy.
    But your passion on the issue as they relate to our First 
People, American Indians, Alaska Natives, Native Hawaiians, is 
clear in so many different areas. The recognition that we have 
failed to do right, whether it is in health care, whether it is 
in law enforcement, whether it is in education or housing, and 
your commitment to work to make a difference in their lives.
    While I won't be your Vice Chairman for this next Congress, 
I do pledge to you that I will continue to work with you in 
every way that I can to help make a difference to those who we 
have such an obligation to, and recognizing that we still have 
so far to go. So I wanted to put that in the record, first and 
foremost.
    We recognize that our economy, our Nation's economy is in a 
very difficult spot at this point in time. And around the 
Country, we are seeing job layoffs, we are seeing unemployment, 
we are seeing families really hit by the consequences to our 
economy. But what many people don't realize is that what our 
Country has been seeing for this past year is really nothing 
compared to many of the economic conditions and situations that 
have been prevailing in so many of our Native communities for 
over a hundred years.
    Mr. Chairman, on your chart there you indicate the poorest 
counties, poorest districts throughout the Country, and the 
Wade Hampton Census District, which is in the Yukon Kuskokwim 
area, shows on your chart there as being the poorest in the 
Nation. And it is certainly the poorest in the State of Alaska.
    One of the villages in the Wade Hampton area is a village 
called Emmonak. And Emmonak has about 800 people. Today, in 
Emmonak, there is a food crisis going on due to a very 
unfortunate chain of events that I think demonstrates just how 
vulnerable our Indian communities are. I will take just a 
moment here to detail what is happening in Emmonak right now. 
This is a village that is a subsistence village. They rely 
primarily on fishing. Fishing was bad last summer.
    The village is powered by diesel, and they get two barges, 
one in the spring, one in the fall. Well, the fuel barge 
couldn't get in this fall. So Emmonak bought its winter fuel at 
the very, very record prices that we were seeing this summer. 
And then when the barge wasn't able to get in because of early 
onset of winter, this community had to receive their fuel flown 
in to their community, 500 gallons at a time. So the cost to 
heat a home in Emmonak right now is absolutely astronomical.
    Right now heating fuel is costing $7.83 a gallon. So you 
have a situation where you have a fuel crisis, you are trying 
to pay for your fuel, and they have paid for it because they 
need it, it is cold right now, very cold. But they have no 
money to purchase food. So the decision is made, do I heat my 
home or do I feed my family. That is the choice that they are 
facing.
    Mr. Chairman, I would ask unanimous consent that a letter 
to the editor of the Bristol Bay Times that was written by 
Nicholas Tucker, Sr., of Emmonak, describing Emmonak's 
predicament in some detail be placed in the record.
    The Chairman. Without objection. *
---------------------------------------------------------------------------
    * The information referred to is printed on page 41.
---------------------------------------------------------------------------
    Senator Murkowski. We recognize that here in Congress we 
have made some steps. Last year we doubled, nearly doubled the 
LIHEAP funding. We added substantial funding to the 
weatherization program. But there is still such a tremendous 
gap between assistance that is available and the needs.
    In Alaska, a State as blessed as we are in resources, as 
much money as we have in our permanent fund, our emergency 
relief plan in the State of Alaska, when it comes to heating 
assistance, essentially is coming from Hugo Chavez and Citgo. 
Many of the villages received a donation of subsidized fuel 
over the past couple of years. This year there was some 
uncertainty whether it was going to happen, it was on again, it 
was off again. We understand now that it is on.
    Some villages turn those donations down out of principle. 
For others, it was a matter of necessity. They gratefully 
accepted it.
    But it really is very, very tragic that Alaska Native 
villages have to depend on Venezuela for their safety net. We 
owe a trust responsibility to these people.
    And I use the village of Emmonak to demonstrate the 
situation there. But we know that in many communities, the 
needs are so great. You have mentioned also in your chart, Mr. 
Chairman, the national unemployment. We are at about 7.2 
percent. In many of the Native communities, we are at about 15 
percent. In some of the reservation communities, we are looking 
at 80 percent.
    I am truly hopeful that we can once again act in a 
bipartisan manner and work to include funding to address the 
urgent needs of Indian Country in this proposed stimulus 
package. We need to do better. We need to provide the stimulus, 
and I look forward to working with you on this.
    The Chairman. Senator Murkowski, thank you. And let me 
thank you for your work as Vice Chair. You have done a great 
job, and you also have great passion for these issues and I 
think have made a real difference. It has been a pleasure to 
work with you.
    I assume you are going to remain on this Committee?
    Senator Murkowski. I am on the Committee. You can't get rid 
of me that easy.
    The Chairman. All right.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I want to echo 
your comments to Vice Chair Murkowski. I really very much 
appreciate your leadership on this Committee and your hard work 
to do what is right for Native Americans across this Country 
and Alaska. I just really appreciate it, I am glad to hear you 
are going to stay on the Committee. But we will miss you as 
Vice Chair, I promise you that.
    Mr. Chairman, I want to thank you for holding this hearing, 
too. It is good to be back here in this 111th Congress, dealing 
with issues that are critically important in Indian Country. I 
can tell you that unless you have lived it, you don't fully 
understand it. Senator Murkowski talked about 7 percent 
unemployment around the Country, 50 to 80 percent unemployment 
in Indian Country. We have talked on this Committee several 
times, many times about education deficiencies, health care 
deficiencies, law enforcement deficiencies, deficiencies in 
infrastructure like housing and water. We have a lot of work to 
do in Indian Country to help turn their economy around and give 
hope for the future and create jobs and reduce that 
unemployment rate and really move them forward.
    I appreciate your leadership, Mr. Chairman, in bringing 
forth the issues that are important in Indian Country. You have 
done that over the last two years, and you continue to do that. 
I look forward to hearing from the panelists on their 
perspectives on how we move forth this economy, these very, 
very stagnant economies in our Indian nations. Hopefully we 
will get some good ideas here today and be able to move it 
forward to some good, solid policy in the future.
    The Chairman. Senator Tester, thank you.
    Senator Barrasso, do you have a comment?

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. I do, thank you, Mr. Chairman. I am 
looking forward to working with you in the years ahead and 
continue with your terrific leadership and also continuing to 
serve with Senator Murkowski, once we get committee 
appointments made.
    I would like to say that as we discuss proposals for the 
stimulus package, we do have a serious responsibility before 
us. We must provide the utmost service to the American people 
at the most efficient, effective cost. It is important to 
remember that all too often, Government programs create winners 
and losers, and that there are never enough funds to build 
every road or every building that is needed in communities all 
across America.
    So as we look at the stimulus package, if we are going to 
spend billions of taxpayer dollars, we need to be absolutely 
sure that we are targeting the money where the money can do the 
most good. It is imperative, Mr. Chairman, that the stimulus 
create an even platform upon which everyone can compete and the 
rules need to be clear and efficient. Every request should be 
evaluated by need and readiness to meet our goals. Government 
should not create winners and losers. We should develop a fair 
system and let the best project win.
    And with that introduction, Mr. Chairman, I would say that 
the Eastern Shoshone and Northern Arapaho Tribes in Wyoming 
should compete on an even playing field, as all other 
communities. We have a great need in Wyoming for health care 
facilities, for irrigation improvements and other necessary 
projects. If our projects are truly necessary and ready to 
implement, then they should compete well for Government 
funding.
    But under the current proposal, the needs for water 
development on the Wind River Reservation would be 
shortchanged. This is not for a lack of need, but based on a 
policy decision in the current proposal. Funds have been 
directed for tribes with Congressionally ratified water 
settlements. This ignores those tribes who have settled their 
water rights in court; not been Congressionally ratified. The 
Wind River Reservation irrigation system truly is a historical 
relic. We had to complete and archaeological study last year 
before we could even begin planning improvements. The 
Government has not met its responsibility to develop this 
system and the people of the Wind River Reservation should not 
be further shortchanged based on a political whim here in 
Washington.
    There is a need, the projects are ready to implement, and 
we should be able to compete for funding along with everyone 
else. I know, Mr. Chairman, under your leadership, we can work 
to make sure that that is rectified, so that there are 
opportunities for all folks to compete for the funds. So thank 
you, Mr. Chairman, thanks for your leadership.
    The Chairman. Senator Barrasso, thank you very much.
    I might note that we are joined by Senator Udall, who 
although not yet a formal member of this Committee will be, I 
believe, very shortly, perhaps today. I invited him to join us, 
we appreciate your being here. He has a great passion also for 
these issues, coming from the State of New Mexico.
    Let us turn to the witnesses. Dr. Middleton is the Director 
of the Office of Indian Energy and Economy Development. We will 
ask all of the witnesses to summarize. Your entire full 
statements will be made part of the permanent record.
    Dr. Middleton, welcome. You may proceed.

 STATEMENT OF DR. ROBERT MIDDLETON, DIRECTOR, OFFICE OF INDIAN 
             ENERGY AND ECONOMIC DEVELOPMENT, U.S. 
    DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY JACK REVER, 
              DIRECTOR, FACILITIES MANAGEMENT AND 
                          IMPROVEMENT

    Dr. Middleton. Good afternoon, Mr. Chairman, Madam Vice 
Chairwoman, members of the Committee and Senator Udall.
    It is a pleasure to be here today to speak about job 
creation and infrastructure development on Indian lands. I am 
accompanied by Mr. Jack Rever, the Director of Facilities, 
Environmental and Cultural Resources for the Bureau of Indian 
Affairs. He will have some remarks on the programs under his 
purview after I finish.
    Programs such as school construction, road maintenance and 
energy and economic development strive to maximize the economic 
benefit of infrastructure development. These programs have 
established priorities and the standards that allow us to 
effectively allocate our resources and provide Indian Country 
with the opportunity to develop the infrastructure necessary 
for job creation and economic development.
    Ultimately, viable economies, stable economies, will help 
tribal leaders achieve the goal of self-determination and self-
governance. I would like to highlight a few of these programs 
that are in my testimony.
    The Indian Loan Guaranty, Insurance and Interest Subsidy 
Program was established by the Indian Finance Act in 1974. It 
has been a very effective program to move capital investment 
into Indian Country. Indian businesses obtain loans from 
private lenders who would otherwise be unwilling to make such 
loans because of risk differential. The loan guaranty program 
leverages appropriated dollars at about 13 to 1. So for every 
million dollars of appropriation that is made available to my 
office, we are able to put $13 million of loans on the street 
for small Indian businesses.
    Since its establishment, the program has guaranteed 835 
loans, totaling about $915 million. These loans support small 
business which are integral to job creation.
    The Energy and Minerals Program assists tribes by providing 
expert advice and economic analyses, negotiating energy 
agreements and strategic planning with regard to energy and 
minerals project development on Indian land. However, one part 
of the Energy and Minerals Program I would like to highlight is 
the construction aggregate, sand and gravel opportunities out 
there.
    With infrastructure development taking the forefront in the 
united States, every bridge that is out there, every roadway 
that is laid down, every building that is built, requires sand 
and gravel. Sand and gravel in the United States is about a $26 
billion a year industry. There are many tribes that have the 
opportunity to take advantage of sand and gravel and other 
construction aggregate on reservations, to help participate in 
the infrastructure development that may take place, whether it 
be on-reservation or off-reservation. We have identified and 
worked with a number of reservations on various parts of the 
Country that are primed to take advantage of economic 
development opportunities through infrastructure development. 
Renewable energy programs are also very valuable to Indian 
tribes. We have identified about 77 reservations that possess 
commercial scale wind resources and the ability to support 
viable wind-based economies. We look at factors such as the 
amount of contiguous land that is available to the reservation, 
how close they are to transmission lines, what the wind scale 
is in the area, and where the population load or the demand 
load would be. Based upon this, we are working to partner with 
tribes to develop commercial scale opportunities working with 
wind developers and the tribes themselves.
    The job placement and training program is a very important 
program for our office. Enhancing America's infrastructure will 
require the skills of thousands of working men and women. We 
want to make sure Indian Country has the skills and opportunity 
to participate. My office has started partnerships with a 
number of trade unions, as well as the Council on Tribal 
Employment Rights, to provide life skills to unemployed and 
under-employed tribal members.
    For example, the Bureau of Labor Statistics projects that 
America will need about 450,000 welders over the next five 
years. We have started a partnership with the Plumbers and 
Pipefitters Union to provide training to tribal members who are 
currently on general assistance. We just recently graduated a 
class from Chicago. One of the members of that class was 
immediately offered a job starting at $27 an hour. Tomorrow, I 
will be in Phoenix to graduate a class from Phoenix that is 
made primarily up, or solely up of people from the Navajo 
Reservation. We anticipate that there will be 100 percent 
placement of all the graduates and they will be offered 
starting salaries of between $16 and $20 an hour.
    Indian land consolidation is also one of our greatest 
challenges that faces us. Fractionation of Indian land, because 
of their trust status, occurs because they are primarily 
transferred through inheritance. With each successive 
generation, individual interest in the lands becomes further 
divided. This creates a situation where fairly large parcels of 
the land become uneconomic because there is not a consolidated 
control over its use. However, Indian Affairs remains committed 
to focusing on the critical issue of fractionation and is 
currently exploring various options to decrease the effects of 
fractionation and to the economic benefits from trust land.
    Through all these programs, we have pieces in place to 
efficiently deliver jobs and economic development throughout 
Indian Country. We look forward to working with this Committee 
to enhance the quality of life for Indian communities and 
provide opportunities for enhanced self-determination. I thank 
you for the opportunity to contribute to this hearing.
    Mr. Rever. Mr. Chairman and Madam Vice Chair, I would like 
to turn attention to the public safety and justice construction 
program, irrigation, dams, safety of dams program, road 
maintenance programs and new school construction for just a 
moment. Indian Affairs, in consultation with the tribes, has 
developed a replacement school construction priority list. That 
list ranks schools based on criteria used to calculate the 
facility's condition index and in the development of the list, 
an independent contractor conducted reviews to evaluate health 
and safety deficiencies, environmental deficiencies, and 
accessability for people with disabilities and the condition of 
existing utilities and site improvements.
    The schools were then ranked in order of need, based on the 
original priority list. Indian Affairs originally published in 
2004 a list of 14 schools on that priority list. As of today, 
we have worked out way through the top seven of those 
priorities and are now looking forward to the opportunity to 
complete that priority list of construction projects. And we 
have in place the mechanisms necessary to do that in a very 
rapid fashion.
    In 2005, Indian Affairs revised the space guidelines and 
the criteria for construction and published the first 
architectural engineering standards for design and construction 
that put in place common design elements for classrooms, 
cafeterias, gymnasiums, heating and cooling systems and other 
facility needs, thus standardizing the design for our school 
program. That resulted in a complete acceleration of our school 
construction program, to the extent that we have reduced our 
carry-over backlog in construction from three years ago of 
about $380 million to down to about $57 million in each 
successive year.
    Beginning in 2006, we adopted new procedures and methods 
for school construction programming as well as constructing 
contracting. We started to plan and design projects two years 
prior to the request for funding, and with the goal of 
beginning construction on major projects in the year of 
appropriation. That strategy has multiplied our benefits ten-
fold. We are completing projects early in the planning and 
design phase and are ready to begin when the funds are 
appropriated. The projects that start on time bring huge 
benefits to the students themselves who have a crying need for 
these new facilities. These new procedures have already 
increased the annual obligation rate, again as I mentioned 
before, to 87 percent rather than 44 percent in prior years.
    In the public safety and justice construction program, we 
are making great progress in our effort to assess the detention 
center needs in Indian Country and develop a plan of action. 
Indian Affairs is using the lessons learned through the 
development of our successful school construction program to 
develop priority lists to address justice systems facility 
requirements throughout Indian Country.
    We continue our commitment to consult with tribes and 
coordinate with the Department of Justice to ensure that the 
future construction program for law enforcement, courts and 
incarceration are well coordinated. In addition, Indian Affairs 
has recently been assessing the justice program across Indian 
Country that goes beyond just construction. The goal is to 
create a priority list of needs to include all facets of 
justice intervention.
    The irrigation and safety of dams program provides economic 
opportunities and public safety through sound management of 
irrigation, dam and power facilities owned by Indian Affairs. 
In the Indian irrigation program alone, there are 100 
individual projects and systems on Indian lands. Indian Affairs 
irrigation projects provides water vital to agricultural 
production in the west and continued ability to provide 
irrigation water to over 780,000 acres of farm land. These 
projects are an integral part of the local and regional 
economies. Irrigation lands served by the 16 BIA irrigation 
projects produce in excess of $300 million in gross crop 
revenues each year. Beginning several of the large Indian 
irrigation projects have developed into multi-million dollar 
economies. Indian Affairs delivers irrigation water through 
hundreds of miles of canals and through more than 100,000 aging 
irrigation structures themselves.
    Turning our attention now to the safety of dams. This is a 
life safety program that corrects identified safety 
deficiencies in dams, rehabilitates and maintains each 
significantly hazardous dam to lower its risk of failure and 
monitors each dam for signs of safety deficiencies. Indian 
Affairs is responsible for 131 dams. Yet 70 are classified as 
being in poor condition. Indian Affairs uses a technical 
priority rating system to determine the priority of correction.
    Now turning to road maintenance. The road maintenance 
program is a source of funds for maintenance of BIA roads and 
bridges constructed through the Highway Trust Fund resources. 
Under that program, it consists of approximately 29,000 miles 
of roads and 940 bridges on Indian reservations in communities 
and villages throughout the Nation. Adequate maintenance is a 
fundamental yet critical requirement of safe accessibility to 
health and education facilities, tourism, employment, 
recreation and economic development opportunities.
    With that, Mr. Chairman, I have one other comment, and that 
has to do with the road maintenance program, which I addressed 
before. With the 29,000 miles of roads and 940 bridges, there 
is a tremendous need for continuing daily maintenance of those 
roads to permit this economic development.
    With that, sir, we thank you for the opportunity to make 
our comments. We are prepared to answer any questions you have.
    [The prepared statement of Dr. Middleton and Mr. Rever 
follows:]

Prepared Statement of Dr. Robert Middleton, Director, Office of Indian 
 Energy and Economic Development, U.S. Department of the Interior; and 
      Jack Rever, Director, Facilities Management and Improvement

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Rever, thank you very much.
    Next we will hear from Ms. Jackie Johnson-Pata, who is the 
Executive Director of the National Congress of American 
Indians.

STATEMENT OF JACKIE JOHNSON-PATA, EXECUTIVE DIRECTOR, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Ms. Johnson-Pata. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be able to be here today, and 
Madam Vice Chairman, I also want to thank you for your 
leadership that you have provided. Senator Tester and our 
newest Senator Udall, again, glad to see you move over from the 
House.
    But really I wanted to thank you, the Committee and your 
staff, for the work you have done and the leadership you 
provided to be able to help get the leadership of both houses 
to put forward the request to President-elect Obama, as well as 
helping us put together a strong package for Indian Country.
    I don't need to tell you, as you all know, that Indian 
Country lags behind the rest of the Nation in every aspect of 
reservation life and tribal governance. It is critical that 
tribes are included into the American economic recovery and 
investment plan, for three very compelling reasons.
    The first one is, as we all know and we spoke about today, 
is the lack of basic infrastructure investment is the single 
greatest impediment to economic development in Indian Country. 
Reservations are mired in poverty and under developed. And they 
offer unique opportunities for rapid economic growth, once the 
basic infrastructure is in place. Thereby, investing in tribal 
governments, America will ensure that the populations that have 
persistently lived in the poorest economic conditions as 
demonstrated by your charts have the same path to success as 
the rest of America.
    And secondly, tribal governments lack a tax base and rely 
on revenue from economic development to provide the core 
services to their citizens. This reliance makes tribal 
governments much more vulnerable than other governments during 
economic downturns. And finally, it has been proven that 
investments in Indian Country is an investment that produces 
good returns for America, especially rural America.
    This downturn is having a dramatic effect on tribal 
governments who already occupy the bottom end of the 
socioeconomic scale, and promising energy deals have slipped 
away, tribes from communities such as mine where timber is now 
close to closing down for good. And even high profile gaming 
tribes around the Country are laying off thousands of workers. 
The real per capita income of Indians living on the 
reservations is still less than half of the national average. 
Unemployment is double what it is in the rest of the Country. 
And as shown, eight out of the ten poorest counties in the 
United States are home to Indian reservations.
    Despite these challenging conditions, there are examples of 
economic success resulting from investments in tribal 
infrastructure. Mississippi Choctaw is a good example. Early in 
the 1980s, prior to the 1980s, they had a housing condition 
that was highly substandard. Ninety percent had no indoor 
plumbing, and one-third had no electricity. But in the 1980s, 
the tribe decided to turn around those conditions. And they did 
so by building an infrastructure needed to draw industrial jobs 
onto the reservations. After completing the industrial park, 
the Tribe convinced a division of GM and American Greetings 
Company to locate on the remote reservation. And soon after, 
the Tribe diversified. And today, it is Mississippi's second 
largest employer, with over 8,000 employees. After generations 
of living in the worst economic conditions, the Tribe became 
the regional economic leader of the South.
    Mississippi Choctaw is not an isolated example. Tribal 
governments, when given the right tools, can lift their 
populations out of poverty. NCAI worked with the organizations 
sitting here and many others that aren't at the table with us 
here today to put together an economic recovery plan that 
includes projects that are shovel ready, that have funding 
mechanisms already in place, to ensure the accountability that 
is necessary that has direct funding to tribes that will create 
tens of thousands of jobs, local jobs, and allow tribes and 
surrounding communities to effectively compete locally, 
regionally and globally regardless of location.
    Our tribal governments request $6 billion. While modest in 
comparison to other governments and their requests, it is 
needed to make a real and lasting impact in tribal communities. 
Infrastructure spending should be the target. We have 
highlighted building 21st century green schools for our kids, 
creating energy-efficient homes and tribal government 
buildings, building and repairing our roads and bridges, 
creating healthy and safe communities by investing in clean and 
wastewater facilities, telecommunications, public safety 
buildings and health facilities, using our vast natural 
resources and work force to move toward energy independence.
    NCAI's recovery plan also includes a component that 
provides needed tools to help leverage Federal funds and 
sustain economic gains. So it is not just about infrastructure, 
it is also about how do we sustain it after. We have included 
some clarification of the use of low-cost tax-exempt financing 
for tribes, clearing the way for tribes to invest in one 
another, such as a fix through the SEC, making tribes an 
attractive alternative energy partner by getting access to the 
existing tax credits and expanding the use of guaranteed loans 
to allow tribes, businesses and individuals to fully 
participate in the infrastructure build-out.
    We see this as a once in a lifetime opportunity to build 
tribal governments, to repair infrastructure, create jobs, 
generate energy. And we are looking forward to working with you 
to ensure that we are included in the Energy Recovery Act.
    In closing, I would also like to state that there was other 
testimony submitted by other tribes in writing, and they have 
asked, including Tlingit and Central Council Tribes of Alaska, 
to have their testimony included in the record.
    Thank you very much.
    [The prepared statement of Ms. Johnson-Pata follows:]

Prepared Statement of Jackie Johnson-Pata, Executive Director, National 
                      Congress of American Indians

    The National Congress of American Indians (NCAI) is the inter-
governmental body for American Indian and Alaska Native tribal 
governments. For over sixty-years tribal governments have come together 
as a representative congress through NCAI to deliberate issues of 
critical importance to tribal governments.
    Economic development in Indian Country lags behind the rest of the 
nation and impacts nearly every aspect of reservation life and tribal 
governance. It is critical that tribes are included in the American 
Economic Recovery and Reinvestment Plan for three very compelling 
reasons.
    First, the lack of basic infrastructure investment is the single 
greatest impediment to economic development in Indian country. 
Reservations offer unique opportunities for rapid economic growth once 
the basic infrastructure is in place. By investing in tribal 
governments, America will be meeting its moral obligation to ensure 
those populations that have persistently lived in the poorest economic 
conditions have the opportunity to go down the same path to success as 
the rest of America. And second, tribal governments rely on revenue 
from economic development to provide core services to their citizens in 
lieu of a sustainable tax base. This reliance makes tribal governments 
much more vulnerable than other governments during economic downturns. 
Finally, it has been proven that an investment in Indian Country is an 
investment in America.

Tribal Socio-Economic Conditions
    Hundreds of tribes suffer economic hardship and remain nearly 
invisible. They struggle to preserve their reservations, their culture, 
and their sovereignty. They are now feeling the full effects of the 
economic downturn. For some tribes, once promising opportunities in 
energy development are no longer viable, while other tribes have seen 
tribal industries like timber production--once considered economic 
staples--closing their doors. Even higher-profile gaming tribes around 
the country are currently laying off thousands of workers affecting 
entire regions. The downturn is having a dramatic effect on tribal 
governments that, as a population, already occupy the bottom end of the 
socio-economic scale.
    Most reservations are characterized by extensive land bases, spread 
out communities, and homesteads mired in one long-standing poverty 
cycle. Most Indian tribes experience economic and social conditions 
that are on par with many developing nations.
    Real per-capita income of Indians living on reservations is still 
less than half of the national average. Unemployment is still double 
what it is for the rest of the country. \1\ A full 8 of the 10 poorest 
counties in the United States are home to Indian reservations. Although 
Indian specific data is not available to analyze the precise impact of 
the recession on Indian country, signs point to the recession hitting 
low-income Americans hardest. Between September 2006 and October 2008, 
the unemployment rate for workers age 25 and over who lack a high 
school diploma, a very low income group, increased by 39 percent. \2\ 
In 2007, 20 percent of American Indians aged 25 and over lacked a high 
school diploma, compared to 14 percent for the U.S. population. \3\
---------------------------------------------------------------------------
    \1\ Overview of Federal Tax Provisions Relating To Native American 
Tribes and Their Members, Scheduled for a Public Hearing Before the 
Senate Committee on Finance on July 22, 2008 Prepared by the Staff of 
the Joint Tax Committee on Taxation, July 18, 2008
    \2\ Parrott, Sharon. (2008, November 24). Recession Could Cause 
Large Increases in Poverty and Push Millions into Deep Poverty. 
Washington, DC: Center on Budget and Policy Priorities.
    \3\ U.S. Department of Commerce, U.S. Census Bureau (2007). 2007 
Annual Social and Economic Supplement. Current Population Survey (CPS).
---------------------------------------------------------------------------
    Many tribal governments lack the ability to provide the basic 
infrastructure most U.S. citizens take for granted, such as passable 
roadways, affordable housing, plumbing, electricity and telephone 
service. It is difficult to believe that in America, where 97.5 percent 
of households have a phone, there are reservations are unable to 
provide basic telephone service to 70 percent of their citizens. In 
addition, there is a tribal average of 3 in 10 households without basic 
means of communication.
    These substandard economic and quality of life indicators have a 
social toll as well. Health disparities are prevalent and suicide rates 
(a symptom of lack of opportunity) are high with over 60 percent more 
incidents than the average in America. Alcoholism on reservations and 
diseases like Tuberculosis are both over 500 percent higher among 
Indians.
    Despite the challenging social and economic conditions on 
reservations, there are examples of economic success that have resulted 
from tribal investments in infrastructure and use of available federal 
tools to grow their local economies and provide their citizens with a 
better quality of life--the goal of every government.
    For example, in the 1960's, rural Neshoba County in Mississippi was 
once one of the country's most economically-depressed areas. Neshoba 
County is home to the Mississippi Band of Choctaw Indians who lived 
under miserable economic and health conditions. Nearly all houses on 
the reservation were considered substandard: 90 percent had no indoor 
plumbing; one-third had no electricity. \4\
---------------------------------------------------------------------------
    \4\ NPR, All Things Considered, July 17, 2004
---------------------------------------------------------------------------
    In the 1980's the Tribe worked hard to turn conditions around by 
building the infrastructure necessary to draw industrial jobs to the 
reservation. After completing an industrial park, the tribe convinced a 
division of General Motors and the American Greetings company to locate 
on the remote reservation. Soon after, the tribe diversified its 
economy by creating service sector enterprises. Today, the tribe is the 
state of Mississippi's second largest employer with over 8,000 
employees on its payrolls. \5\ After generations of living in the worst 
economic conditions, the tribe has become a regional economic leader in 
the south.
---------------------------------------------------------------------------
    \5\ Neshoba County Website, Community Development Partnership, 
Mississippi Band of Choctaw Indians Timeline.
---------------------------------------------------------------------------
    Mississippi Choctaw is not an isolated example. Tribal governments, 
when given the right tools, can effectively lift their populations out 
of poverty and fully participate in the American economy. Not only can 
tribes raise their economic profile, but they have proven time and 
again that investing in tribes is an investment in rural America. 
Surrounding communities, and sometimes entire regions, are also 
beneficiaries of tribal success.
    NCAI has developed a Tribal Government Economic Recovery Plan that 
provides targeted infrastructure spending for projects that are proven 
shovel-ready and already have funding mechanisms in place to ensure 
accountability. The unmet infrastructure need or backlog throughout 
Indian Country is substantial. Targeted spending to meet this need 
promises to have a dramatic effect on tribal economies as well as the 
economies of the surrounding communities.
    The Tribal Government Economic Recovery Plan targets $6.13 billion 
in infrastructure spending that will create thousands over 50,000 local 
jobs and allow tribes to effectively compete in the global economy 
regardless of their location by building 21st century schools, energy 
efficient government buildings and the infrastructure needed to develop 
locally, regionally and globally.
    The infrastructure and long-term efficiency requests included in 
the Tribal Government Recovery Plan met the requirements of being 
shovel-ready, provided long term effects, created efficiencies for 
competitiveness and allowed participation in green energy production 
and jobs. Investments in tribal government infrastructure spending 
targets:

  <bullet> Building 21st century schools

  <bullet> Creating energy efficient homes and tribal government 
        buildings

  <bullet> Building and repairing our roads and bridges

  <bullet> Creating healthier and safer communities through investments 
        in clean and waste water facilities, public safety buildings 
        and health facilities through repairs and technology 
        improvements

  <bullet> Using our vast natural resources and workforce to move 
        toward energy independence

  <bullet> Improving our access to emergency and broadband networks

  <bullet> Meeting pent-up housing needs, and

  <bullet> Making unworkable lands more viable for economic development 
        through a land consolidation program.

    The American Economic Recovery and Reinvestment Plan's targeted 
infrastructure development offers tribal government a proven path to 
economic success. Funding streams are already in place for tribal 
governments to fully participate in building needed infrastructure.
    Tribal governments simply need to be directly funded under these 
programs as other governments are to ensure that we are not left out. 
Inclusion not only meets the Congressional trust responsibility, but 
offers tribes a solid economic base to pursue self-sufficiency and self 
determination--for the tribe and for its citizens.
    NCAI's Tribal Government Economic Recovery Plan also includes an 
important component that gives tribal governments and businesses access 
to the tools needed to sustain economic gains made from targeted 
federal infrastructure spending.
Tribal Government Revenue--Removing Barriers and Providing Access
    The plan calls for removing barriers to the capital needed for 
tribal governments to effectively grow their economies and to ensure 
their local citizens have the ability to directly participate in 
building and repairing our infrastructure. Without access to these 
tools, tribal governments will be placed on the sidelines while other 
governments build effective infrastructure and outside companies 
participate in contracting opportunities that could be completed 
locally.
    Congress, federal agencies and other partners should do everything 
they can to support and promote tribal economic development. Tribes 
simply cannot rely on decreasing federal funds or a severely-limited 
tax base to provide needed government infrastructure and services. 
Economic revenue becomes a necessity for tribal and individual self-
sufficiency and self determination.

Access to Credit Markets
    Currently, with the economic downturn, state and local governments 
are feeling the effects of a frozen credit market. Low cost tax-exempt 
debt has become a necessity for state and local governments when 
financing schools, roads, health facilities and economic activities. 
When the credit markets effectively froze in the fall, state and local 
governments sought federal intervention including calls for federal 
guarantees for investor reassurance and the removal of Alternative 
Minimum Tax for high-net worth investors to make tax exempt debt more 
attractive.
    Tribes, however, have never had full access to the tax-exempt 
markets and because of the strict interpretation placed on the tribal 
use of tax-exempt financing, the market for tribal bonds has been 
effectively frozen for the past decade. Tribal governments need access 
to the same low-cost debt to build and repair schools, roads and 
healthcare facilities. Since tribes rely on economic development 
revenues in lieu of a tax base, tribal governments need access to the 
low-cost debt market to provide economic development revenue for the 
tribe. Clarifying tribal government use of tax-exempt bonds would help 
tribes to stimulate their local economies and provide better services.

Access to Capital Markets
    Many tribes, especially large land-based tribes, are centered in 
rural and remote areas of the country. Creating an economic base and 
attracting capital is a challenge. Many of these tribes want to utilize 
their large land bases to develop alternative energy and participate in 
lessening our dependence on foreign oil.
    There are two impediments that currently exist that make investing 
in tribal energy and other enterprises less attractive. The first is an 
oversight in the tax code that gives businesses an incentive in the 
form of a tax credit to invest in alternative energy projects. Tribal 
government cannot use these tax credits so the current tax code 
provides a disincentive for tribes to partner in developing alternative 
energy.
    The second impediment is also an oversight. When the Securities and 
Exchange Commission drafted Regulation D, which determines private 
equity participation and securities registration, it did not explicitly 
list tribes as governments. This oversight prevents tribes that are 
economically successful from investing in other tribes as equity 
partners.
    Tribal leaders often have greater needs than their non-Indian 
counterparts and, at the same time, tribal governments have fewer 
resources with which to fulfill their governmental responsibilities. 
The Economic Recovery and Reinvestment Plan offers an opportunity to 
correct these oversights and give tribal government access to the tools 
they need to succeed. This means clarifying the use of tax-exempt debt, 
allowing tribes to transfer tax credits, and listing tribes as 
governments for investment purposes. In addition, those programs that 
are clearly working should be enhanced.

Community Participation
    The American Economic Recovery and Reinvestment Act should support 
utilizing successful programs to meet the increased need for business 
capital that is sure to follow a large stimulus. The Tribal Government 
Recovery Plan supports increased funding for an existing Department of 
Interior guaranteed loan fund not just for business loans but for 
surety bonding and energy production loans.
    Capital to start businesses and surety bonding is difficult to come 
by for tribally-owned construction companies. It is important that 
local participation is encouraged to build local capacity and support 
local economic development.
    The Tribal Economic Recovery Plan has been developed with tribal, 
federal and organization partner input. It is comprehensive and 
designed with the access to capital and credit requests intended to 
enhance and leverage the targeted federal infrastructure spending 
requests. The total amount requested, while modest in comparison to 
other government requests, is needed to make a real and lasting impact 
on tribal economies.
    Tribal governments are too often an afterthought in the development 
of significant national policy initiatives. They are either 
inappropriately shoe-horned into legislation at the eleventh hour, or 
left out entirely. As a result, Indian tribes are left farther and 
farther behind.
    The American Economic Recovery and Reinvestment Plan presents a 
once in a lifetime opportunity for the nation, including tribal 
governments, to repair existing infrastructure, create jobs, and 
generate energy and income. It would be a travesty for Indian Country--
which is persistently burdened with high unemployment and poverty 
rates, inadequate housing and infrastructure, and economic under-
development--to be left out of much of the opportunities created by the 
Economic Recovery Plan.

    The Chairman. Ms. Johnson-Pata, thank you very much.
    Next we will from Ms. Robin Butterfield, who is Vice 
President of the National Indian Education Association.
    Ms. Butterfield?

STATEMENT OF ROBIN BUTTERFIELD, VICE PRESIDENT, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Ms. Butterfield. Chairman Dorgan, members of the Committee, 
on behalf of the National Indian Education Association, I would 
like to take the opportunity to thank you for being able to 
speak to you.
    I am the Vice President of the Association. I am a Ho-Chunk 
Anishanabe with over 35 years of experience working 10 years as 
the Director of Indian Education for the State of Oregon and 
over 4 years working in the BIE. NIEA commends Chairman Dorgan 
for his tremendous efforts to ensure that Indian Country is 
included in the stimulus package. NIEA strongly supports 
Senator Dorgan's request, signed and supported by 14 other 
Senators, for funding for BIE school construction and 
maintenance.
    Senator Dorgan's request of $334 million for new 
construction of K-12 school facilities and $150 million for 
maintenance and repair is similar to NIEA's request submitted 
to President-elect Obama and to the Senate and House 
appropriations and authorizing committees. This funding would 
assist in replacing condemned facilities and repairing 
dangerous conditions present in many BIE schools, and can be 
implemented within 24 months, which would create much-needed 
new jobs.
    In our Indian communities, the schools are the center of 
community activities, and are supposed to provide a safe haven 
for our children. However, many of the BIE schools pose serious 
health and safety risks. These risks are due to the Federal 
Government's failure to honor the Federal trust 
responsibilities. In May of 2007, the Interior's OIG issued a 
flash report that describes the conditions at BIE schools and 
requires immediate action to protect the health and safety of 
students and faculty. In the report, the IG cites deterioration 
ranging from minor deficiencies such as leaking roofs to severe 
deficiencies, such as classroom walls buckling and separating 
from their foundation. In conclusion, the IG states that the 
``failure to mitigate these conditions will likely cause injury 
or death to children and school employees.''
    In 2008, NIEA conducted a series of field hearings on 
issues facing BIE schools. Hopi tribal chairman Benjamin 
Nuvamsa stated ``While waiting for funding, our students and 
staff are subjected to exposure to hazardous materials. Almost 
all schools have asbestos and radon issues, which puts students 
and staff at risk.''
    In North Dakota, the Mandaree Day School has taken out a 
loan of $3 million to cover the costs of new building, even 
though the Federal Government has the obligation to provide 
this funding. This school could wait no longer. The loan only 
covers the facility structure. The 210 children at this school 
have no playground, and the teachers do not have a paved 
parking lot. The BIE is also responsible for the Southwest 
Indian Polytechnic Institute and it is undergoing annual 
regular repairs to their facilities.
    But these are just a few of the examples of the unmet needs 
in BIE schools. On the average, BIE schools are 60 years old, 
while 40 years is the average for public schools. The deferred 
maintenance backlog is estimated to be over $500 million and 
increases annually by $56.5 million. Of the 184 BIE schools, 
one-third are in poor condition and need of either replacement 
or substantial repair. We must take action now to ensure our 
Indian students are in the safest environments possible while 
receiving their education.
    NIEA would be remiss if we did not also mention the 
tremendous backlog of construction needs for public schools on 
Indian lands that receive Impact Aid funding from the 
Department of Education. The Impact Aid program provides 
resources directly to State public school districts with trust 
lands. Many public schools on reservations are crumbling, 
unsafe and should be replaced. We strongly urge the Committee 
to request funding for Impact Aid school construction needs. 
These projects could be completed also in a 24 month time frame 
and would create a significant number of new jobs.
    Finally, we understand that provisions are being considered 
in the stimulus package that may create new authorizations for 
school construction. While we support new programs for school 
construction like new public schools and charter schools in 
Native communities, the BIE school system is a Federal 
responsibility. We hope that the new Administration and 
Congress will consult with NIEA and Indian Country on any new 
school authorization provisions. We want to make sure that the 
new authorizations do not create unintended negative impacts on 
BIE schools.
    Further, NIEA urges that funding for BIE school 
construction be separate from funding for public schools, 
territorial schools or other types of schools. BIE schools are 
unique, due to treaty rights and the Federal trust 
responsibility. We must do all that we can to ensure that our 
Indian children do not have to risk their lives in 
deteriorating buildings, while aspiring to achieve academic 
success.
    In conclusion, NIEA thanks the Committee and Senator Dorgan 
for your hard work and diligence on behalf of our communities. 
We also have some additional documents to submit for the 
record. Thank you.
    [The prepared statement of Ms. Butterfield follows:]

   Prepared Statement of Robin Butterfield, Vice President, National 
                      Indian Education Association

    Chairman Dorgan, and Members of the Senate Committee on Indian 
Affairs, thank you for this opportunity to submit testimony on behalf 
of the National Indian Education Association on the staggering unmet 
needs of Bureau of Indian Education (BIE) school construction and the 
importance of including funding for BIE and other educational projects 
in the economic stimulus plan, known as the Economic Recovery and 
Reinvestment Plan. NIEA commends Chairman Dorgan in particular for his 
tremendous efforts to ensure that Indian Country is included in the 
stimulus package and is deeply appreciative of his commitment to Native 
education.
    Founded in 1970, the National Indian Education Association is the 
largest organization in the nation dedicated to Native education 
advocacy issues and embraces a membership of nearly 4,000 American 
Indian, Alaska Native and Native Hawaiian educators, tribal leaders, 
school administrators, teachers, elders, parents, and students.
    NIEA makes every effort to advocate for the unique educational and 
culturally related academic needs of Native students. NIEA works to 
ensure that the federal government upholds its responsibility for the 
education of Native students through the provision of direct 
educational services and facilities that are safe and structurally 
sound. This is incumbent upon the trust relationship of the United 
States government and includes the responsibility of ensuring 
educational quality and access. The environment in which instruction 
and educational services are provided is critical to the achievement of 
our students to attain the same academic standards as students nation-
wide.
    Accordingly, NIEA strongly supports Senator Dorgan's request, 
signed and supported by 14 other Senators, for funding for BIE school 
construction and maintenance in the economic stimulus package. Senator 
Dorgan's request of $344 million for new construction of K-12 school 
facilities and $150 million for maintenance and repair of K-12 school 
facilities is similar to NIEA's request submitted to President Elect 
Obama and to the Senate and House appropriations and authorizing 
committees for inclusion of BIE school construction in the stimulus 
package. \1\
---------------------------------------------------------------------------
    \1\ NIEA also strongly supports the plan set forth by Senator 
Dorgan in his request for funding for infrastructure projects at tribal 
colleges and universities.
---------------------------------------------------------------------------
    In its own request, NIEA seeks a total of $500 million in the 
economic stimulus package for the following: (1) school facilities new 
construction ($300 million); (2) school facilities improvement and 
repair ($150 million); and (3) school facilities employee housing 
repair and maintenance ($50 million) at K-12 schools administered or 
operated by BIE within the Bureau of Indian Affairs, Department of the 
Interior. Based upon our discussions with BIE officials and with tribes 
with BIE schools on BIE's list of facilities in need or repair or 
replacement, $500 million would allow for the construction of at least 
4 schools, repairs and improvements at no less than 25 schools, and 
repair and maintenance of employee housing at no less than 14 schools.
    These projects can be completed within a 24-month time frame and 
would help to jumpstart the reservation economies in which these school 
facilities are located by providing significant numbers of jobs in 
economically depressed areas where unemployment rates have, over 
decades, been consistently much higher than the national average. These 
projects are typically the biggest construction projects in these 
communities and provide often times the only base for economic 
stimulation and revitalization in these areas. This funding would be a 
wise investment in not only the infrastructure on many reservations but 
also in the education provided to our Native students. Further, this 
funding would assist in replacing condemned facilities and in repairing 
dangerous conditions present at many of these schools.
    There are only two educational systems for which the Federal 
Government has direct responsibility: the Department of Defense Schools 
and federally and tribally operated schools that serve American Indian 
students. The federally supported Indian education system includes 
48,000 students, 29 tribal colleges, universities and post-secondary 
schools. NIEA is committed to accountability, high standards, and the 
rigorous education of our children and will continue to hold the BIE 
accountable for ensuring that BIE students meet their academic 
potential with educational programs that consider their cultures, 
languages, backgrounds, and identities. We believe with good faith 
collaboration that we can provide our children with an education that 
honors their Native identities while simultaneously preparing them for 
successful futures by providing them with a safe environment conducive 
to learning.
    NIEA scheduled five field hearings in 2008 throughout Indian 
Country: Rapid City, South Dakota; Seattle, Washington; Tulsa, 
Oklahoma; Albuquerque, New Mexico; and Window Rock, Arizona. The 
purpose of these NIEA-facilitated sessions was to gather information on 
the challenges faced by BIE schools, including how the No Child Left 
Behind Act (NCLB) is being implemented and additional concerns of BIE 
schools as they relate to the achievement of their students. Testimony 
from the witnesses focused on the following topics: (1) NCLB and 
Adequate Yearly Progress standards; (2) Indian school construction and 
facilities maintenance; and (3) student transportation. These sessions 
served as a focused follow up discussion to the eleven field hearings 
NIEA held in 2005 on the implementation of NCLB in Indian Country and 
served as the basis for the legislative language NIEA has proposed for 
inclusion in reauthorization of NCLB. Today our testimony focuses on 
the construction needs of schools funded by the BIE.

Indian School Construction
    In 1997, GAO issued a report, ``Reported Condition and Costs to 
Repair Schools Funded by the Bureau of Indian Affairs,'' that 
documented an inventory of repair needs for education facilities 
totaling $754 million. In 2004 the backlog for construction and repair 
was reported to have grown to $942 million.
    More recently, in March of 2008, the Consensus Building Institute 
(CBI) with the U.S. Institute for Environmental Conflict Resolution 
issued a Final Convening Report: Negotiated Rulemaking Committee on 
Bureau of Indian Affairs--Funded Schools Facilities Construction. CBI 
reported in their findings of the conditions of the schools that ``many 
schools are ill equipped for the information age,'' ``security needs 
and related funding are major sources of concern for many schools,'' 
``aging or poor design may lead to a substandard educational 
environment,'' ``operation and maintenance needs are not matched by 
operation and maintenance annual funding,'' and ``overcrowding is a 
major concern and a source of accelerating physical decline.'' \2\ 
Additionally, the report stated in the findings that the Facility 
Management Information System (FMIS) doesn't sufficiently allow for 
educational programming needs, including libraries, adequately sized 
classrooms and gymnasiums, wiring to allow for technological needs and 
partitions and noise reducing walls. \3\
---------------------------------------------------------------------------
    \2\ The Consensus Building Institute with the U.S. Institute for 
Environmental Conflict Resolution (March 5, 2008). Final Convening 
Report: Negotiated Rulemaking Committee on Bureau of Indian Affairs--
Funded School Facilities Construction, pp. 16-18.
    \3\ Ibid., p. 19.
---------------------------------------------------------------------------
    In May of 2007, the Office of the Inspector General, Department of 
Interior, issued Bureau of Indian Affairs and Bureau of Indian 
Education: Schools in Need of Immediate Action, a flash report that 
describes the conditions at BIE schools that require ``immediate action 
to protect the health and safety of students and faculty.'' Although 
the Inspector General visited thirteen schools as part of their 
investigation, four schools were highlighted in the flash report--
Chinle Boarding School, Shonto Preparatory School, Keams Canyon School, 
and the Kayenta Boarding School. In the report, the Inspector General 
cites deterioration ranging from ``minor deficiencies such as leaking 
roofs to severe deficiencies such as classroom walls buckling and 
separating from their foundation.'' In his conclusion, the Inspector 
General states that the ``failure to mitigate these conditions will 
likely cause injury or death to children and school employees.'' This 
flash report describes the alarming and life threatening situation at 
BIE schools that the federal government has created in its failure to 
properly maintain these schools. Native children should not have to 
risk their lives on a daily basis to access their fundamental right to 
an education.
    Testifying at the NIEA-sponsored BIA/BIE regional hearing in Navajo 
Nation/Window Rock, AZ, Hopi Tribal Chairman, Benjamin Nuvamsa stated, 
``our students are at extremely high risk because of exposure to 
hazardous materials in our school facilities . . . [recently]severe 
reductions in annual appropriations for the building Operations, 
Maintenance and Repairs (OM&R) program results in the ever-increasing 
number of projects placed in the Facilities Maintenance Inventory 
System (FMIS). While waiting for funding, our students and staff are 
subjected to exposure to hazardous materials . . . almost all schools 
have asbestos and radon issues which puts the students and staff at 
risk.'' \4\
---------------------------------------------------------------------------
    \4\ Bureau of Indian Affairs and Bureau of Indian Education: 
Hearings before the National Indian Education Association, Widow Rock, 
AZ (August 21, 2008) (testimony of Benjamin Nuvamsa, Hopi Tribal 
Chairman).
---------------------------------------------------------------------------
    In North Dakota, the Mandaree Day School has taken out a loan in 
the amount of $3 million to cover the costs of building a new BIE 
education facility even though the federal government has the 
obligation to provide funding for a new school. The Mandaree Day School 
could not wait any longer for the funding from BIE to build their 
school. The loan only covers the facility structure and the 210 
children attending this school have no playground and the teachers do 
not have a paved parking lot. These are just a few examples of the 
construction needs of BIE schools that are not being met under current 
funding.
    The purpose of education construction is to permit BIE to provide 
structurally sound buildings in which Native American children can 
learn without leaking roofs and peeling paint. It is unjust to expect 
our students to succeed academically when we fail to provide them with 
a proper environment to achieve success. The amount of funding over the 
past few years has failed to fund tribes at the rate of inflation, once 
again exacerbating the hardships faced by Native American students. 
Further, the funding that has been allocated over the past few years 
will not keep pace with the tremendous backlog of Indian schools and 
facilities in need of replacement or repair.

Indian Education Facilities Improvement and Repair Funding
    The continued deterioration of facilities on Indian land is not 
only a federal responsibility but has also become a liability of the 
federal government. Old and exceeding their life expectancy by decades, 
BIE schools require consistent increases in facilities maintenance 
without offsetting decreases in other programs if 48,000 Indian 
students are to be educated in structurally sound schools.
    Of the 4,495 education buildings in the BIE inventory, half are 
more than 30 years old and more than 20 percent are older than fifty 
years. On average, BIE education buildings are 60 years old; while, 40 
years is the average age for public schools serving the general 
population. 65 percent of BIE school administrators report the physical 
condition of one or more school buildings as inadequate. Although 
education construction has improved a bit over the last few years, the 
deferred maintenance backlog is still estimated to be over $500 million 
and increases annually by $56.5 million. As noted by the House Interior 
Appropriations Subcommittee in its Committee Report accompanying the FY 
2006 Interior appropriations bill, ``much remains to be done.'' Of the 
184 BIE schools, \1/3\ of the schools are in poor condition and in need 
of either replacement or substantial repair.

Public and Other School Construction Needs
    NIEA would be remiss if we did not mention the tremendous backlog 
of construction needs for public schools on Indian lands that receive 
Impact Aid funding from the Department of Education. The Impact Aid 
program directly provides resources to state public school districts 
with trust status lands within the boundaries of a school district for 
operational support. Many public schools on reservations are crumbling, 
unsafe and should be replaced.
    In Idaho, several reservation public schools have attempted bond 
levies in their communities to repair or replace dilapidated facilities 
to no avail, as community members struggle with increasing taxes while 
enduring economic stagnation. The Nez Perce Reservation school in 
Lapwai, Idaho has over 82 percent American Indian/Alaska Native 
enrollment and has had four failed bond levies and has not received an 
Impact Aid construction grant allocation to assist with replacing 
facilities. The Coeur d' Alene Reservation public schools, located in 
northern Idaho, which have nearly 65 percent American Indian/Alaska 
Native enrollment has also had several failed bond levies for the K-12 
public school, and no allocation of Impact Aid construction grants to 
assist with repairing or replacing the facilities.
    Impact Aid schools received a total of $1.302 billion for fiscal 
year 2008 but an amount of $70 million over last year's funding would 
allow for some progress to be made to meet the continually increasing 
public school construction needs on reservations. We strongly urge the 
Committee to consider requesting funding for Impact Aid school 
construction needs. These projects also could be completed in a 24-
month time frame and would create a significant number of jobs in their 
communities.
    Additionally, NIEA encourages funding for renovation projects for 
Native language immersion K-12 schools, many of which are public and 
public charter schools. There is a need for numerous renovation 
projects for schools that support Native language instruction, many of 
which are housed in abandoned and neglected buildings and are in dire 
need of repair and maintenance.

New Authorizations for School Construction in the Stimulus Package
    Further, we understand that provisions are being considered in the 
stimulus package that may create new authorizations for school 
construction. While we support new programs for general school 
construction, especially new public schools and charter schools in 
Native communities, we urge you to consider that the BIE school system 
is a federal responsibility that has unique needs and circumstances. We 
hope that the new Administration and the Congress will consult with 
NIEA and Indian Country on any new school construction authorization 
provisions to ensure that new authorizations do not create unintended 
adverse impacts on BIE schools. Further, NIEA urges the inclusion of 
funding for BIE school construction, maintenance, and repair as a 
separate provision in the economic stimulus package distinct from 
funding for public schools, territorial schools, or other types of 
schools given that BIE schools are uniquely situated due to treaty 
rights and the federal trust obligation for the education of Indian 
children.

Conclusion
    We must do all that we can to ensure that our children do not have 
to risk their lives in deteriorating buildings while aspiring to 
achieve academic success. NIEA thanks the Committee for its hard work 
and diligence on behalf of Native communities. With your support, we 
are hopeful that Indian Country will have the resources it needs to 
build the educational facilities that it deserves.

    The Chairman. Ms. Butterfield, thank you. Thank you for 
your work on the Indian Education Association.
    Next, Reno Franklin is with us, who is the Chairman of the 
National Indian Health Board. Mr. Franklin?

 STATEMENT OF RENO FRANKLIN, CHAIRMAN, NATIONAL INDIAN HEALTH 
                             BOARD

    Mr. Franklin. Thank you, sir.
    Chairman Dorgan and Vice Chairman Murkowski, and 
distinguished members of the Senate Indian Affairs Committee 
and future member Mr. Udall, let me introduce myself first. I 
am Reno Keoni Franklin, I am a tribal council member for the 
Kashia Band of Pomo Indians and the Chairman of the California 
Rural Indian Health Board and the newly-elected chairperson for 
the National Indian Health Board. On behalf of NIHB, it is both 
my honor and my pleasure to submit the NIHB's testimony to you.
    During our discussion, we will focus on three 
recommendations to create jobs and stimulate tribal economies 
as it relates to health care. These recommendations are 
reauthorization of the Indian Health Care Improvement Act, 
improved access and enrollment into Medicare, Medicaid and 
SCHIP, and health care funding of $1.485 billion for 
infrastructure and support needs.
    Before I continue, please allow me to express my gratitude 
and the gratitude of the tribes for the work the Committee did 
during the 110th Congress. You were able to help us reauthorize 
the Indian Health Care Improvement Act, S. 1200. We were 
disappointed to see that the final reauthorization did not make 
it, but we are very hopeful that it will.
    NIHB believes strongly that the economic stimulus plan 
provides an ideal opportunity for reautohrization of the Act. 
President-elect Obama, in recognizing the unique government-to-
government relationship with Indian tribes has said Indian 
nations have never asked much of the United States, only for 
what was promised by treaty obligations to their forebears.
    Reauthorization of the Act is not asking for much, only the 
same opportunity to receive basic health care services that the 
rest of the Country receives. While the Nation suffers from 
economic crisis, Indian Country has always suffered from both 
an economic and a health care crisis. American Indians and 
Alaska Natives suffer a disproportionate disease burden because 
of inadequate education, sub-par housing, poverty, unemployment 
and lack of employment opportunities. Indians live in some of 
the poorest, most remote locations where health care is limited 
and in some cases completely not accessible.
    In my own community in California, my tribal members have 
to drive nearly four hours round trip to make it to our local 
health care facility. Today is our opportunity to invest in 
health care and infrastructure to strengthen tribal economies 
and bring the Indian health care system into the 21st century. 
NIHB's recommendations are consistent with President-elect 
Obama's economic vision.
    The reauthorization of the Indian Health Care Improvement 
Act provides authorities to ensure a healthy Indian reservation 
work force. It creates jobs, it provides for infrastructure 
development in Indian reservation communities and expands 
access to Medicare, Medicaid and SCHIP. Due to the economic 
crisis in some tribal communities, we expect an increase in 
enrollment in these safety net programs. Revenue generated from 
Medicare, Medicaid and SCHIP, an IHS estimate of $780 million 
annually, support tribal economies through employment of health 
care professionals and maintenance and renovation of health 
care facilities.
    The NIHB supports the January 9th, 2009 letter from the 
U.S. Senate outlining a comprehensive plan to stimulate the 
economy in tribal communities. At the NIHB winter board meeting 
held on January 8th and 9th in 2009, the NIHB passed Resolution 
2009-01, which we have attached as a part of this testimony. 
Consistent with the Senate request, the NIHB recommends $400 
million in Health care facilities construction, $250 million in 
facilities improvement and maintenance, $250 million in 
sanitation construction, $200 million in contract health 
services, and another $150 million in health information 
technology.
    In addition, the NIHB resolution recommends that $285 
million in contract support costs shortfall funding be included 
to stimulate employment opportunities in Indian Country. For 
every $10 million in CSC shortfall funding, it is estimated 
that 100 jobs and $6 million in third-party revenues are lost.
    On behalf of the National Indian Health Board, I appreciate 
the opportunity to present testimony today on behalf of the 
tribes. We appreciate your leadership and we look forward to 
working shoulder to shoulder with you to realize a healthy 
future for our tribal communities.
    I am available to answer any questions the Committee might 
ask. Thank you.
    [The prepared statement of Mr. Franklin follows:]

 Prepared Statement of Reno Franklin, Chairman, National Indian Health 
                                 Board

    Introduction Chairman Dorgan, and Vice-Chairman Murkowski and 
distinguished members of the Senate Indian Affairs Committee, I am Reno 
Franklin, a tribal council member of Kashia Band of Pomo Indians, 
Chairman of the California Rural Indian Health Board, and newly-elected 
Chairman of the National Indian Health Board (NIHB). \1\ On behalf of 
the NIHB, it is an honor and pleasure to offer the NIHB's testimony on 
proposals to create jobs and stimulate Indian Country economies.
---------------------------------------------------------------------------
    \1\ Established in 1972, NIHB serves Federally Recognized AI/AN 
tribal governments by advocating for the improvement of health care 
delivery to AI/ANs, as well as upholding the federal government's trust 
responsibility to AI/ANs. We strive to advance the level and quality of 
health care and the adequacy of funding for health services that are 
operated by the IHS, programs operated directly by Tribal Governments, 
and other programs. Our Board Members represent each of the twelve 
Areas of IHS and are elected at-large by the respective Tribal 
Governmental Officials within their Area. NIHB is the only national 
organization solely devoted to the improvement of Indian health care on 
behalf of the Tribes.
---------------------------------------------------------------------------
    During our discussion we will focus on three recommendations to 
create job and stimulate Indian economies as it relates to healthcare. 
These recommendations are:

        1. Reauthorization of the Indian Health Care Improvement Act.

        2. Improved Access and Enrollment in Medicare, Medicaid and 
        SCHIP.

        3. Healthcare Funding of $1.485 Billion for Infrastructure and 
        Support Needs in Indian Country.

    Before I continue, please allow me to express the gratitude of the 
Tribes for the work the Committee did during 110th Congress to advance 
the reauthorization of the Indian Health Care Improvement Act (IHCIA), 
S. 1200. We are especially thankful for the leadership of Senators 
Dorgan and Murkowski, and other members of the Committee, for their 
tenacity in ensuring successful passage of S. 1200 by an overwhelming 
bi-partisan vote of 83-10.
    The NIHB believes strongly that the economic stimulus plan provides 
an ideal opportunity for reauthorization of the IHCIA. As members of 
this Committee appreciate, Indian Tribes ceded over 400 million acres 
of land in exchange for health care for their people. President-Elect 
Obama, in recognizing the unique government-to-government relationship 
with Indian Tribes, has said ``Indian nations have never asked much of 
the United States--only for what was promised by the treaty obligations 
made to their forebears. So let me be absolutely clear--I believe 
treaty commitments are paramount law, and I will fulfill those 
commitments as president of the United States.'' Reauthorization of the 
IHCIA is not asking for much--only the same opportunities to receive 
basic health care services that the rest of the Country receives.
    While the Nation suffers from an economic crisis--Indian Country 
has always suffered from both an economic and a health care crisis. 
American Indians and Alaska Natives (AI/AN) suffer disproportionate 
disease burden because of inadequate education, subpar housing, 
poverty, unemployment and lack of employment opportunities, and 
discrimination in the delivery and access to health services. AI/ANs 
live in some of the poorest and most remote locations where health care 
is limited and in some cases, completely not accessible. The Indian 
Health System (IHS) system is funded at only approximately 40 percent 
of the level of need in comparison to services available to the general 
population. In some parts of Indian Country, health care is limited to 
``life or death'' emergencies. As a result, AI/ANs suffer lower life 
expectancies, disproportionate health disparities, and die at higher 
rates from alcoholism (550 percent higher), diabetes (190 percent 
higher), and suicide (70 percent higher) than the general U.S. 
population. Approximately 13 percent of AI/AN deaths occur among those 
under the age of 25; a rate three times that of the total U.S. 
population. Our youth are more than twice as likely to commit suicide, 
and nearly 70 percent of all suicidal acts in Indian Country involve 
alcohol.
    In a speech on January 8, 2009, President-Elect Obama outlined his 
vision of a proposed American Recovery and Reinstatement Plan to 
jumpstart job creation and long-term growth. The plan proposes to 
invest in priorities like energy, education, health care and the new 
infrastructure necessary to keep us strong and competitive in the 21st 
century. As the President-Elect said: ``Perhaps more than anyone else, 
the Native American community faces huge challenges that have been 
ignored by Washington for too long. It is time to empower Native 
Americans in the development of the national policy agenda.'' Today is 
your opportunity to change this. Invest in health care and 
infrastructure to strengthen Tribal economies and bring the Indian 
healthcare system into the 21st century. Just say--``Yes We Can.''

NIHB Proposal to Create Jobs and Stimulate Indian Country Economies
1. Reauthorization of the Indian Health Care Improvement Act
    The reauthorization of the IHCIA should absolutely be included in 
an economic stimulus package because it provides authorities for 
methods to ensure a healthy Indian reservation workforce, creates jobs, 
provides for infrastructure development in Indian reservation 
communities, and expands access to safety net programs such as Medicaid 
and State Children's Health Insurance Program (SCHIP).
    Including the IHCIA bill as part of the economic stimulus package 
is consistent with the position of the Senate Finance Committee, 
prominent national organizations and academic scholars who agree that 
health care reform is an important component to improving this 
Country's economic crisis. Reauthorization on the IHCIA bill would 
stimulate and promote more prosperous and self-sufficient Tribal 
economies.
    The economic stimulus plan is expected to include key health care 
provisions to stimulate local economies. Some of these provisions would 
enhance the State Medicaid programs by providing funding opportunities 
and expansion of Medicaid services for the unemployed. It is also 
expected that the economic recovery plan will include healthcare 
specific provisions to address health care spending, incentives for 
health care professionals to participate in Medicare, and construction 
and maintenance of community health centers.
    Including the IHCIA, and at a minimum, Title II of the bill, will 
help stimulate Tribal communities by ensuring a healthy workforce, 
create jobs, and provide new and expanded authorities for health care 
facilities construction. In some parts of Indian Country, such as the 
Rosebud Sioux Tribe located in South Dakota, unemployment rates are at 
84 percent; and at Standing Rock located in North and South Dakota, the 
unemployment rates are at 71 percent. As many Tribal leaders have 
testified before your Committee before--why is it that the United 
States sends billions of dollars abroad to build homes, jails, 
government buildings, schools and hospitals, yet cannot do things for 
its own citizens, the First Americans.
    A healthy workforce is the foundation for any healthy economy. 
Tribal communities are no different: without good health, Indian people 
cannot go to work, might have to stay home to care for a family member, 
or will not seek employment or educational opportunities to improve 
their family's economic status. The IHCIA bill provides for new 
authorities to improve the health care of Indian people:

  <bullet> new and expanded health promotion and disease prevention 
        activities;

  <bullet> expanded authorities to prevent and treat chronic 
        conditions;

  <bullet> expanded authorities for cancer screenings;

  <bullet> comprehensive behavioral health care programs to address the 
        high rates of alcohol and substance abuse and mental illness.

    The IHCIA bill would facilitate creation of health care jobs in 
underserved Tribal communities which suffer from chronically high 
unemployment through:

  <bullet> programs for recruitment, retention of health care 
        professionals, with preferences for Indian applicants (who are 
        more likely to remain in the Indian community);

  <bullet> education allowances to encourage Indians to enter health 
        care training;

  <bullet> authority for hiring tribal outreach workers for Medicare, 
        Medicaid and SCHIP enrollment assistance.

    The IHCIA bill authorizes innovative methods for construction of 
health care-related and community sanitation facilities through:

  <bullet> new authority for provision of long-term care and assisted 
        living which will spur construction of such facilities in 
        underserved reservation communities;

  <bullet> revised criteria for selection of sites for construction of 
        new and expanded hospitals and clinics and for identifying 
        Indian communities in need of water and sewer facility 
        construction;

  <bullet> authority for construction of youth treatment facilities;

  <bullet> authority for IHS and Tribal joint venture projects for 
        health care facility construction;

  <bullet> authority for construction of ambulatory clinics for small 
        tribes.

2. Improved Access and Enrollment in Medicare, Medicaid and SCHIP
    Title II of the IHCIA amends the Social Security Act and improves 
access to and enrollment of Indian people into Medicare, Medicaid, and 
SCHIP. Due to the economic crisis in some Tribal communities, we expect 
an increase in enrollment in these safety net programs. Revenues 
generated from Medicare, Medicaid and SCHIP (IHS estimate of $780 
million annually) support Tribal economies through employment of health 
care professionals and maintenance and renovation of health care 
facilities.
3. Healthcare Funding of $1.485 Billion for Infrastructure Needs in 
        Indian Country

Healthcare Facilities Construction
    The average age of IHS facilities is 33 years, compared to 
mainstream healthcare facilities in the United States are only 9 years 
old. Many IHS facilities are overcrowded and were not designed in a 
manner that permits them to be utilized in the most efficient manner in 
the context of modern healthcare delivery. The condition of these 
facilities varies greatly depending on age and other factors. Some are 
in need of maintenance. In addition to maintenance, there is a need for 
modernization or expansion to address population growth, to accommodate 
modern equipment, or to meet the needs of rapidly changing health care 
delivery systems. Some areas, like the Portland Area (representing 
Washington, Oregon, and Idaho) and the California Area, have no 
inpatient hospital facilities at all. Because there is no hospital for 
AI/AN patients in these IHS Areas, these facilities depend on Contract 
Health Services (CHS) funds. Forcing patients to travel great distances 
to receive specialty care with limited funds. There needs to be a large 
influx of funding for healthcare facilities construction so that the 
facilities on the IHS facility construction priority list are 
completed, and other Areas in Indian Country, that have no projects on 
the priority list, can receive health care facility construction 
funding to address their needs.
    The IHS estimates that approximately 27 percent of the $2.6 billion 
in priority health facilities projects can be under construction within 
two years, approximately 35 percent of the $336 million in maintenance 
and improvement projects can be under construction within two years, 
and approximately 45 percent, or approximately $1.1 billion of the 
economically feasible projects, can be under construction within two 
years.

Health Information Technology
    Approximately $233 million for enhancements in health information 
technology (HIT) can be implemented within two years. An investment in 
health information technology within the IHS will directly benefit the 
economy through expenditure of funds in the private sector for goods 
and services. The current HIT needs within the IHS require additional 
infrastructure acquisition at the local, regional and national levels. 
Meeting these needs requires significant purchases of technology 
hardware and other IT peripherals through commercial IT vendors.

Contract Health Services
    CHS services are provided by private or public sector facilities or 
providers based on referrals from the IHS or tribal CHS program. Due to 
the severe underfunding of the CHS program, the IHS and tribal programs 
must ration health care. Unless the individual's medical care is 
Priority Level 1 request for services that otherwise meet medical 
priorities are ``deferred'' until funding is available. Unfortunately, 
funding does not always become available and the services are never 
received. For example, in FY 2007, the IHS reported 161,750 cases of 
deferred services. In that same year, the IHS denied 35,155 requests 
for services that were not deemed to be within medical priorities. In 
addition, in 2007, IHS was not able to fund 895 Catastrophic Health 
Emergency Fund (CHEF) \2\ cases. Using an average outpatient service 
rate of $1,107, the IHS estimates that the total amount needed to fund 
deferred services, denied services not within medical priorities, and 
CHEF cases, is $238,032,283. This estimate also does not capture 
deferred or denied services from the majority of tribally operated CHS 
programs (nearly one-half of all tribes).
---------------------------------------------------------------------------
    \2\ The CHEF is administered by IHS Headquarters and pays for high 
cost CHS claims.
---------------------------------------------------------------------------
Contract Support Costs
    Contract Support Cost (CSC) funding provides resources to Tribes 
and Tribal organizations, that operate health programs under the Indian 
Self-Determination and Education Assistance Act, to cover 
infrastructure and administrative costs associated with the delivery of 
health care services. Specifically, approximately 70-80 percent of CSC 
funding is used to pay salaries of Tribal health professionals and 
administrative staff. Without adequate CSC funding, Tribal health 
programs are forced to reduce the levels of health care in order to 
absorb the infrastructure and salary costs. In most instances, cutting 
health care services is the only alternative to financing these costs. 
Chronic underfunding has resulted in a substantial shortfall of CSC 
funding in the amount of $285 million (FY 2009--$132 million and FY 
2010--$153 million). An influx of $285 million in CSC funding shortfall 
will enable Tribes to create more jobs in Indian Country.

NIHB Support of Senate Plan
    The NIHB supports the January 9, 2009 letter from the U.S. Senate 
outlining a comprehensive plan to stimulate the economy in Tribal 
communities by addressing infrastructure needs and the creation of 
jobs. At the NIHB Winter Board meeting held on January 8-9, 2009, the 
NIHB passed Resolution 2009-01, which we have attached as part of this 
testimony. Consistent with the Senate request, the NIHB recommends 
that:

  <bullet> $400 million in health care facilities construction

  <bullet> $250 million in facilities improvement and maintenance

  <bullet> $250 million in sanitation construction

  <bullet> $200 million in contract health services

  <bullet> $150 million in health information technology is included in 
        the economic stimulus plan.

    In addition, the NIHB resolution recommends that $285 million in 
CSC shortfall funding be included to stimulate employment opportunities 
in Indian Country. For every $10 million in CSC shortfall funding, it 
is estimated that 100 jobs and $6 million in third party revenues are 
lost.

Conclusion
    On behalf of the NIHB, I appreciate the opportunity to present 
testimony on recommendations on healthcare infrastructure and support 
needs of Indian Country. The NIHB recommends that the American Recovery 
and Reinstatement Plan include reauthorization of the IHCIA, and in the 
alternative Title II of the bill, and infrastructure funding to address 
healthcare facilities and sanitation construction, maintenance and 
improvement of facilities, contract health services, health information 
technology, and contract support costs.
    We appreciate your leadership in bringing these important economic 
proposals forward for discussion and we look forward to working with 
you and your Committee to improve the health of Indian people and the 
health of our Tribal economies.
    I am available to answer any questions the Committee might have.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Chairman. Mr. Franklin, thank you.
    Finally, we will hear from Julie Kitka, who is the 
President of the Alaska Federation of Natives.
    While I introduce you, Ms. Kitka, I want to indicate that 
we have been joined by the Junior Senator from Alaska, Senator 
Begich. Will you ultimately be on this Committee, do you know?
    Senator Begich. Mr. Chairman, I was actually enjoying 
sitting by the press, because I could see what they were 
writing. But I am happy to be here.
    The Chairman. Well, whether you are ultimately on the 
Committee or not, I know that you will have an abiding interest 
in these issues, especially coming from Alaska, as Senator 
Murkowski has had, and a good number of other Senators from 
Alaska. So we welcome you today to join us, and we are glad you 
are here.
    Speaking of Alaska, Ms. Kitka, you may proceed.

   STATEMENT OF JULIE KITKA, PRESIDENT, ALASKA FEDERATION OF 
                            NATIVES

    Ms. Kitka. Thank you, Mr. Chairman, Madam Vice Chairman, 
other members of the Committee. It is our pleasure to 
participate in the hearing today.
    I first want to ask that our written comments be included 
in the record, including our addendum on the Emmonak situation.
    As all of us know, we in the United States are in the midst 
of a crisis. It is a transformational crisis. As we go through 
this, and it is not only affecting us as Native Americans, but 
us as Americans, and ourselves as citizens of the world, it is 
our view that the world we live in will be completely different 
than when we are through it. And the challenge to us is how to 
manage the crisis that is going on, and how to prepare for what 
the world is going to be like after this crisis is over.
    It is our view that working together with you, it is going 
to be really important to connect the dots of all the different 
signs that we see in the economy and put forward good Federal 
policies, implemented with the help of strong Native leadership 
across the Country and have solutions that have long-term 
value, good value for the U.S. money, and that will get us to a 
place that we want to be globally in the United States, where 
Native Americans and other Americans are able to compete in the 
world and in the economy, and not just barely make it through 
the crisis.
    In my testimony, I quoted Bill Gates, a recent comment that 
he made where he said that the highest leverage work that 
Government can do is to set policy and disburse funds in ways 
that create market incentives for business activity that 
improves the lives of people, including the poorest and most 
marginalized Americans. I think that is really important to 
keep in mind as you go forward with this recovery. It is about 
setting the investment climate, setting the market conditions, 
where the tremendous American can-do spirit is unleashed and 
business is helping to address some of these issues and 
problems. And the incentives on the tax credits and everything 
to get going, it is on different for Native American 
communities, the need to unleash these market incentives to try 
to make things happen.
    I also quote in our testimony that a mere recovery from 
this crisis is not going to be enough to have sustainable 
success. During World War II, for example, the famines of 1944 
led some military planners to look ahead to the war's end and 
how to rebuild Europe, and how they would rebuild its shattered 
farms and infrastructure. That is where they came up with the 
Marshall Plan. They looked ahead, past the crisis to see what 
needed to happen. We can do no less for Native American 
communities. I would like to recommend to the Committee that we 
put forward a Marshall Plan for the villages in Alaska, a 
Marshall Plan for our reservations, and that we look past the 
crisis on where we want to be and not just barely make it 
through. It is that magnitude of effort that needs to take 
place.
    I have a number of recommendations, about 11, 12 
recommendations on energy I would like to put forward. But if I 
could leave just one message, it is, it really is going to take 
this Committee to bring that message to the leadership in the 
Congress and to the Administration, that Native Americans 
shouldn't be left behind. We are some of the largest land 
owners in the Country. We have tremendous energy resources. We 
have a tremendous capacity that has been developing for decades 
all across the Country in the Native Americans.
    And we are ready to help this Country pull out of this 
recession. We want to be a part of it. We don't want it done to 
us, we want to be a part of it and help drive it. We have 
resources, we have leadership. We just need to have the 
appropriate tools.
    In addition, I would like to talk about, on the emergency 
in Emmonak that was brought forward, it is a really critical 
situation in Emmonak and a number of villages. The choice 
between whether or not to heat your home or have food for your 
family is real. We could have growing problems and we really do 
need help in this recovery to bring down the cost of energy to 
make it affordable. We need greater emergency relief 
capabilities to deal with food shortage problems. I would 
venture to say it is no different than in many other 
reservations across the Country where people that don't have a 
lot of resources are forced to choose between heating their 
homes, providing basic things for their children, as well as 
putting food on the table.
    I just ask that the rest of our recommendations be brought 
forward. One last one, and again we have quite a number of 
recommendations, we really think there is a need for a Native 
American Economic Council. There is tremendous capacity of 
Native leadership, whether or not you are talking about gaming 
tribes, whether or not you are talking about Native 
corporations, you are talking about the Navajo Tribe. Having a 
structure, an economic council, where we can engage at the 
level that many other people engage in, would be very helpful. 
It would be one of those pieces that could help bring us 
forward and help us to help ourselves.
    Thank you very much, and I appreciate the time to testify.
    [The prepared statement of Ms. Kitka follows:]

  Prepared Statement of Julie Kitka, President, Alaska Federation of 
                                Natives

    Mr. Chairman, Members of the Committee, Ladies and Gentlemen:
    For the record, my name is Julie Kitka; and I serve as President of 
the Alaska Federation of Natives. AFN is a statewide Native 
organization whose membership includes over 200 villages and tribes, 13 
regional Native corporations and 12 regional non-profit tribal 
consortia that contract and run federal and state programs.
    Thank you for inviting AFN to provide testimony today. I ask that 
the hearing record be kept open for a period of time to allow our 
tribes and corporations, and interested individuals to provide 
additional written comments.
    In many ways, we can describe rural Alaska and other Native 
communities as ``emerging economies'' similar to other countries around 
the world. As ``emerging economies'' we are and will continue to be hit 
very hard by the recession. Economic stimulus programs to help our 
economy will need to be tailored to the unique circumstances in our 
Native communities. To generate economic growth, we need U.S. financial 
and tax incentives to increase both local and expanded investment in 
our villages, which can lead to stronger and more responsive economic 
performance levels and badly needed jobs.
    Recently, Bill Gates was quoted as saying the highest leverage work 
that government can do is to set policy and disburse funds in ways that 
create market incentives for business activity that improves the lives 
of all people, including the poorest and most marginalized Americans. 
Within AFN, we agree wholeheartedly with this observation.
    This economic recovery effort will allow new thinking and has the 
opportunity to bring solutions many people take for granted, to people 
who can't get them. The federal effort will play a life-changing role 
in whether we continue to build capacity to build sustainable 
economies, or if we are sidelined in the new economy.
    A mere recovery from the crisis is not enough to deliver 
sustainable success. During World War II, for example, the famines of 
1944 led some military planners to look ahead to the war's end and how 
they would help Europe rebuild its shattered farms and infrastructure--
an effort that became the Marshall Plan. Long-term success was achieved 
not just by how well they handled a downturn, but also by their 
foresight in preparing for the upturn.
    Native Americans need a Marshall Plan--we need to be part of the 
recovery and we need to be prepared for the upturn. AFN urges the 
Senate Indian Affairs Committee to adopt sweeping recommendations to 
the full Congress and embrace an effort to allow Native Americans to 
have the tools we need for the new economy.
    Together, we need to be proactive in taking advantage of the 
opportunities presented in these extraordinary times. We must be the 
drivers of change. Federal policy and our leadership must encourage 
entrepreneurship to jumpstart the economic engines of our communities. 
We must not get distracted by the negative headlines, but instead 
remain focused on the opportunities at hand. We must rethink our 
assumptions about the future, rethink our strategies in light of the 
transformation-taking place and focus on laying the groundwork for 
economic success in the 21st century.

Recession
    A recession is defined as significant decline in activity across 
the economy, lasting longer than a few months. The technical indicator 
of a recession is two consecutive quarters of negative economic growth 
as measured by a country's gross domestic product (GDP). We are in a 
recession in the United States, and it will probably be the deepest 
recession any one of us will experience in our lifetimes--but these 
especially tough economic times bear with them especially exciting 
opportunities.

Recovery and Opportunities
    Thanks to the efforts of the Congress and the new Administration, 
we will soon see a massive stimulus bill, the likes of which we have 
never seen before, to build new infrastructure, to create new jobs and 
stimulate the credit market. This stimulus bill will be one of the most 
important, transformational federal efforts in our lifetime. If done 
right, it will provide an opportunity for people throughout the United 
States to re-engage with the economy in three major ways: (1) Direct 
Economic Stimulus--encourage entrepreneurship; (2) Infrastructure 
Building--ensure inclusion for Native communities & workers; and (3) 
Alternative Energy--secure economic support for new & existing energy 
resources. The Senate Indian Affairs Committee should ensure Native 
Americans are included in a significant way in all major sections of 
the bill.

Pooling of Resources--Indigenous Sovereign Wealth Fund
    Looking at Native communities as emerging markets within the United 
States market, we can also see an opportunity to create indigenous 
sovereign wealth funds. Through the combined capital or combined 
resources in these funds, Native communities could have the opportunity 
to track more resources and invest more wisely and create more jobs 
then ever before. Federal policies should encourage, provide 
incentives, support, and guarantees to make this happen.

What are Sovereign Wealth Funds?
    Pools of money derived from a country's reserves, which are set 
aside for investment purposes that will benefit the country's economy 
and citizens. The funding for a Sovereign Wealth Fund (SWF) comes from 
central bank reserves that accumulate as a result of budget and trade 
surpluses, and even from revenue generated from the exports of natural 
resources.
    Some countries have created SWF to diversify their revenue streams. 
For example, United Arab Emirates (UAE) relies on its oil exports for 
its wealth; therefore, it devotes a portion of its reserves in an SWF 
that invests in other types of assets that can act as a shield against 
oil-related risk.

AFN Requests for the Congress and New Administration
    1. Applicable economic stimulus funds intended to assist federally 
recognized tribes or Alaska Native Claims Settlement Act (ANCSA) 
corporations should be directly funded from the federal government, and 
not through the States.
    2. There should be clarifying language stating that the ANCSA 
corporations shall be treated as Indian Tribes for the purposes of the 
Economic Recovery bill.
    3. Any matching fund requirements in authorizing law under the 
Economic Recovery bill should be temporarily waived for Indian tribes 
and ANCSA corporations.
    4. The Congress should authorize, and President-Elect Obama should 
establish, a Native American Economic Council to provide Native 
Americans an opportunity to have a seat at the table when major 
economic decisions are made, to allow involvement in major new economic 
restructuring which will affect Native Americans, and to help focus on 
productivity and encourage Native American involvement in building U.S. 
competitiveness in the global economy. Native Americans need to be 
brought into major new economic restructuring which will affect our 
communities--right from the start, and not after the fact. We have the 
capacity across the nation because of our experience in tribal 
enterprises (both for profit and not-for-profit) to contribute 
expertise in development, which is sound.
    5. The Congress should authorize and President-Elect Obama should 
establish, a Native American Development Bank, similar to the Asian 
Development Bank or the Inter-American Development Bank and capitalize 
it in the economic recovery package he submits to the Congress.
    6. The Congress should encourage inter-tribal economic 
collaboration including the creation of Indigenous Sovereign Wealth 
Funds.
    7. The Congress and new Administration should strengthen and expand 
government contracting as a model to diversify and provide value to the 
US government during this recovery. The SBA 8(a) program is a success 
and can be a strong vehicle in the economic recovery. Tribal small 
businesses are a key vehicle for ramping up job creation at the same 
time providing real value, transparency, and accountability.
    8. The Congress and new Administration should encourage 
entrepreneurship and small business development. A successful example, 
which could be ramped up is the public-private partnership--the Alaska 
Marketplace Ideas Competition.
    The final set of recommendations deal with actions, which can be 
taken on energy.
    So what can we do to deal with the immediate energy crisis in rural 
Alaska, and how can the Federal Government play a key role in 
addressing the problem? We believe a multi-faceted approach much be 
taken--one that provides greater economic opportunities for Native 
tribes and corporations to develop energy resources and one that drives 
down local costs of energy. Here are some practical ideas, as a 
starting place:
    1. Congress should urge the Department of Interior to publish 
regulations on an expedited basis to implement the programs authorized 
by the Indian Tribal Energy Development and Self-Determination Act, 
Title V of the Energy Policy Act of 2005, and Congress should fully 
fund their implementation. The Indian Tribal Energy Development and 
Self-Determination Act authorizes a variety of financial, technical, 
environmental and other programs that are intended to empower tribes 
and Alaska Native Corporations to develop energy resources. It 
authorizes the Department of Interior's Office of Indian Energy Policy 
and Programs to reduce energy costs, enhance tribal energy 
infrastructure and improve delivery of electricity to tribal 
communities. It also authorizes a multi-billion-loan guarantee program, 
as well as other assistance to encourage development of renewable and 
non-renewable resources by tribes and tribal organizations. We have 
projects that are being held up because of the delay in the publication 
of regulations implementing this legislation. An important 
consideration for Alaska in the regulations is the inclusion of the 
Native corporations, who are crucial stakeholders. The Native 
corporations hold our land and resources, and must be included in any 
program affecting our land base.
    2. The congressionally created Denali Commission has requested 
Letters of Interest on developing small-scale alternative/renewable 
energy and energy efficiency projects in Alaska, with a budget of only 
$5 million. The Commission has received far more proposals that it has 
funds to support. Congress should increase funding to the Denali 
Commission for developing alternative/renewable energy projects.
    3. State and federal strategies should be developed to provide 
economic incentives to conserve energy (including tax credits, low 
interest loans, rebates and grants to weatherize homes, and grants to 
purchase more efficient heating systems, wind generators, solar panels, 
and other technologies.
    4. Congress should increase the supply of energy by encouraging 
exploration and development of private, state and federal uplands, both 
onshore and offshore. This can be done by providing incentives, such as 
OCS revenue sharing for Alaska's coastal communities, as has been done 
for Florida, Louisiana and Texas. If our communities could count on 
sharing some of the revenue from offshore leasing for their own 
critical infrastructure and other needs, there would be greater local 
support for exploration and development in offshore areas. AFN strongly 
supports the right of self-determination for our Native communities and 
urges that leases, which have generated a lack of widespread community 
support be revisited and discussions opened up with affected 
communities to address their concerns.
    5. Congress should work closely with the State to ensure that in 
development of a Natural Gas Pipeline in Alaska, our communities have 
access to the natural gas that will pass through that pipeline through 
spur connections and pipe; and that ownership, partnership, and 
contracting opportunities for Alaska Native tribes and corporations be 
part of the development. Serious training funds should be appropriated 
for workforce development to ensure broad Native participation in the 
projects. If the Committee is interested, we could submit much more 
detailed information and recommendations on the natural gas project.
    6. Congress should provide additional funding for the Low-Income 
Home Energy Assistance Program (LIHEAP) in Alaska--and should urge the 
State to add its own appropriations for this excellent program. This 
country should be concerned when its poorest citizens are left to rely 
on the generosity of companies like Citco to meet their basic energy 
needs.
    7. Congress should urge, and provide incentives for, states to 
develop their own comprehensive energy plans, with effective processes 
for local input. This is perhaps the most critical step of all, since 
it can open the door to more specific solutions at the regional and 
community levels.
    8. Congress should create real opportunities for alternative energy 
projects, at least one major demonstration project within each Native 
region in Alaska. And further projects should be structured to 
encourage Native-to-Native partnerships, both within Alaska and with 
Native American tribal partners. There is much sharing of information 
and experience, which can take place, and greater inter-tribal 
collaborations are to be encouraged.
    9. Congress should fully fund and implement the Energy Independence 
and Security Act of 2007, which was authorized last year. That bill 
includes a host of provisions to further renewable energy development, 
including a Renewable Energy Deployment Grant Program that would 
provide federal grants for up to 50% of the cost of building a wide 
variety of renewable electricity projects, including wind, geothermal, 
ocean, biomass, solar, landfill gas and hydroelectric projects in 
Alaska. It provides for a federal grant program specifically to help 
with construction of geothermal energy projects in areas of high 
electricity costs like rural Alaska.
    10. Congress and the State should provide homeowners with 
incentives to shift to supplemental alternative energy, including a 
weatherization programs, rebates for installation of energy saving 
changes.
    11. Congress should re-introduce, enact and fund S. 2232, the 
Native American Challenge Demonstration Project Act, creating a total 
of five pilot projects in remote, predominately Native American areas 
modeled after lessons learned from the US experience in providing 
foreign aid to the developing world. The project would use a compacting 
model to channel significant development funds to implement locally 
designed economic development strategies, including energy strategies. 
The objectives would be to enhance the long-term job creation and 
revenue generation potential of Native economies by creating 
investment-favorable climates and increasing Native productivity.
    Thank you for the opportunity to share our ideas. Thank you for 
your dedication and hard work. The task you are undertaking right now 
will shape our collective future, and that of our whole country. We 
wish you wisdom and strength to do it right.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Ms. Kitka, thank you very much.
    A couple of questions, first for Mr. Rever and Dr. 
Middleton. On Indian roads, my understanding is that there is 
an unmet need of about $20 billion for transportation 
infrastructure in Indian Country. And funds are made available 
for Indian roads through the Department of Interior and the 
Department of Transportation.
    Let me ask if you have a sense of how many construction and 
maintenance and improvement projects could the Department have 
ready to begin in 30 to 60 to 90 days? In other words, are 
there a lot of projects that are already engineered, waiting 
for funding?
    Mr. Rever. Allow me, Mr. Chairman. The road program is very 
fortunate in that, typically, in the design of roads and the 
underlying substrata of roads, it is very easy to design roads. 
Bridges are a little bit more difficult. I don't have an exact 
answer for you on the number of projects that are ready to go 
to contract at the moment, but I can provide that at a later 
date, tomorrow, for you. But I just don't have that number in 
front of me at the moment.
    The Chairman. I had understood it is somewhere around 900 
projects. Does that sound right to you?
    Mr. Rever. It is going to be something in that nature, yes, 
sir, but I don't have the exact number.
    The Chairman. The recent Interior report noted that the 
unmet needs for tribal detention facilities is about $8 
billion. Is that correct?
    Mr. Rever. Yes, sir, that is correct.
    The Chairman. Of that backlog, and all of us who have been 
on Indian reservations and toured these facilities, I mean, I 
assume most of us have seen, as I have seen a young teenager 
laying on the floor of the detention facilities with adults, in 
a facility in desperate disrepair and so on, a situation that 
is pretty pathetic. So there is an urgent need to address it. 
Of the $8 billion that is unmet as a need, what do you think in 
the next year or two the Department will be prepared to do?
    Mr. Rever. Mr. Chairman, I think that the Department is 
prepared to support the Department of Justice in the 
administration of construction and improvement of the prior 
program, which currently enjoys that authority and 
responsibility. And that is an issue for them to answer in 
administering their grant program. Should that program be 
redirected to the Department of Interior for construction 
design and administration, it will take us a while, because we 
are behind in starting that process. We are just now developing 
a priority list and have yet to consult with tribes and others 
in coming up with a list of projects that would be high on the 
list.
    But of all of the projects and the type of construction 
that you have mentioned, that will be the one that the 
Department of Interior would have the most difficulty bringing 
to fruition in a very short period of time, months instead of a 
year.
    The Chairman. Ms. Butterfield, since 2002, the Congress has 
provided replacement funding for 32, I believe, Indian schools. 
Of the 32, 12 have now been completed, so 20 remain to be 
completed. You described in your testimony some of the 
conditions, so we don't have to review that. All of us again 
who have toured these schools understand the desperate 
disrepair that exists in some areas.
    What is your sense of the priority? I described at the 
start of this a priority for Indian roads, Indian schools, 
Indian detention facilities. I have gone on with the list. 
Where does education rank for you, and that is repair and 
building of schools?
    Ms. Butterfield. Of course we would rank it close to the 
top, if not first, simply because of the safety issues that we 
are talking about in terms of children and staff. And some of 
the magnitude of the infrastructure need the repair that we 
cited in the report.
    The Chairman. Ms. Johnson, your assessment of the 
priorities?
    Ms. Johnson-Pata. The priorities outside of education, 
because she spoke a little bit about the priorities there, but 
the energy, the access to energy credits, and to be able for us 
to develop, become energy developers in our community, which 
means the tools that are available for us. I think the tribes 
are ready and willing for alternative energy and other models. 
We make some recommendations around looking at a study on what 
the challenge has been, access to the energy grid.
    Transportation is a big issue for us. I think they spoke 
about transportation. And as you note, in our document, all the 
links lead to the reports that we were able to actually get to 
what the lists were, so that we could identify ready projects, 
and be ready for this.
    I think a couple of things for tribes, tools for us for 
tribes to be able to take advantage of all the infrastructure 
development, we talk about infrastructure between schools and 
sanitation facilities and health care facilities and 
transportation. But then in addition to that, we are looking 
at, tribes want to be direct funding to the tribes, so that we 
can actually hire, but also be contractors. Some of the 
challenges for that is just construction bond financing. So we 
even in our package look at some of those tools so that part of 
this BIA loan guaranty funds will actually go for some 
guarantees on surety bonding.
    The Chairman. The issue of accountability has been 
described by the panelists. I think that is important as we 
proceed. I think, Mr. Franklin and Ms. Kitka, you have laid out 
in your testimony the priorities from your perspective. I think 
you have made some good suggestions, and I wanted to make that 
point. I am not going to ask further questions, because we have 
others here that I know want to inquire. But my purpose of 
having a hearing today is because while the stimulus or the 
economic recovery program is not complete and likely will not 
be complete until just prior to the President's Day recess, 
which I think is when we will take action, things are moving 
quickly. I am a subcommittee chairman on appropriations, and we 
are moving very rapidly to complete the Senate portion of it.
    But I wanted to put on record today from your perspective, 
all of you, what you think the priorities are with respect to 
the Indian tribal governments and the Indian nation. Not for 
the purpose of suggesting there should be earmarks, but for the 
purpose of suggesting that tribal governments around this 
Country represent a form of government that is important, that 
has significant needs, so that we should not just talk about 
local governments, city government, State government. Let's 
also talk about tribal government, and when you do, you have to 
understand that it is the highest rate of unemployment in the 
Nation, it is by far the most significant area of unmet needs 
in law enforcement, education, roads and so many different 
areas.
    For that reason, there needs to be a component, not 
earmark, but component that understands and recognizes and 
addresses these needs, all of which are job-creating. I am 
someone who believes that I want a recovery program that 
focuses like a laser on creating jobs. But I guarantee you, you 
put a road in my home county, in Hedinger County for 
maintenance or a new road, it is going to create jobs. No more 
jobs, however, than a road that you put on an Indian 
reservation. You hire contractors, put people to work.
    That is what this recovery program should be about. And it 
ought to go, in my judgment, ought to focus on some of the 
areas of greatest need, where you can, in addition to 
addressing some of the greatest need, put people to work at the 
same time.
    So my purpose in calling this hearing was simply to create 
the highlight of this need as we are all working to try to 
figure out, where does this investment go to try to promote 
economic recovery. So I thank all of the witnesses for giving 
us the opportunity to put this in that kind of a setting today, 
so that everybody who is working on this understands that this 
too is a priority.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. It goes back to 
my comments in the opening about the fact that the rest of the 
Country is in a very difficult economic situation, with jobs 
and job losses. It is not a good situation. But I think many 
out in Indian Country are saying, well, welcome to our world, 
in a very harsh way. And I am not saying that it is good or it 
is acceptable in any way, but it is a reality that has been 
faced in corners of our Country for far too long, that the 
economic situation has been in crisis.
    And yet, unemployment rates in Alaska have been sky high, 
and that is just the way they have been. It is not something 
that should accept.
    Dr. Middleton, I want to ask you a question. You had the 
opportunity to join me when we had our field hearing in Bethel, 
Alaska in August. I appreciate your attendance there. I think 
you got a first-hand look at some of the issues that we faced, 
the community that you were in, the Bethel region. That is the 
area, the region where Emmonak is. You heard from so many that 
had attended that field hearing, and just the local people who 
were there as listeners. You heard of the crisis in the region, 
you were focused very specifically at that time about the high 
energy prices and the impact.
    You have probably had some time to think a little bit more 
about what we might be able to do in regions like the Wade 
Hampton district, villages specifically like Emmonak. Ms. Kitka 
has also introduced into the record a further update on the 
crisis that we are facing right now. When it hits the front 
page of the Anchorage Daily News, it is getting folks' 
attention.
    Do you have any other ideas about not only what a community 
like Emmonak can do, very remotely located, 800 people, it is 
small, but what we can be doing further in the area of energy 
to help these people stay in the village that they want to stay 
in? And then a second question to you, I don't know if you are 
the right person to take this, but you are here today. So if 
you are not the one to answer it, I would like you to help me 
find somebody who is.
    We have an Alaska Native village governed by a federally-
recognized tribe. The community is facing a critical and 
immediate food crisis. Does the BIA have any authority to help 
alleviate the crisis? Is there any Federal agency that has the 
authority to step in? My office has been talking with USDA, 
with some of the other agencies. But I would like to know if 
there is any way that you all can assist in this very immediate 
crisis. And again, if you don't have the answer to that, I 
would like to know somebody that might be able to help us out.
    So if you can answer those, please.
    Dr. Middleton. Yes, Senator, thank you so much. I will 
address the second question first. I actually do not have the 
answer to that, but I will go back immediately and speak with 
the Assistant Secretary of Indian Affairs, as well as the 
Director of the BIA. And we will find an answer for you 
quickly, because it needs to be done quickly. So I would like 
to the opportunity to take that back and get back in touch with 
you.
    Yes, you are exactly right. Alaska is in a very unusual 
situation for energy. A lot of people don't realize it, that 
there is no grid to speak of up there. You have grids in the 
Anchorage, Juneau and Fairbanks area. But in the outlying 
villages, they rely upon locally-generated electricity 
resources, and most of it via diesel. The solution really is 
for us, and diesel, local diesel generation is going to be 
expensive in Alaska, and it is always going to be a gamble, as 
you mentioned. They were prepared to get a barge that would 
have carried them through the winter time, but it didn't show 
up. Or if they had miscalculated and a barge had come in, they 
would be in the same situation.
    So we need to be able to find alternative energy resources 
that we can take advantage of in these areas. Obviously there 
are some of the villages up there who could take advantage of 
geothermal resources, because there are some geothermal 
resources up there. Some may have hydro for some of the areas 
that don't ice up totally, and wind energy. But there is always 
going to be somewhat of a reliance on that base energy resource 
of diesel until we have other technologies that we can bring to 
bear that would help eliminate the need for as much diesel 
generation as occurs up there.
    Senator Murkowski. Let me ask you, Ms. Johnson, because you 
kind of spoke to some of the financing options. We have the 
resources, whether they be geothermal, wind or ocean energy or 
energy from the river, biomass, we have it all. But in order to 
allow for the technologies to be cost efficient in small 
villages, it is very difficult.
    Some of the funding mechanisms that you mentioned in 
talking about renewable energy projects and being part of this 
economic stimulus package, you said that some of the funding 
mechanisms are in place. Are we having much luck with the 
tribes, and this is not just with Alaska, this is throughout 
the Country, in funding energy development projects with the 
private sector, commercial credit markets? How is that all 
coming together?
    Ms. Johnson-Pata. Well, I think we have some challenges. 
First of all, the list goes on, but first of all, we have an 
office in the Department of Energy that has been under-utilized 
and underfunded.
    Senator Murkowski. Is it staffed?
    Ms. Johnson-Pata. It is staffed with someone who shares a 
hat with another position currently. I think if you have a 
full-time person there, that is the beginning.
    But secondly I think also, the technical, because part of 
that is the technical assistance that is necessary to be able 
to help the tribes, not only to help them ferret out a deal to 
work with the private sector, but also the tools to get the 
private sector engaged, being able to have access to the energy 
tax credits, to be able to use that as a leveraged part of the 
deal, to be able to deal with some of the things that we are 
talking about with the past projects of accelerated 
depreciation. The point when you negotiate, are able to 
determine where there is a point of contract or whether you 
actually have the job, so you can negotiate some of those 
benefits.
    Being able to have the bonding capacity, because we are 
talking about large scale projects now. So we need to be able 
to have the guaranty funding available to be able to help with 
those projects. And I think just really, and then of course we 
still have some issues I think with the TARA that we need to 
resolve a little bit, which allowed for the tribes to develop 
their own regulatory kind of process, approval process for 
these projects.
    So we have a list of those, in addition to the challenges 
of access to the energy grid. I have to say, in forward 
thinking, thinking about some of the things that Julie brought 
up, the challenges that this Country is going to be really 
defining is energy corridors. And we want to be able to make 
sure that we have capable, competent people who know our 
challenges, to be able to sit at the table, to be able to make 
sure that we are representing Indian Country well, so those 
court orders don't get developed and exclude or bypass Indian 
Country, as we have seen in other developments, whether they be 
cell tower placements or just railroad stations.
    And so we want to be able to make sure that all those 
pieces are there. I think Indian Country is ready and wiling. 
We need to be able to have both Department of Energy and 
Department of Interior working in collaboration together, 
having the right kind of technical support and staffing. Tribes 
are ready and willing, and we have the resources. There is no 
doubt about it.
    Senator Murkowski. Mr. Chairman, I have a couple more 
questions, but in deference to my colleagues, the clock is on 
running, so I don't know how long I have been talking.
    Dr. Middleton. Senator Murkowski, if I could mention, we 
actually received an answer that we think the emergency 
provisions of the general assistance program could be a 
mechanism available. We have folks looking into it right now, 
and we will get back to you as soon as we can.
    The Chairman. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. It was two years 
ago that the large land-based tribes had a meeting that I was 
at. One of the first questions I asked them was, what are your 
needs. And it didn't take long, 15 or 20 or 30 minutes, when I 
said, hold it, you are going to have to prioritize. Because 
there are too many. And in fact, they did, and I commend them 
for that.
    But I think in this recovery bill that we are dealing with, 
I think we can do a lot of things to make giant leaps forward 
to address some of the needs in Indian Country, and hopefully 
in the end that will be done. The Chairman talked about 
infrastructure, and I couldn't agree more. I know you folks 
agree also, it is critically important, and it is an 
opportunity to do some things and do some things right.
    Dr. Middleton, you talked about assessment of the justice 
system requirements. I believe it was you that talked about 
that, or was it Mr. Rever?
    Dr. Middleton. Jack Rever.
    Senator Tester. My apologies. Has there been an assessment, 
I am just curious, an assessment done on the shortfall in the 
number of people infrastructure, the cops on the street? Has 
there been an assessment of that? The Chairman talked about the 
$8 billion shortfall in prisons. Has there been anything talked 
about by the people who are involved?
    Mr. Rever. Yes, Senator, there has. As one would suspect, 
it shows a significant shortfall in the per capita distribution 
of policemen on the street in Indian Country as compared to the 
rest of the Nation.
    Senator Tester. Do you recall how big a shortfall that was?
    Mr. Rever. I do not in specific numbers, but can get it to 
you very quickly.
    Senator Tester. I would love that.
    Jackie, you talked about the Mississippi Choctaw. From your 
testimony, I gather we are not doing well, and now they are 
doing reasonably well, or as well as anybody. What did they do? 
What did they invest in to pull themselves up to a point where 
they could be the second largest employer in Mississippi?
    Ms. Johnson-Pata. They invested in the infrastructure early 
on. One of the first things that they did was the strip mall 
that they had there. They collaborated with the governments as 
governments. If you have ever watched their video, it is really 
pretty interesting. But the way that they knew that was a 
longer term strategy, they had a longer term strategy, they 
worked hard on collaborating with the governments, and they 
developed infrastructure. Now if you look even in the expansion 
of their projects, you can see everything still was, they still 
are very conscientious of being responsible for infrastructure 
development and business development with the capacity of 
building their tribal members. Not so that the tribe owned them 
all, but they created an entrepreneurial environment too, in 
addition to the tribal businesses that were there.
    Senator Tester. How long did it take, once they made that?
    Ms. Johnson-Pata. I think it was at least a 20-year 
investment. I think they are now at 30, 40 years. But it was a 
20-year investment before they started to see some recovery.
    Senator Tester. So you are talking about economic recovery?
    Ms. Johnson-Pata. Talking about economic recovery, yes.
    Senator Tester. Robin, you talked about education needs. I 
am particularly interested in technology infrastructure. I know 
it is lacking. And I think it is a priority to move forward 
with it. The goals of connectivity are big, and they are big 
challenges. Could you tell me what efforts are out there right 
now to support the goals of better connectivity as far as 
technological infrastructure goes?
    Ms. Butterfield. Actually, I don't have the specifics on 
that. But I concur, it is huge in Indian Country. It has been a 
long time coming in terms of updating our classrooms and the 
skills of our schools because of their rural nature. So we can 
find that information for you.
    Senator Tester. That is good. When it comes to health care, 
and I appreciate the information that you gave us, Mr. 
Franklin, could you address the urban Indian health clinic 
situation? I know we requested $1.2 billion in the recovery 
package. What would you anticipate would be used, and I don't 
want to take any focus off of what is going on in Indian 
Country, but from an urban health care standpoint, those urban 
clinics?
    Mr. Franklin. I don't have those numbers, sir, but I can 
certainly get them to you.
    Senator Tester. I am thinking more, you don't have to give 
me numbers, that is fine, I am thinking about your vision. How 
important are those urban health care centers? Are they as high 
a priority? Less of a priority? From your perspective, just 
your perspective.
    Mr. Franklin. I would think that from my perspective, sir, 
Indians are Indians, no matter where we are. So whether or not 
they are in the cities or on the reservations, they have the 
same rights to health care that any one of us would. So those 
urban clinics, they serve a very important purpose for our 
urban communities. Not just in health care, also for meeting 
places and creating healthy Indian families in urban 
environments is a challenge when you take our tribal members 
off of their traditional lands and put them in urban settings. 
Maintaining that connectivity to being Indian people, our urban 
clinics are very important. They serve multiple roles, 
including that healthy family.
    Senator Tester. Very good.
    Ms. Kitka, you talked about, you all did, actually, want to 
have a place at the table to help drive the economy forward, 
that you have solutions to do that. This is just a comment, 
more than a question. I couldn't agree more. I think that not 
only, if we invest in infrastructure in Indian Country, not 
only will it help Indian Country, it is going to help 
everybody. You guys can be a major, major driver in this 
turnaround. Hopefully, when all is said and done, we will be 
able to do more than we say.
    Thank you very much.
    The Chairman. Senator Begich, our new Senator is here. By 
the way, I was just hoping that Senator Begich, when this is 
completely evaluated in terms of Committee assignments, that 
you might be on the list to join this Committee. Would either 
of you have questions that you would like to inquire?
    Senator Begich. Mr. Chairman, I like your style compared to 
Armed Services, because the clock never moves. So I like it.
    [Laughter.]
    Senator Begich. Don't worry.
    I just have one question. I may have missed something at 
the beginning, Mr. Chairman. Thank you for the courtesy to be 
here and to be able to ask a quick question. Someone may have 
asked this already or answered this, in regard to elder 
housing, senior housing infrastructure needs. If they answered 
that, that is fine, I will get it later. But maybe someone 
could comment on what the needs might be with regard to senior 
housing, elder housing. I know we recognize it in Alaska as a 
growing concern. I don't know if anyone would be the 
appropriate person, whether it is Julie or Jackie.
    Ms. Johnson-Pata. I might be able to answer that, thank 
you.
    Housing needs in Indian Country are just as great. And with 
the growing aging population we are really starting to see an 
increase in the need for senior housing. It has been very 
difficult in our reservations and our small communities in 
rural Alaska to be able to have housing that is designated for 
our seniors or our elders and to be able to make it cost 
efficient
    One of the challenges, and we have been able through 
agriculture programs and NAHASDA to be able to provide some of 
that housing. But what we haven't been able to do is actually 
provide any in-home care, or to be able to find the next level 
of care facilities, so that our elders can actually stay within 
our communities when they do need a little bit of care in their 
housing facilities. I think that is an area that we really need 
to focus on.
    In addition to that, regarding economic stimulus, one of 
the areas that I find challenging is that we don't have access 
to the weatherization programs. And many of our elders really 
need that weatherization program to be able to deal with the 
affordability issues. So when we look at that, we look at 
additional dollars to the HIP program, which is a BIA program, 
which I understand there are some issues about the Department 
of Interior trying to RIF those employees as of March.
    But what we are trying to say is that this is a viable 
program for delivery of services, and primarily does go to our 
elders. It is a program that actually deals with our 
weatherization issues. In the Department of Energy, although we 
are eligible, we have not received funds from the Energy 
program for weatherization. That is another area we should look 
at when we look at the stimulus and the impacts that are 
happening to Indian Country.
    The Chairman. And I should have called on you first, 
Senator Udall, do you have inquiry?
    Senator Udall. That is fine, I want to defer to my young 
colleague here.
    [Laughter.]
    Senator Udall. Thank you very much for letting us 
participate, both of you. I know that we aren't officially on 
the Committee yet, and I really very much hope to be in this 
Committee, because it is such an important committee to the 
Nation and to New Mexico and many of our States with 
significant Native American populations.
    The thing that the Chairman pointed out that I think it 
significant is when we talk about billions of dollars of 
backlog, and you mentioned $20 billion of backlog in terms of 
roads and bridges, it isn't just this area, it is every area 
that we have these backlogs. We have it in schools, we have it 
in housing. We have it across Indian Country. It is such a big 
piece, it is such a big amount that you can't do it in one 
year.
    I just wonder, we are going to have to start thinking, in 
this next Administration, like the Clinton Administration did, 
of a plan for getting rid of the backlog. We may not be able to 
do it in one year, but boy, maybe we can do it in four years 
and have a specific plan to do that.
    So I hope that all of us think of a way to move forward 
dramatically. Jackie, your testimony highlighted that, and I 
think everyone, when Ms. Kitka, you talked about a Marshall 
Plan. We need to look specifically at how we really weigh in, 
in a big way to remedy the situation that we have right now. I 
would just open it up, if any of you have any comments on that, 
or if you have given any thought at Interior along that line.
    Thank you very much, Mr. Chairman, Ranking Member.
    Ms. Kitka. Senator Udall, through the Chair, I did, in 
thinking about other models that are going on, and I spent a 
lot of time kind of studying what some of the wealthiest 
countries in the world are doing. For example, in Saudi Arabia, 
when they look at their populations, and they look at this 
growing, young male population and the need to create jobs for 
them, what they have done is they have created and set as a 
national goal what they are calling economic cities. They have 
six major economic cities that they are planning and putting 
their wealth behind, with the specific purpose of creating jobs 
and diversifying off of just being oil.
    I think that we need to look at some of these leading 
models that are out there. I describe it as creating economic 
villages. Model ones, communities for the future that have 
diversified economies, but they are consciously designed for 
economic purposes and putting all their energies together to 
make them a success. That is what I am hoping in this economic 
recovery that we can do, is we can look at our reservations, we 
can look at our rural communities and say, this is where we 
want to be 10 years from now, what can we put into place that 
will accomplish that and look at some of these models.
    Ms. Johnson-Pata. If I could just add to that, when we were 
looking at this and we wanted to make sure that we weren't 
dealing with issues of backlog as far as us delivering, and 
wanted to make sure that we got the money spent, and it was 
accountable, and when money goes directly to the tribes, we 
actually get the projects on the ground faster. So there is, 
even when we look at the transportation programs and other 
programs, when you see any kind of a backlog in the Government, 
it is usually because of the review process, and maybe some 
design or engineering that is being provided actually by the 
departments themselves.
    I think that, and our recommendation is, as much as 
possible we want the money to go directly to the tribes, we 
don't want the Government to be a barrier. We believe that the 
money can get expended and the projects, as we noted, the 
projects are designed, ready to go. We can get those done and 
out the door faster.
    The Chairman. Well, let me thank the witnesses. As I 
indicated previously, I think putting on the record today in 
this setting the needs, particularly the unmet needs on Indian 
reservations at a time when this Country appears prepared to 
make very substantial investment in infrastructure for the 
purpose of creating new jobs, I think this is a very fertile 
area for that kind of investment and the creation of jobs, and 
represents one of the great unmet needs in our Country.
    So let me thank all of you for coming to the hearing, and 
this hearing is now adjourned.
    [Whereupon, at 3:55 p.m., the Committee was adjourned.]

                            A P P E N D I X

    The information printed on pages 57-93 was attached to several 
letters and prepared statements in this appendix.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
 Prepared Statement of Kara Brundin-Miller, Tribal Chairperson, Smith 
                            River Rancheria

    Chairman Dorgan, Ranking Member Murkowski, and distinguished 
Committee members, please accept this testimony on behalf of the Smith 
River Rancheria, a federally recognized Indian tribe of Tolowa Indians 
that is located in the Pacific Northwest three miles south of the 
Oregon-California border. The Smith River Rancheria consists of 1,253 
Tribal members who form the general membership. My name is Kara 
Brundin-Miller and I am Tribal Chairperson of the Smith River Rancheria 
and I appreciate the opportunity to comment on massive economic 
recovery legislation that is being developed by Congress. I have 
provided information about the Smith River Rancheria's transportation 
planning process to illustrate not only the transportation needs in 
Indian country, but that funding can be used to address many of these 
needs as quickly as funding can be made available.
    The poor condition of roads and bridges in Indian country continues 
to jeopardize the safety of Tribal members and the traveling public. In 
response, Tribes from around the country have submitted countless 
numbers of shovel-ready projects to the Bureau of Indian Affairs and 
the Federal Highway Administration in hopes of obtaining funding for 
transportation improvements. Without these improvements, the health, 
safety, security and economic well-being of Smith River Rancheria 
Tribal members, and members of Tribes around the country will continue 
to be at risk. This is why it is imperative that Congress include 
sufficient funding for the Indian Reservation Roads (IRR) Program and 
other Tribal transportation programs when it takes up the Economic 
Recovery and Reinvestment Plan so that Tribes can make necessary 
transportation improvements in Indian Country.
    The Smith River Rancheria has used its limited resources to do what 
it can to meet the transportation and safety needs of pedestrians, 
bicyclists, and motorists that travel through the Smith River 
Rancheria, and we have worked diligently to instill the values of 
livability and walk-ability in all of our transportation systems. We 
have actively sought out opportunities to collaborate with the states 
of California and Oregon, and we have worked with the counties of Del 
Norte and Curry to promote self-determination and cooperation. We have 
also sought to integrate these systems with our elder housing, health 
clinic, social services, and economic programs for the benefit of our 
region.
    Over two years ago, the Tribe, with funding assistance from the 
California Department of Transportation's (Caltrans) Environmental 
Justice/Community-Based Transportation Planning Program, initiated a 
comprehensive and nationally-recognized planning process to improve the 
safety and construction of our tribal, local, state and federal roads 
that will contribute to economic development in the region. As a 
culmination of this planning process, Smith River Rancheria is in need 
of funding for the North/South Indian Road Safety Project, which will 
make the intersection of North/South Indian Road and Highway 101 safer 
for vehicles and pedestrians. This intersection is at the heart of the 
Rancheria and is heavily traveled because of its proximity to the 
Tribe's medical clinic, Head Start building, cultural center, and 
various other heavily visited areas. Currently, the road is not wide 
enough to accommodate the volume of traffic traveling on Highway 101 
(which is only expected to increase) and it does not have sidewalks or 
other pedestrian pathways, which forces people to walk on the edge of 
this busy highway.
    A Traffic Accident Summary Report that was provided by Caltrans for 
this project area corridor over a five year period (2002-2007) provides 
additional details. Over this 5-year report period, there were a total 
of 138 collisions, which included 80 that involved property damage 
only, 51 involving injuries, and 7 fatalities; and traffic has only 
increased as the Tribe has continued to grow. An additional accident on 
Dr. Fine Bridge over the wild and scenic Smith River since the end of 
this reporting period resulted in another fatality for a total of 139 
accidents and 8 fatalities over the last 5 years. The Traffic Accident 
Summary provides additional information as presented below:

------------------------------------------------------------------------
      Primary Collision Factor                Type of Collision
------------------------------------------------------------------------
28% Improper turn                    45% Hit Object
24% Speeding                         23% Rear-end
12% Other                            13% Broadside
10% Alcohol                          6.5% Overturn
8% Failure to Yield                  4.3% Heads-on
1.4% Fell asleep                     7% Sideswipe
                                     0.7% Auto/pedestrian
------------------------------------------------------------------------

    The North/South Indian Road Safety Project is an Indian Reservation 
Roads (IRR) transportation facility and is included on the federal IRR 
Inventory. This project was approved and certified in a special session 
of the Tribal Council on December 13, 2008. The Tribe has authorized 
the Federal Highway Administration (FHWA) and the Bureau of Indian 
Affairs (BIA/DOT) to place this project on an IRR HPP Transportation 
Improvement Project list if the project is selected and approved for 
funding.
    This project is shovel-ready and can be completed in three phases. 
The Smith River intends to contribute approximately 50 percent of the 
funding for Phase 1 of this project and 12 percent of the total project 
cost.

        1. Phase 1 ($1 million): Improve vehicle and pedestrian safety 
        by constructing storm drain system, curb, gutter and sidewalk 
        on south side of North Indian Road, east of Highway 101 and 
        Pedestrian walkway and planter strip on the west side of South 
        Indian Road.

          Status: completed PSE and BIA's Environmental Assessment 
        (EA)/Finding of No Significant Impact (FONSI). Amount of IRR 
        HPP funds requested: $1 million.

        2. Phase 2 ($3.5 million): Underground overhead utilities 
        (electric, TV, cable) Widen roadway and expand shoulders, 
        construct overlay and stripe.

          Status: Initial environmental review and geotechnical 
        completed and PSE initiated, depending on review and approvals, 
        PSE will be completed in 90-180 days.

        3. Phase 3 ($1 million): Traffic calming at intersections with 
        State Highway 101 (i.e. roundabout, stoplight, pork chop 
        islands, etc.).

          Status: Initial environmental review and geotechnical 
        completed and PSE initiated, coordinating with Caltrans for 
        necessary design input and approval, PSE can be completed in 
        180+ days.

    I would like to thank you again, Chairman Dorgan, Ranking Member 
Murkowski, and Members of the Committee for the opportunity to testify 
today on behalf of the Smith River Rancheria. Again, it is imperative 
that Congress include sufficient funding for the Indian Reservation 
Roads (IRR) Program and other Tribal transportation programs when it 
takes up the massive economic recovery legislation. I have provided 
information about the Smith River Rancheria's transportation planning 
process to illustrate not only the transportation needs in Indian 
country, but that funding can be used to address many of these needs as 
quickly as funding can be made available. Should you have any 
additional questions, please contact the Tribe's Tribal Administrator, 
Russ Crabtree at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="15676066663b766774776167707055617a797a6274387b667b3b727a63">[email&#160;protected]</a> or 707-487-9255.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
   Prepared Statement of Hon. Chris Devers, Chairman, Pauma Band of 
      Mission Indians; Chairman, Council of Energy Resource Tribes

Introduction
    Good afternoon Chairman Dorgan, Vice Chairman Murkowski, and 
distinguished members of the Committee on Indian Affairs. I want to 
thank you for your leadership in holding today's hearing on ``Job 
Creation and the Economic Stimulus Plan in Indian Country'' because 
Indian people are being hit hard by the current economic challenges we 
are facing in America.
    My name is Chris Devers and I am Chairman of the Pauma Band of 
Mission Indians in California. I am also Chairman of the Council of 
Energy Resource Tribes (CERT) which is located in Denver, CO. On behalf 
of the 57 member Indian tribes of CERT, I am pleased to submit for the 
Committee's consideration the following statement regarding energy 
development, environmental stewardship, and job creation in Indian 
Country.
    CERT was founded in 1975 by American Indian tribal leaders when our 
country was in the midst of what was then known as the ``Arab Oil 
Embargo.'' The embargo was put in place by the Organization of 
Petroleum Exporting Countries in response to America's support for 
Israel in the 1973 Arab-Israeli War. Many of us remember that the 
embargo caught America flat-footed and resulted in higher prices for 
heating oil and gas rationing that created long lines at the gas 
stations.
    Back then, our national leaders promised that we would ``end our 
dependence on foreign oil'' and return America to a position of 
unquestioned strength in the world. Well, here we are nearly 40 years 
later and our dependence on imported oil and even natural gas has, 
incredibly, grown worse. The reason I raise the issue of historical 
context is that the mission of CERT is to support its member Indian 
tribes in the development of their management capabilities and the use 
of their energy resources to build sustainable economies and strong 
political institutions.
    For purposes of today's hearing, the point is that American Indian 
energy development is American energy development and with it comes job 
creation and increases in household incomes for those that work in the 
energy sector.

The Unmatched Potential of American Indian Energy
    American Indian energy holds enormous potential to create thousands 
of good-paying jobs, generate revenues, and aid in the development of 
tribal economies as well as help satisfy the American economy's need 
for a reliable energy supply. Three factors contribute to this 
scenario:

        1. The enormous reserves of oil, gas, coal, and renewable 
        resources owned by Indian tribes;

        2. The pricing environment for energy products; and

        3. The enactment by Congress in 2005 and 2007 of classically 
        liberal, pro-production energy policies. \1\
---------------------------------------------------------------------------
    \1\ These are the Energy Policy Act of 2005 (Pub.L. 109-58) and the 
Energy Independence and Security Act of 2007 (Pub.L. 110-240). Both 
statutes contain provisions favorable to Indian tribal energy 
development and environmental management.

    One merely witness the phenomenal success of the Southern Ute 
Indian Tribe in southwest Colorado, the Ute Tribe of the Uintah and 
Ouray Reservation in northeast Utah, and the Osage Nation in eastern 
Oklahoma to understand that American Indian energy resources, developed 
properly, can transform Indian economies and assist tribes in achieving 
real and lasting self determination.

1. Indian Tribal Energy Resources and the Pricing Environment
    American Indian tribes in the lower 48 states--especially those in 
the Rocky Mountain west--own an enormous amount of energy resources. 
With the current Federal restrictions on exploring for energy in the 
Great Lakes, the eastern portion of the Gulf of Mexico, the California 
coastline, and the Alaska National Wildlife Refuge (ANWR), Indian 
tribal resources and lands in the Rocky Mountain West present one of 
the most significant opportunities for domestic production in the 
United States.
    In what is now a dated analysis, in 2001 the U.S. Department of the 
Interior (DOI) estimated the total dollar value of energy produced from 
Indian tribal lands for the period 1934-2001 to be $34 billion. These 
revenues derived from 743 million tons of coal, 6.5 billion cubic feet 
of natural gas, and 1.6 million barrels of oil. In terms of undeveloped 
reserves and undiscovered resources, the DOI projected that Indian 
tribal lands could prospectively generate $875 billion, derived from 53 
billion tons of coal, 37 billion cubic feet of natural gas, and 5.3 
million barrels of oil.
    These projections were made in 2001 and in the intervening 7 years, 
the price of energy products has increased significantly so that, 
currently, the likely revenue projection would be nearly $1.5 trillion. 
A comparison of the 2001 and 2008 prices for oil, gas and coal is 
illustrative:

------------------------------------------------------------------------
                                                   2001-Forward (2008
                       1934-2001 (2001 Prices)           Prices)
------------------------------------------------------------------------
Oil                   $15 Billion               $715 Billion
Gas                   $7.9 Billion              $227 Billion
Coal                  $10.6 Billion             $537 Billion
Total                 $33.5 billion             $1.479 trillion
------------------------------------------------------------------------

2. The New Energy Laws of 2005 and 2007
    On August 8, 2005, President Bush signed into law the Energy Policy 
Act of 2005 (Pub.L. 109-58) which included as title V the Indian Tribal 
Energy Development and Self-Determination Act. The new law authorizes a 
variety of Federal technical and financial assistance to participating 
Indian tribes and seeks to reduce administrative obstacles at the 
Federal level to encourage greater levels of energy development on 
tribal lands.
    Unlike some congressional enactments, the new Indian tribal energy 
law does not discriminate in terms of renewable versus non-renewable 
resources. Instead, the law leaves the decisions over whether and how 
to develop tribal energy resources to the Indian tribe and the energy 
markets. The centerpiece of the new law is the authority provided to 
the Secretary of the Interior to negotiate and enter agreements with 
willing tribes that would govern energy and related environmental 
activities on tribal lands.
    Similarly, in 2007, Congress enacted and the President signed the 
Energy Independence and Security Act (EISA, Pub.L. 110-140). The EISA 
contains significant opportunities for Indian tribes and tribal 
colleges to receive research, development, and production grants 
related to renewable and alternative energy development. The Act 
authorizes tens of billions of dollars for these purposes and 
represents the most significant energy research law to be enacted in 
years.

3. The Next Step is Actual Project Development
    The new energy laws were signed into law in 2005 and 2007 and the 
regulations to implement them are now in effect. For the past four 
fiscal years, the Congress has appropriated funds for the Department of 
Interior's Office of Indian Energy and Economic Development and the 
Department of Energy's Office of Indian Policy and Programs, both of 
which are charged with administering the new laws.
    These offices have been very active and responsive to the potential 
for Indian tribal energy and have assisted Indian tribes that seek to 
develop their energy resources.
    CERT's perspective on all of these developments is that the next 
steps involve Indian tribes inventorying their energy resources, 
identifying potential projects, and working with energy and financial 
partners to bring these projects to completion.

The Economic Stimulus Plan and Indian Energy
    On January 9, 2009, this Committee's leaders, along with 13 other 
U.S. Senators, issued a letter to President-elect Obama urging the 
inclusion of billions of dollars in Indian tribal projects in the 
Economic Stimulus Plan. CERT and its member tribes were happy to note 
the inclusion of some $4.4 million for energy development on Indian 
lands.
    As CERT understands the discussions now taking place, in order for 
specific projects to benefit from the Economic Stimulus Plan, they must 
(1) spend the funding quickly, (2) create jobs in the short-term, and 
(3) constitute and serve sound national economic policy in the long-
term.
    In addition to enormous amounts of non-renewable resources, 
primarily oil, natural gas, coal, and coal bed methane, Indian tribes 
have significant development potential in renewable sources of energy 
such as wind, solar, hydro, biomass, geothermal, and others.
    Reliable information suggests that the vast majority of potential 
renewable energy projects in Native communities are modest in size and 
more akin to the community development scale than the commercial 
utility scale. As a result, most of these projects might only require 
an environmental assessment and not a full-blown environmental impact 
statement under the National Environmental Policy Act (NEPA). More 
often than not, these projects require Federal support to fund the 
construction costs in order for them to proceed to construction.

1. DOE's Recent History of Funding Renewable Projects on Tribal Lands
    From 2002 to 2008, the U.S. Department of Energy's Tribal Energy 
Program funded 93 tribal energy projects totaling $16.5 million. These 
federal funds were leveraged by $6.4 million in cost-share contributed 
by participating tribes.
    The following chart relating to tribal renewable projects is 
derived from the DOE's website.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Given the funding history of the last 7 years as well as the 
significant additional and unmet demand for financial support for other 
tribal projects, additional funding of approximately $200 million is 
justified. Not reflected in the DOE's funding history is the lack of 
energy-related infrastructure needed to facilitate and serve these 
projects and make them viable. Such infrastructure includes 
transmission lines, electrical lines and similar infrastructure that 
would require addition hundreds of millions in Federal assistance.

2. Proposal for a ``National Tribal Energy Efficiency Initiative''
    In addition to renewable projects, there is another initiative that 
would satisfy the criteria laid out above and it would (1) generate 
more jobs in the short-run and long-run; (2) cost less in terms of 
Federal dollars; (3) have greater environmental impacts in Indian 
Country; and (4) produce greater economic benefits for virtually every 
Indian tribe and have the greatest impact on the tribes with the 
largest number of poor and working poor families. The initiative CERT 
has in mind would be something along the lines of a ``National Tribal 
Energy Efficiency Initiative'' that could fund virtually every Indian 
tribe. The initiative would be massive but, if properly structured, 
would maximize the use of local labor and local Indian contractors.
    In addition to home weatherization, the initiative could include 
all tribal government buildings and Federal facilities located on 
tribal lands. The high cost of heating and cooling because of poorly-
constructed and poorly-insulated buildings equipped with highly 
inefficient lighting and H-VAC systems erodes program budgets, reduces 
services and produces environments that are not healthy for workers or 
for people who use access the facilities. It would dramatically reduce 
the operating and maintenance costs for health clinics, hospitals, 
schools and tribal colleges, tribal administrative buildings, and other 
structures on tribal lands.
    The initiative would also have an immediate impact on the utility 
bills for heating for the most vulnerable Indian populations in the 
Northern tier of the country from the Pacific Northwest to Maine, the 
Tribes of the Four Corners Area, and the poor families of the Oklahoma 
Indian Tribes. And for the desert southwest Tribes, their weather 
related issues come in the summer months. Regardless of their 
geography, all of the Tribes have vulnerable populations: the elderly, 
infants and the disabled.
    In a relatively short period of years, the initiative would 
transform Indian Country from among the most energy inefficient to 
among the more energy efficient and would lead to better health, more 
efficient programs and more competitive tribal economies. The energy 
savings could be measured in real dollars because the good thing about 
energy efficiency is that the savings are not one-time occurrences but 
accrue year after year. Even a massive Federal expenditure in an 
initiative of this type would be repaid in savings in 3 to 5 years, and 
would continue for another 10 to 20 years, depending on building 
maintenance.
    For this initiative to succeed, the funding would need to be 
administered through an agency that is able to direct the money very 
quickly to each interested Indian Tribe. One way to expedite the 
funding process would be to convene regional ``pre-application 
workshops'' so interested and eligible Indian tribes could respond 
appropriately to the agency distributing the funding. If the funds were 
routed through the Administration for Native Americans (ANA) in the 
Department of Health and Human Services, that agency would do a superb 
job of fund distribution with minimal red-tape because it has a 
demonstrated ability to move money very quickly into tribal programs. 
The ANA has a network of regional and national technical assistance 
contractors already in place to provide the workshops and hands-on 
technical assistance to ensure every interested and eligible Indian 
Tribe has the best chance to access the program.
    In addition to CERT, there are other national Indian organizations 
that could be of assistance in mobilizing Indian contractors and the 
local pool of Indian labor such as the National Council on Tribal 
Employment Rights (NCTERO) which has a national network of local TERO 
offices that have data on the local workforce and the relationship with 
labor unions for training and apprenticeship programs, as well as data 
on local, Indian-owned companies. The National Center for American 
Indian Enterprise Development (NCAIED) has an excellent network of 
larger Indian and tribal construction companies as well as a network of 
major private sector companies, such as Home Depot, that might be 
included in such an initiative to supply the material needed for these 
activities.

Conclusion
    Mr. Chairman, this concludes my statement and I thank you again for 
the opportunity to share CERT's perspectives with you and the Committee 
on Indian Affairs.
                                 ______
                                 
   Prepared Statement of Chad Smith, Principal Chief, Cherokee Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of John A. Barrett, Chairman, Citizen Potawatomi 
                                 Nation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Prepared Statement of the Council for Tribal Employment Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Hon. Jeanne Jerred, Chairwoman, Confederated 
                   Tribes of the Colville Reservation

    On behalf of the Confederated Tribes of the Colville Reservation 
(``Colville Tribe'' or the ``Tribe''), I am pleased to provide the 
Committee on Indian Affairs this prepared statement on proposals to 
create jobs and stimulate Indian economies. I would also like to 
express the Colville Tribe's thanks to the Committee for developing its 
own $3.58 billion proposal for Indian country as set forth in the 
January 9, 2009, letter to President-elect Obama.
    As the Committee is aware, the National Congress of American 
Indians (NCAI) developed and disseminated the ``Indian Country Economic 
Recovery Plan,'' which contains a number of suggestions for inclusion 
in the economic stimulus legislation. Using the Colville Tribe as an 
example, this statement will explain how the economic downturn has 
impacted Indian country and illustrate how the NCAI and the Committee 
proposals would immediately benefit the Colville Tribe and similarly 
situated Indian tribes nationwide.
    Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is, as the name states, a 
confederation of 12 smaller aboriginal tribes and bands from all across 
eastern Washington State. The Colville Reservation encompasses more 
than 1.4 million acres and is located in north central Washington 
State. The Colville Tribe has more than 9,300 enrolled members, making 
it one of the largest Indian tribes in the Pacific Northwest. About 
half of the Tribe's members live on or near the Colville Reservation.
    The Colville Tribal Enterprise Corporation (CTEC) is a tribal law 
corporation that operates nearly all of the Colville Tribe's 
businesses. CTEC operates more than a dozen businesses, including 
retail, tourism, and construction. Collectively, the Colville Tribe's 
government and CTEC employ approximately 2,000 individuals, making the 
Colville Tribe one of the largest employers in all of eastern 
Washington State.

Impact of the Recession on the Economy of the Colville Tribe
    The Colville Reservation contains approximately 800,000 acres of 
harvestable timber. Although the Tribe has diversified into several 
lines of business, timber remains the Tribe's largest source of revenue 
for governmental programs and services. The Colville Tribe owns and 
operates a traditional sawmill, Colville Indian Precision Pine, and a 
plywood manufacturing facility, Colville Indian Power and Veneer 
(CIPV). CIPV is the only tribally owned and operated plywood plant in 
the U.S. that remains in operation.
    The health of the Tribe's wood products industry is tied closely to 
the nation's housing market. The severe downturn in the housing market 
has impacted the Colville Tribe particularly hard. The housing downturn 
has weakened demand for wood products generally, which has resulted in 
lower prices and decreased sales. The depressed market conditions, 
coupled with the record high fuel prices that persisted through most of 
the past 12 months, resulted in steep losses for CTEC's Forest Products 
Division. In an unprecedented move, the Tribe closed CIPV for a two-
week period during the Christmas and New Year's holidays to reduce 
operating losses.
    In light of the accelerating losses and the deteriorating economic 
outlook, the Colville Tribe's governing body is currently contemplating 
the difficult decision to close CIPV indefinitely until market 
conditions improve. Closure of CIPV would affect not only the nearly 
200 employees who work there, but also the secondary jobs that the 
facility supports, such as contract loggers and truck drivers. The 
Tribe is gravely concerned that any layoffs will result in an immediate 
strain on the Tribe's social services programs and personnel. These 
tribal government programs, most of which are funded by the Tribe's 
timber revenue (in addition to third party grants), are already 
stretched thin with the current high unemployment rate on the Colville 
Reservation. Like state and local governments, the current state of the 
national economy has presented the Colville Tribe's government with 
extremely difficult choices on how best to provide for its citizens. If 
state and local governments stand to benefit from an economic stimulus 
plan, so, too, should Indian tribal governments.
    Finally, as the Committee and its members are well aware, Indian 
tribes have a government-to-government relationship with the United 
States that is memorialized in the U.S. Constitution and federal law. 
As such, Indian tribes have traditionally received funding directly 
from the United States and not through state governments. Federal 
agencies have established mechanisms for transferring federal funds to 
Indian governments quickly. Tribal governments, therefore, should not 
be required to work through state governments to receive financial 
assistance that may be made available in any stimulus plan.

The NCAI and Committee Proposals Would Immediately Benefit the Colville 
        Tribe and Similarly Situated Tribal Economies
    Both the NCAI proposal and the Committee have proposed $310 million 
for new Indian Reservation Roads projects and $258 million for roads 
maintenance projects in their respective proposals. Indian roads and 
transportation infrastructure are of paramount interest to Indian 
country and would immediately benefit the Colville Tribe and similarly 
situated Indian tribes. New funding for roads in Indian country would 
not only create jobs, it would also address the high traffic fatality 
rates on many reservations caused by dangerous or inadequately 
maintained roads, including on the Colville Reservation.
    The Colville Tribe has identified nearly $23 million in backlogged 
road maintenance and new roads projects that would, if funded, create 
at least 250 new jobs on the Colville Reservation and in the 
surrounding communities. The Colville Reservation and the surrounding 
communities are home to a large workforce, including managers, 
mechanics, laborers, and operators. The Tribe estimates that there are 
nearly a dozen road construction general contractors in the area that 
are available to begin work immediately on new projects. Logging 
shutdowns in the area have already forced scores of individuals to seek 
unemployment and the infusion of new construction jobs would help stem 
these job losses.
    In addition, the Colville Tribe is particularly supportive of the 
NCAI proposal to provide $25 million in funding for USDA Rural 
Development's Business and Industry program. The infusion of funding 
for direct loans to tribal governments would provide an alternative 
source of capital to those Indian tribes and tribal enterprises that, 
for whatever reason, cannot access capital through conventional 
financing or through loan guarantees.
    The Colville Tribe is an unfortunate example of this need. The 
Tribe's primary lenders are unwilling to lend in the current economic 
climate for needed upgrades to CIPV that would make the facility more 
efficient and competitive. If financed, these upgrades would eliminate 
most of the facility's operating losses and would allow CIPV to remain 
open even during the current market downturn. The Tribe has observed 
that banks continue to lend to the wood products industry, but only to 
keep businesses afloat and not for capital improvements. The rationale 
for this ironic result is that banks have calculated that they will 
lose less money by extending credit to keep mills operating, rather 
than inheriting and being forced to operate the mills themselves.

Uniform Criteria for Construction Project Funding
    As members of the Committee and its staff continue to work with 
leaders in both chambers to seek inclusion of Indian-specific 
provisions in the stimulus legislation, the Colville Tribe respectfully 
makes the following recommendation. As the Committee is aware, various 
organizations and interested entities assembled lists of specific 
projects to justify stimulus funding proposals. At the time, these 
lists of specific projects were undoubtedly helpful in providing a very 
rough indicator of need for which to justify funding requests for a 
particular activity.
    The Colville Tribe strongly believes, however, that any funding for 
construction activities that may be included for Indian country in the 
stimulus should be allocated based on uniform criteria and not on 
reliance on preexisting lists of specific projects. The Tribe is 
concerned that any list of ``shovel ready'' or ``ready-to-go'' projects 
that were assembled in the haste of formulating stimulus proposals may 
be unreliable in that they do not reflect the entire universe of need 
for a particular activity. Rather, if funding for a particular 
construction project is conditioned on that project having all design, 
engineering and environmental work completed by a date certain, that 
criteria--not a preexisting list--should control which projects are 
funded.
    Once the substantive requirements for project funding are 
established, federal agencies should be required to update any project 
lists that they may maintain to ensure that they include all projects 
that satisfy the requirements.
    The Colville Tribe greatly appreciates the work of the Committee 
and its staff to ensure that the needs of Indian country are considered 
in the development of the stimulus legislation. The Tribe looks forward 
to working with the Committee on this and other issues of interest to 
Indian country in the 111th Congress.
                                 ______
                                 
          Prepared Statement of the Cook Inlet Tribal Council

    We are in the midst of a ``once in a century'' national financial 
crisis. Congress has acted swiftly to safeguard financial institutions 
and improve access to credit. Congress is currently deliberating 
massive additional measures to help workers hurt by the economy, 
advance new technologies and sources of energy, repair and improve our 
national infrastructure, and transform our educational system to meet 
the needs of the future.
    While we applaud the speed and scope of the Congressional response 
to the current crisis, we also believe that current economic conditions 
are only a prelude to the economic and social situation we will face as 
a nation if we cannot reverse the high number of dropouts from our high 
schools. The situation is most acute among poor and minority 
communities, and none more so than Indian Country.
    Nationally, the problem is complicated, and requires thoughtful, 
effective, and broad-based solutions. Solutions strictly focused on 
keeping students from dropping out will not succeed. Instead, we must 
focus on providing an education that engages young people throughout 
their school years: an education that is relevant, that builds on their 
strengths more than it focuses on their weaknesses, and that enlists 
the support of their families and communities. We must create an 
educational experience that helps young people to imagine a future of 
personal success, a future of choices that include higher education and 
highly skilled careers.
    Tackling the problem of dropouts is, at its core, a matter of 
taking the steps needed to prevent the exclusion of a large proportion 
of youth out of the pool of skilled professionals that a 21st century 
economy will demand. Individually, it is about fulfillment of human 
potential. Nationally, it is about maximizing the number of citizens 
who will make positive contributions to a collective future. It is 
about how we plan to avoid the extraordinary financial and social cost 
that we will all pay if a large and growing number of unskilled 
dropouts continue to disproportionately populate the ranks of our 
nation's poor, sick, and incarcerated.
    For Native communities already struggling to achieve educational, 
economic, and social equity, the cost of this lost potential could be 
unbearable. Native communities are a microcosm of the effects of this 
``silent epidemic'' of dropouts, and as such are especially vulnerable 
to its consequences. For Native people across the country, the future 
of our communities and our cultures is literally at stake.
    Our comments to the committee concern the investments urgently 
needed in Native communities in order to stem the mortgaging of our 
future, which is embodied in our youth. Here, we offer the Committee 
comments on the situation as it pertains to Alaska Native people, and 
point to some of the steps that have been taken toward effective 
solutions--solutions that are designed to engage young people in 
learning, and prepare them for futures involving higher education and 
meaningful employment.
    In this time of national economic crisis, we ask for your support 
to continue, expand, and share these solutions, not only for the sake 
of Alaska Native communities but for both Native and non-Native 
communities throughout the United States. We believe that the programs 
described represent a critical reinvestment in our communities, which 
help break the cycle of poverty and all that attends it, and which 
ultimately yield ample economic and social returns for the future.

Understanding the National Economic Impact of Dropouts
    It is estimated that during every school day, across the country, 
almost seven thousand students become dropouts--translating into some 
1.2 million individuals each year who are statistically far more likely 
to be unemployed or underemployed, incarcerated, and addicted to 
alcohol and drugs. For the United States, the lost lifetime earning 
potential of students who did not graduate in one year (2007-2008) is 
estimated at more than $319 billion. Beyond this, the negative ripple 
effect of high school dropouts is truly staggering: \1\
---------------------------------------------------------------------------
    \1\ Data in this section derived from the National Dropout 
Prevention Center, the Alliance for Excellent Education, and the Silent 
Epidemic coalition website.

  <bullet> There are nearly 2,000 high schools in the U.S. where the 
        typical freshman class loses 40 percent of its students to 
        dropouts by their senior year; it has been predicted that the 
        national dropout problem will likely escalate over the next 
---------------------------------------------------------------------------
        decade without significant and effective intervention.

  <bullet> Each year's class of dropouts will cost the country over 
        $200 billion during their lifetimes in lost earnings and 
        unrealized tax revenue, based on a 1985 study.

  <bullet> Increasing minority students' participation in college to 
        the same percentage as that of white students would create an 
        additional $231 billion in GDP and at least $80 billion in new 
        tax revenues.

  <bullet> U.S. companies lose billions of dollars annually because of 
        illiteracy. If literacy levels in the United States were the 
        same as those in Sweden, the U.S. GDP would rise by 
        approximately $463 billion and tax revenues would increase by 
        approximately $162 billion.

  <bullet> Dropouts are more likely than high school graduates to be 
        unemployed, in poor health, living in poverty, on public 
        assistance, and single parents with children who drop out of 
        high school; dropouts were more than twice as likely as high 
        school graduates to slip into poverty in a single year and 
        three times more likely than college graduates to be unemployed 
        in 2004.

  <bullet> Students with low academic achievement are twice as likely 
        to become parents by their senior year of high school, compared 
        to students with high academic achievement.

  <bullet> High school dropouts are 3.5 times more likely than high 
        school graduates to be arrested in their lifetime; a one-year 
        increase in average education levels would reduce arrest rates 
        by 11 percent; 75 percent of America's state prison inmates are 
        high school dropouts; a 1 percent increase in high school 
        graduation rates would save approximately $1.4 billion in 
        incarceration costs.

  <bullet> Dropouts are four times less likely to volunteer than 
        college graduates, half as likely to vote or participate in 
        community projects, and represent only 3 percent of actively 
        engaged citizens in the U.S. today.

The Impact of Dropouts on Alaska Native People
    Overall, Alaska's dropout rate was double the national average in 
2005-2006. It is predicted that 38 percent of current Alaskan ninth 
graders will not have a high school diploma in ten years. \2\
---------------------------------------------------------------------------
    \2\ Anchorage Daily News, November 16, 2008.
---------------------------------------------------------------------------
    Alaska Native students are twice as likely to drop out as their 
non-Native peers. With more than 44 percent of the Alaska Native 
population currently under the age of 19, \3\ we are faced with nothing 
less than a ticking time bomb.
---------------------------------------------------------------------------
    \3\ Our Choices, Our Future: Analysis of the Alaska Natives Report, 
2004. Alaska Native Policy Center.
---------------------------------------------------------------------------
    As noted above, dropout rates are correlated with higher incidence 
of unemployment and other social issues but for Alaska Natives the 
incidence of these issues is already disproportionately high: \4\
---------------------------------------------------------------------------
    \4\ Ibid.

---------------------------------------------------------------------------
  <bullet> 33 percent of Alaska's unemployed are Alaska Native people.

  <bullet> About 20 percent of Alaska Native people have incomes below 
        the federal poverty line--nearly three times the rate of non-
        Native people.

  <bullet> More than one-third of all prison inmates in Alaska are 
        Native people, almost double the percentage of Native people in 
        the total population.

  <bullet> Native teen birth rates, smoking rates, and use of marijuana 
        are significantly higher than non-Natives.

  <bullet> Alaska Natives have significantly higher incidences of 
        health issues that correlate with poverty, such as diabetes.

Demonstrating Integrated Solutions
    Although the history of Alaska Native education has been one of 
inequity, there are recent models that clearly demonstrate that Alaska 
Native students are capable of high achievement when they are provided 
with the right academic environment.
    The state-funded Mt. Edgecumbe High School in Sitka, Alaska 
encompasses four key components for student success: academic learning, 
responsible citizenship, personal wellness and community service. The 
school strives to prepare the students for the greatest possible number 
of alternatives for pursuing life after high school. Preparation for 
these options requires a rigorous academic program, the fostering of a 
love for active learning, and the development within students of a 
commitment to high quality intellectual work.
    Mt. Edgecumbe's success in providing quality education to 
disadvantaged students from rural Alaska has been recognized 
regionally, nationally, and globally. In a recent survey of Mt. 
Edgecumbe graduates, 78 percent of the respondents indicated that they 
were attending college within a year of their graduation, and 50 
percent were in the workforce. 25 percent of the respondents had 
achieved a graduate or professional degree. Seventy-six percent 
believed that the school had done an excellent job of developing their 
academic skills. \5\
---------------------------------------------------------------------------
    \5\ An Exploration of Experiences and Outcomes of Mt. Edgecumbe 
High School Graduates (1986-2006). Institute of Social and Economic 
Research, Anchorage. (Powerpoint)
---------------------------------------------------------------------------
    Many of the successful programs that are now functioning in Alaska 
have been developed and implemented by funding provided by the Alaska 
Native Educational Equity, Support, and Assistance Act, also known as 
the Alaska Native Education Program (ANEP). \6\ ANEP programs have 
demonstrated significant academic progress for Alaska Native students, 
and provided extensive experience to communities and educators 
regarding successful educational approaches.
---------------------------------------------------------------------------
    \6\ Title VII, Part C of No Child Left Behind.
---------------------------------------------------------------------------
    One of the recipients of the ANEP funding is Cook Inlet Tribal 
Council (CITC), which is the primary education, workforce development, 
employment, and training center for Native people in Anchorage, which 
is Alaska's largest urban center. Our educational programs are designed 
to address the continuing disparity in the quality of life experienced 
by Alaska Natives as compared to other Americans, a disparity rooted in 
a history of poverty and inadequate educational opportunities.
    CITC's mission is to work in partnership with Our People to develop 
opportunities that fulfill Our endless potential. All of CITC's 
programs are rooted in the understanding that true self-determination 
is based in self-sufficiency and the ability to take responsibility for 
one's own life, family, and community. CITC is not a welfare agency but 
an organization that provides a ``hand up instead of a hand out.'' Our 
goals are a positive reflection of this attitude toward self-reliance, 
promoting--above all else--educational opportunities and jobs. CITC 
recognizes; however, that some individuals must overcome personal 
challenges in order to take full advantage of the opportunities 
available to them.
    CITC has a 25-year history of providing programs that effectively 
meet the challenges of inadequate education, unemployment and poverty 
through effective and integrated approaches to educational enrichment, 
dropout prevention, job training and placement. CITC builds human 
capacity by partnering with individuals to establish and achieve 
educational and employment goals that result in lasting, positive 
change for themselves, their families, and their communities. 
Completion of quality education that leads to employment promotes self-
sufficiency, personal responsibility, and helps Alaska Native people 
assure the sustainability of the communities and cultures.

CITC Education Programs
    CITC provides strengths-focused, culturally-based educational 
support services for the purpose of increasing student engagement, 
self-confidence, and academic performance. Our programs are designed 
not only with sensitivity to the distinctive issues of cultural 
dislocation and the multiple challenges that face many of our students, 
but also to capitalize upon the cultural assets that students possess. 
Such application of asset-based and culturally relevant approaches to 
education have been shown to be effective in educational programs for 
Alaska Natives, American Indians, and Native Hawaiians. The ultimate 
goal is to help students to imagine and fulfill a positive life path, 
based on intentional choices, and to build the skills that will allow 
them to achieve their ambitions.
    CITC's programs recognize the need for a continuum of educational 
services from elementary school through high school. Programs are 
provided in partnership with the Anchorage School District, through a 
unique tribal-school collaborative relationship that allows CITC to 
hire teams of staff, including highly qualified certificated teachers, 
who provide core content academic classes to Native students within the 
public schools. CITC currently serves approximately 1,000 K-12 Native 
students and their families across the Anchorage School District. CITC 
classes follow required district curricula while also interweaving 
cultural content and methodology, and meet or exceed state standards in 
a variety of content areas such as language arts, math, science, and 
physical education.
    While the partnership between CITC and the Anchorage School 
District is at the heart of our programs, the collaboration is much 
wider, including the US Department of Education, and the Alaska Native 
community. Community involvement is critical just as family and 
community involvement, and culturally relevant teaching methods and 
curricula, are essential ingredients for student success.
    CITC's programs recognize that education is a traditional value 
that our Native community holds in high regard. We know that education 
is the key to our people's success both now and into the future. We 
believe that in order to achieve high quality academic outcomes and 
goals, our schools must provide all students with educational 
opportunities that holistically strengthen and support youth as our 
most valued resources to be nurtured and developed--rather than using 
the dominant, deficit-based framework of viewing our students and their 
achievement as problems to be solved. While all of CITC's educational 
services target dropout prevention, we directly address this challenge 
through the concept of developing lifelong cultural, social, emotional, 
and academic success in our students.
    CITC's programs fulfill a crucial need for Alaska Native students 
and their families who often face overwhelming challenges associated 
with the transition from rural lifeways to the urban environment where 
they are a minority.
    Current CITC educational programs include:
    Chinook (K-6 elementary students). Chinook means ``Winds of 
Change'' in the Dena'ina Athabascan language. This program focuses on 
increasing early childhood literacy and math skills for students who 
are below proficiency in these areas through individualized 
instruction, utilizing school district curricula as well as culturally 
enriched curricula.
    Partners for Success (middle and high school students). This 
program focuses on increasing the overall academic achievement and 
decreasing the dropout rate of Native students. Partners for Success 
provides language arts and math classes, utilizing individualized 
instruction and multiple modes of assessment, along with life skills 
and social-emotional learning. Students are engaged in interactive 
classrooms that integrate cultural and place-based hands-on learning 
activities.
    Math/Science, Media, and Technology (high school students). 
Supplemental educational programs increase the competency and skills of 
eligible high school students in high-level mathematics and science 
classes that are prerequisite to postsecondary studies in science, 
technology, engineering, and math (STEM) fields. CITC is a partner with 
the Alaska Native Science and Engineering Program (ANSEP) at the 
University of Alaska Anchorage. In addition, students enhance their 
technology and critical thinking skills through involvement with MEDIAK 
(Media Educational Development Institute of Alaska), which engages 
Native youth in the creation of multiple forms of media.
    Physical Education/Healthy Life Skills (high school 
students).Through a health and wellness initiative, students have 
access to culturally relevant academic physical education activities 
aimed at promoting healthy lifestyle choices. Over the summer, CITC 
provides the opportunity for youth ages 14-18 to participate in a 
Culture and Reforestation Camp.
    Measuring educational effectiveness is a key component of CITC's 
programs. External evaluation confirms that CITC's integrated 
educational approach is demonstrating significant positive results. \7\ 
The analysis states, in part, that:
---------------------------------------------------------------------------
    \7\ Excerpts September 22, 2007 letter from CITC external 
evaluator, Spero M. Manson, Ph.D, Professor and Head of American Indian 
and Alaska Native Programs, School of Medicine, University of Colorado 
Denver.

        Our analyses--reported in greater depth during [former United 
        States] Secretary [of Education] Spelling's visit--reveal that 
        the Partners Program is having a substantial, positive impact 
        on the academic achievements of participating Alaska Native and 
        American Indian students (AN/AI). Witness the following 
---------------------------------------------------------------------------
        findings over the last 2 school years:

    <bullet> Students participating in the Partners Program were less 
        often absent, less often dropped out, and more often graduated 
        than other AN/AI students at the same schools who did not 
        participate in the Partners Program. Their GPAs were 
        approximately the same.

    <bullet> Among the AN/AI students in the Partners Program, less 
        absences, higher GPA, higher Standardized Base Assessment test 
        scores in reading and writing, and greater rates of graduation 
        were related to more frequent participation in the program.

    <bullet> Among the AN/AI students who did not pass the Standardized 
        Base Assessments in the 2005-2006 school year, 1 year later, 
        substantially more students who participated in the Partners 
        Program passed the Standardized Based Assessments of reading 
        and writing than those who did not participate in the Partners 
        Program.

    <bullet> With regard to changes in actual SBA test scores, between 
        the 2005-2006 and 2006-2007 school years:

            --students in the Partners Program improved markedly in 
        their reading and math test scores, and

            --these improvements were substantially greater for 
        Partners than for non-Partners students.

    Beyond the evidence provided by the program evaluators, CITC has 
been working with the Anchorage School District to develop meaningful 
comparisons between the performance of students involved in CITC's 
programs and Alaska Native students not included in CITC's programs. We 
are also working to expand the power of our own evaluative models in 
order to understand program results across the broader array of 
competencies that our programs are designed to address, and provide a 
clearer picture of how well the programs are succeeding in preparing 
students.

CITC Employment and Training Programs
    Over the past 5 years (2004 through 2008) CITC served 17,345 
individuals with career counseling and job placement services, 
emergency financial assistance, case management, crisis intervention, 
and training information in order to move participants into employment 
and self-sufficiency. Of the 17,345, CITC assisted 6,241 unemployed 
participants to enter unsubsidized employment. Alaska Native 
participants in CITC's programs originate from every region of Alaska.
    CITC's programs are based on the premise that effective solutions 
to workforce development require integrate approaches to ensuring job 
readiness, training, and placement--approaches that are capable of 
moving people from welfare to work, and maximizing human potential in 
order to meet the challenges and opportunities of the future.
    Accomplishing this requires seamless coordination and active 
cooperation between schools, social service agencies, job trainers, and 
employers. CITC actively collaborates with the Alaska Department of 
Labor and Workforce Development (DOLWD), the US Department of Labor, 
union leaders, Native and non-Native forprofit employers, and CITC-
owned microenterprises--all of which build ladders of opportunity for 
our participants.
    TANF--CITC is the sole provider of Temporary Assistance for Needy 
Families (TANF) for Alaska Native/American Indian families in 
Anchorage. CITC has transformed TANF from an entitlement-based program 
to one of self-determination and personal responsibility. Instead of 
receiving ``handouts,'' TANF participants served by CITC are required 
to complete and sign a mutual plan of action with their case manager 
that outlines their responsibilities: to get a job and to participate 
in various other training and support services that may be needed to 
achieve that goal. As a result, the number of families dependent upon 
TANF has been reduced, with families making major strides toward self-
sufficiency.
    Alaska's People Career Development Center--is a comprehensive one-
stop resource center that provides assessment, education, training and 
employment services for Alaska Natives and American Indians and their 
families. The center provides individualized case management to 
facilitate access to physical and behavioral services to address issues 
that can impact long-term employment.
    Project-specific Corporate Partnerships--CITC actively seeks to 
partner with corporations investing in projects requiring a skilled 
labor force. In partnership with CIRI, an Alaska Native regional 
corporation, CITC has placed participants in apprentice and journeyman 
construction and retail positions. Future partnerships with CIRI 
involve the planned Fire Island wind power generating facility, which 
will equip Alaska Natives with employment skills related to emerging 
green technologies.
    Skills Development through Social Enterprise--CITC oversees a 
variety of partially subsidized small businesses (e.g. an art gallery, 
a diner, and coffee shops) which allow participants to gain real-life 
work experience in a supportive environment. Future social enterprise, 
such as a local transportation initiative, will be based upon a 
``triple bottom line'': business performance combined with job 
training/social service, while addressing broader community needs.
    CITC's employment and training services have achieved significant 
results. For the period FY 2008, for example:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Conclusion
    As Congress considers the American Recovery and Reinvestment Act of 
2009, we would like to ask for the Committee's support in recommending 
that the Act as signed into law include specific provisions for support 
of essential programs for Alaska Native education and workforce 
development.
    While the current economic situation is having substantial negative 
impact on all Americans, the most affected are Native communities 
already struggling to overcome longstanding economic and educational 
inequities. For these communities, the current downturn will impede 
progress toward equal opportunity, or worse, serve to reverse the slow 
progress that we have all worked so hard to achieve.
    For Alaska, it is essential that we cultivate a strong workforce by 
ensuring that our schools develop the full potential of our students, 
and provide the critical bridge to meaningful employment and higher 
education.
    We ask, therefore, that the Committee considers these factors as it 
makes its recommendations to the full Senate, and as it continues its 
essential work on behalf of Native people.
                                 ______
                                 
 Prepared Statement of Levi Pesata, President, Jicarilla Apache Nation

Introduction
    On behalf of the Jicarilla Apache Nation (``Nation'') in New 
Mexico, I would like to thank this Committee for convening this hearing 
to gather testimony on economic stimulus need in Indian Country. I 
would like to focus more specifically about how targeted funding for 
tribal rural water infrastructure projects, such as the Jicarilla 
Apache Rural Water System, as authorized by Congress through the Bureau 
of Reclamation can drive job creation and economic development for 
Indian Country.
    The Nation is a federally recognized Indian Tribe, and our 
Reservation, which consists of approximately 1 million acres, is 
located in Northern New Mexico. We have over 4,000 members and 85 
percent of the population lives on our Reservation in the town of 
Dulce, which serves as our tribal headquarters. We understand Congress' 
desire to quickly provide state and local governments with an infusion 
of funds for infrastructure projects, and we respectfully request that 
you work to ensure that Native American Tribal governments are also 
considered as potential recipients of funding through the proposed 
second economic stimulus. Like state and local governments, Tribal 
governments provide essential governmental services to our citizens and 
neighbors and are similarly in dire need of basic infrastructure 
development.
    Specifically, the Nation prioritized the following areas of need 
for the Senate Committee on Indian Affairs to consider for inclusion in 
the proposed economic stimulus:

  <bullet> Infrastructure

          --$10 million for the Jicarilla Apache Rural Water System 
        Project;

          --$1 million for Jicarilla roads;

  <bullet> Healthcare--$1 million; and

  <bullet> Housing--$1 million.

    For our part, during the last nine years we have been working to 
address the failing public drinking water and wastewater systems on our 
Reservation, which were constructed, owned, operated and managed by the 
federal government. We worked with Congress to authorize a $45 million 
project to repair and replace the dilapidated and failing federal 
infrastructure and since that time we have committed significant 
additional funds and resources to the project.
    We worked tirelessly to implement the statutory directive placed on 
the Secretary of the Interior to comply with the law and construct our 
project. Unfortunately, although Congress authorized our water system 
infrastructure project and President Bush signed it into law in 
December of 2002 (P.L. 107-331), the Bush Administration has repeatedly 
failed to include any funding for our project in the Administration's 
annual budget to Congress. We also understand our project is the only 
one that acknowledges and mandates corrective action for the Federal 
Government's liability for establishing and creating a deficient and 
unsafe public drinking water system serving an Indian reservation 
population.
    Through the leadership and commitment of our New Mexico 
Congressional delegation we have received almost $2 million 
appropriations funding for the effort, however a much larger infusion 
of funds is needed. The current situation requires action now as it has 
forced the Nation to put other construction projects on hold due to 
lack of infrastructure. In addition to fully meeting our statutory 
project share (approximately $15 million), we have invested millions of 
more additional dollars into repairing and replacing the system, but we 
have reached our debt capacity. The Nation is prepared to immediately 
utilize funding to continue our work on the water system so that we can 
ensure a safe and reliable water supply for our people. In addition, we 
expect that funding for this infrastructure project will provide 
between 30-50 jobs immediately in our community which is significant in 
the extreme rural and depressed region where we reside. The long-term 
effect of investing in this project will provide greater employment 
opportunities to the approximately 2,300 tribal members ready for work, 
as more construction and development opportunities will move forward 
once the water infrastructure is in-place.

Background
    The dilapidated condition of the current public water system and 
waste water infrastructure on the Jicarilla Apache Reservation stems 
from generations of neglect by the Bureau of Indian Affairs (BIA), an 
agency of the U.S. Department of the Interior, which, as creator, owner 
and operator of the system, did not properly design, plan for, manage, 
repair and upgrade portions of the system over the last 90 years. The 
system diverts water from the Navajo River-a pristine water source, and 
its initial structures served the original BIA facilities on the 
Reservation in the early part of the 1900's. As the community of Dulce 
became the center of activity, members began moving there from other 
areas of the Reservation. In response to the growth, the BIA expanded 
the water line to allow members to access the water from common areas. 
As the area grew with housing and other facilities, water lines were 
extended, on an ad hoc basis, with no planning or recording. By the 
1990's the community's system had every type of water piping, including 
clay, asbestos lined, other metals, as even some wood piping has been 
unearthed and apparently still in operation in some parts of the 
system.
    In October 1998, the system completely collapsed at the river and 
left the Nation without water for a week. The home of one of our elders 
burned down, with no water to put out the fire. The National Guard 
brought in bottled water and portable restrooms. The Nation funded 
emergency efforts to restore water delivery and received no funding 
from the BIA. In 2006, the wastewater system failed and caused a backup 
in the Jicarilla Apache Public Library forcing it to close for a long 
period of time. Other buildings and homes were similarly condemned due 
to these dire conditions.
    The Federal Government's neglect and failure to manage and maintain 
its public water system serving our people has caused many dire health 
threats and circumstances and economic hardship including: degraded 
water quality in the lines, obsolete and non-compliant sewage lagoon 
ponds which were operating without proper permits because the ponds did 
not meet the Federal standards, pollution from unlined sewage ponds 
spilling into the community and into a nearby arroyo which fed back 
into the Navajo River towards downstream users and stymied economic and 
housing development opportunities. The most disturbing circumstance, 
however, is that a large number of tribal members are experiencing 
serious intestinal and other internal diseases and more community 
members have been diagnosed and are dying from stomach and other forms 
of cancer, many documented cases of those living on and served by the 
main and oldest stem of the water system.

Statutory Project Authorization
    A combination of the water outage, delayed housing and economic 
develop opportunities and the dire health related circumstances led the 
Nation's leaders to Washington D.C. to request assistance repairing the 
Federal Government's broken system. Our first step was to approach the 
owner and operator of the system, the BIA headquarters in the U.S. 
Department of the Interior in Washington. They told us they had no 
funds to address the problem. The Nation sought help from other Federal 
agencies, who were sympathetic but generally unable to assist because 
the BIA owned and operated the system at the time. They also informed 
that the enormity of the problems with the system required a 
significant investment of resources that they would not be able to 
accommodate.
    Working with our Congressional delegation from New Mexico and 
others sympathetic to our case, we developed and pursued a legislative 
route to authorize a project specifically to repair the system. In 
2000, Congress passed a law which directed the Department of the 
Interior, through the Bureau of Reclamation (BOR), to conduct a 
feasibility study on upgrading the system. See Public Law 106-243. The 
Nation worked directly with BOR on conducting the study which was 
completed in September of 2002.
    The study concluded that $45 million would be needed to replace the 
deficient water delivery and wastewater infrastructure. The report 
acknowledged the Nation's efforts in contributing $15 million to 
improve portions of the system including: replacement of the diversion 
structures and pipeline at the river and up to the water treatment 
plant; building a new water treatment plant and expanding its capacity; 
repairing and replacing old water towers; and replacement of 
infrastructure on the expansion Mundo Ranch property.
    Following the completed report, our New Mexico Congressional 
delegation introduced legislation to direct the Secretary of the 
Interior to repair and replace the infrastructure based on the 
recommendations in the feasibility report; the legislation also 
authorized the Department to expend funding to undertake this project.
    On December 13, 2002, President Bush signed into law the Jicarilla 
Apache Reservation Rural Water System Act, Public Law 107-331, Title 
VIII, which directs the Secretary of the Interior to proceed with a 
project to replace the defunct infrastructure, as outlined and 
recommended in the feasibility report, and which authorizes the 
appropriation of funds ($45 million) for our project. There are no 
sunset provisions in the law and its construction mandate is 
specifically not subject to the availability of appropriations.

Inadequate Federal Funding and Failure to Implement the Law
    Since Congress authorized our project and mandated the Secretary of 
the Interior to commence construction of the project nearly six years 
ago, the Nation has worked tirelessly to secure funding for the 
development of our project through the Bureau of Reclamation's account 
in the Energy and Water Development Appropriations bill and through the 
annual budget process. During the feasibility stage, Congress 
appropriated $200,000 for this effort and in the Fiscal Year (FY) 2002 
cycle, Congress appropriated $2.5 million for design and related work 
to prepare for project authorization.
    Unfortunately, in spite of our diligence, neither Congress nor the 
Administration provided any funding for our project in the FY 2003, 
2004 and 2005 appropriations cycles. Finally, in FY 2006, Congress 
provided $250,000 for our project in the Energy and Water Development 
Appropriations bill. In total, since Congress authorized our project 
which was signed into law nearly six years ago, the Nation has received 
less than $2 million for our project. Currently, Congress has included 
$3 million in the House FY 2009 Energy and Water appropriations bill 
and $1 million in the Senate FY 2009 Energy and Water appropriations 
bill, though it remains unclear the fate of the remaining un-enacted 
appropriations bills. While we are very grateful for these funds in a 
tough fiscal environment, there is an overwhelming need for Congress to 
provide a greater infusion of funds for this project.
    The Administration has failed to include funding for our fully 
authorized project in their annual budget request to Congress. We have 
regularly met with the Office of Management and Budget, the Assistant 
Secretary for Water and Science and the BOR Commissioner urging them to 
implement the law and take action to help us address this serious pubic 
health crisis. Sadly, our pleas fall upon deaf ears during the Bush 
years.

``Ready-to-Go'' Project and Impact of Inadequate Investment
    The Nation is ready to move forward on repairing and replacing 
existing water lines in the town of Dulce and also completing water and 
sewer line extensions to new housing projects. The Nation's rural water 
infrastructure project meets the criteria set forth by the House 
Transportation and Infrastructure Committee's memorandum 
(``Memorandum'') outlining ``ready-to-go'' projects.
    More specifically, the Nation's project mirrors an example of a 
project located in the state of New York, the ``Village of Cuba, New 
York'' wastewater treatment system. The Memorandum states that the 
Village of Cuba project ``is served by a sanitary sewer collection 
system constructed in the 1920's that utilizes mainly vitrified clay 
tile piping.'' Similarly, the Nation's water system was also 
constructed in the early 1900s and currently consists of clay and wood 
pipes. As a result, the Nation suffers constant line breaks from the 
clay pipes, which have no flexibility and are more prone to root 
intrusions and structural cracks.
    The Memorandum further states that ``most wastewater treatment 
utilities have small capital-related projects on the shelf that could 
be carried [out] very quickly,'' thereby citing the cost of the Village 
of Cuba as $2.1 million. The Nation's economic stimulus needs for our 
rural water infrastructure project falls between the cost range 
provided by the Memorandum (wastewater projects ranging from $2.1 
million to $103 million).
    Furthermore, Village of Cuba example details that the median 
household income is well below the New York State median household 
income, therefore, further justifying Congressional investment in the 
project. Indian Country comprises some of the most depressed and remote 
areas of the country. The Nation's location in the rural and remote Rio 
Arriba County limits economic development tied to the major 
metropolitan areas of the state of New Mexico and affects the Nation's 
overall economy. Specifically, according to the 2000 Census, the 
Nation's unemployment rate was 14.2 percent and the per capita income 
was $10,136. However, in comparison to the State of New Mexico 2000 
Census data, the unemployment rate was 5 percent (the U.S. average was 
4 percent) and the per capita income in 2000 was $17,261.
    In addition, the BIA 2005 Labor Force Report (``Report''), the most 
recent report available, details that the Nation's unemployment rate is 
52 percent. According to the Bureau of Labor and Statistics, the State 
of New Mexico's unemployment rate for 2005 was 5.2 percent. Notably, 
the Nation's unemployment rate is 10 times higher than the state's 
average. Also, of the Nation's tribal members, approximately 2,310 
individuals are available for work and approximately only 1,112 
individuals are employed. This data illustrates the overwhelming need 
for employment opportunities for the Nation's tribal members and 
reflects the critical need for Congressional investment in the Nation's 
rural water infrastructure system.

Nation's Housing, Economic Development and Stimulus Needs
    Similar to the current crisis state and local governments are 
experiencing with stalled infrastructure and development projects, the 
Nation also has authorized economic development opportunities for its 
community and tribal members and is currently foregoing further 
progress until the proper infrastructure and investment are 
established. For example, the Jicarilla Apache Tribal Utility Authority 
(JATUA) is developing the Mundo Ranch property to accommodate multiple 
facilities including institutional, single family housing, and small 
commercial properties. To date, the Nation has authorized the 
expenditure of $7.5 million in funds towards the development of the 
Mundo Ranch. This is a critical project needed to address the more than 
400 home backlog on the Reservation.
    The first phase of the single family housing plan includes $3.5 
million expended by the Nation through JAUA to construct utilities, 
roads, and site preparations for 46 housing units. To date, 35 units 
have been completed and are currently rented at $300 per month, under a 
15-year-rent-to-own program. However, the Nation still has a current 
waiting list of over 400 families for housing. To provide additional 
housing resources for its tribal members, the Nation has acquired post-
Katrina Federal Emergency Management Agency (FEMA) mobile homes that 
have been allotted to tribes. The waiting list for the mobile home 
units alone is 150 and are considered ``category 1'' need for housing. 
The Nation requests $1 million to alleviate the major housing need on 
our Reservation. The Nation would be able to begin construction for 
housing and spend the funding in a two-year period. Also, as the Nation 
continues to receive the mobile home units, it is vital for the Nation 
to set-up and establish the proper infrastructure to serve the newly-
acquired mobile homes for families to immediately inhabit them. 
Therefore, an investment in our rural water infrastructure system 
deeply affects our ability to provide housing and safe, reliable 
drinking water to our tribal members.
    The Nation is an oil and gas producing tribe. With the current 
snowfall, the roads become impassable and require a great deal of work 
to shovel. Most of the roads are unpaved, which are very difficult to 
maintain and plow during harsh weather conditions. In addition, the 
roads will wash-out after a major rainstorm, leaving the Nation little 
or no access to our oil and gas resources. Therefore, safe and reliable 
roadways must be constructed and maintained to access the oil and gas 
resources on the Reservation.
    The Nation contracts their roads program from the BIA under P.L. 
93-638 and employs tribal members for the roadway work. The Nation 
maintains about 700 miles of BIA and tribal roadways. However, there 
are still dirt streets in our residential areas in Dulce and across the 
Reservation, and the Nation plans to extend the bike and pedestrian 
path to a new housing development and new elementary school. The Nation 
requests $1 million to work to repair, maintain, and pave our roads. 
Furthermore, it is difficult for the Nation to proceed with these 
initiatives when the water infrastructure is incomplete and non-
existent in certain areas on the Reservation.
    The Nation is currently in major-need of a dialysis center for our 
tribal members. Diabetes deeply affects our tribal members health, and 
the construction of a specific-diabetes center on the Reservation would 
greatly benefit our tribal members. Further work and completion on our 
rural water infrastructure in tandem with the construction of diabetes 
center would ensure that an adequate water supply is in-place for the 
proposed diabetes center. The Nation would be able to immediately begin 
work on a diabetes center and spend the funding in a two-year period. 
The Nation requests $1 million for this project.
    The Nation's rural water infrastructure system is a vital link in 
providing adequate services to our tribal members and communities. 
Without a completely updated and properly-repaired system, the Nation 
is unable to move forward on pending projects. Therefore, the Nation 
cannot provide employment opportunities in roadwork for our tribal 
members; maintain, expand, and upgrade our roadways for community and 
economic development use; and further construct and make available 
housing units to our tribal members. It is our responsibility as a 
tribal government to provide the necessary services for our tribal 
members, and the Nation has continuously and consistently made the 
investment in our community to the extent possible. However, the Nation 
is in-need of assistance in this current crisis from Congress, just as 
state and local governments are requesting.

Conclusion
    Since the legislation's enactment in December 2002, the Nation has 
been forced to borrow millions of additional dollars on the project 
because of the urgency and crisis facing our people. But, we have 
reached our debt capacity. While progress has been made on the project, 
the Nation has been forced to put a number of important projects on 
hold due to the lack of infrastructure and funding shortfalls. For 
example, there is a tremendous need for new housing on the Reservation. 
In fact, we currently have over 400 people on a waiting list for homes. 
We cannot build these new homes until the infrastructure is available 
to support them.
    It is time for the Federal Government to invest in Indian Country 
and meet its statutory and moral obligations owed to the Nation. The 
United States has a trust responsibility to the Nation, our citizens 
and our trust resources. Notably, ours is the only project Congress has 
authorized which is fully encompassed in an Indian reservation and 
which has 100 percent Indian project beneficiaries. We hope that you 
will work to ensure that Native American Tribal governments are 
included as governmental recipients of funds, along with state and 
local governments, for infrastructure work in the second economic 
stimulus. We also hope you consider other major tribal government needs 
regarding road construction and maintenance, housing, and health care. 
The proposed economic stimulus provides a major opportunity for tribes 
to address the overwhelming need and disturbing conditions in Indian 
Country.
    Again, thank you for holding this very important hearing for Indian 
Country and for the opportunity to express our views and concerns as 
you move forward with the economic stimulus legislation.
                                 ______
                                 
 Prepared Statement of John P. Jurrius, President/CEO, Native American 
                         Resource Partners, LLC

Introduction
    I would first like to commend Chairman Dorgan and Vice Chairman 
Murkowski for holding today's hearing on what I consider the most 
pressing issue in Native communities: job creation for tribal members 
and economic growth for tribal economies.
    Every day the news reports bring more bad economic news with more 
Americans being laid off, slumping demand for goods and services, and 
the business community bracing for even more difficult times ahead.
    My name is John Jurrius and I am the President and Chief Executive 
Officer of Native American Resource Partners, LLC (NARP), a private 
equity firm dedicated to working with and investing with Indian tribes 
to help them realize their economic development objectives.
My Background in Indian Economic Development
    Some background is in order before I make my statement. Prior to 
founding NARP I served as financial advisor and strategic counselor to 
several Indian tribes. From 1995 to 2001 I served in these capacities 
to the tribal council of the Southern Ute Indian Tribe located in 
southwest Colorado. From 2001 to 2007 I served in these capacities to 
the tribal council of the Ute Tribe of the Uintah and Ouray Reservation 
in Utah.
    I was honored to work with the leadership of these tribes and my 
role was to help them access the capital markets, provide strategic 
guidance to aggressively deploy and maximize their energy resources, 
and bring discipline to the interaction between tribal government 
decision-making and tribal commercial operations. In particular, I 
aggressively pursued what was then a novel concept in the realm of 
Indian energy: the active participation by Indian tribes in the 
development of energy resources on tribal lands. These activities were 
made possible by securing over $900 million in capital for tribal 
development partnerships and the creation of several billion dollars of 
commercial value by forging partnerships between Indian tribes and 
industry participants.
    The tribes I worked with made the crucial decision to re-assume 
control over their energy assets and, since then, have made remarkable 
strides in generating revenues, creating job opportunities, and 
achieving long-term economic stability for their members.
    The Ute Tribe of the Uintah and Ouray Reservation had no commercial 
ownership of their energy activities when I began working with them in 
2001. Eight years later, the tribe is an owner of Ute Energy LLC, which 
owns commercial interests in over one hundred oil and gas wells on 
tribal lands, generates tens of millions of dollars in energy revenues, 
and possesses an interest in one of the largest gas processing plant in 
the State of Utah served by some 120 miles of gas gathering pipelines 
and related infrastructure of which the tribe has a major ownership.
    These projects represent successful partnerships between the tribe 
and well-known and respected corporate partners such as Anadarko 
Petroleum Corp., Bill Barrett Co., Berry Petroleum, Questar Exploration 
and Production, and others. The tribe's progress is a testament to its 
leadership and tenacity in wanting to improve the lives of the Ute 
people.
    I am particularly proud of the accomplishments of, and success 
enjoyed by, the Southern Ute Indian Tribe. As recently as 1990, the 
tribe was a poor tribe with 63 energy companies operating on the 
reservation. In 1992, the tribe formed a tribal energy corporation to 
buy back the leases it had entered with the private energy companies. 
Through expanded energy development and skillful acquisitions, by 2005 
the tribe came to own commercial assets worth more than $3 billion. The 
tribe has a bond rating that exceeds the ratings of Denmark and Japan, 
operates a sprawling real estate portfolio, and is identified by 
industry as owning the eleventh largest private energy company in the 
United States. This tribe, by any standard, is engaged in Indian Self 
Determination on a scale and to a degree that no one could have 
foreseen just 18 short years ago.

Proposals to Create Jobs and Stimulate Indian Country Economies
    Today's hearing is particularly important because Indian country's 
drive for economic self-sufficiency is hampered by challenges that most 
communities do not have: geographic remoteness, distance from markets 
and population centers, a lack of physical infrastructure, a mixture of 
governmental and business functions, and a lack of capital and 
financial expertise.
    With the Congress now considering the American Recovery and 
Reinvestment Act of 2009, this Committee and Congress can assist Indian 
country in alleviating the multi-billion dollar backlogs tribal 
communities face in terms of physical infrastructure like roads and 
bridges, transmission lines and other energy infrastructure, housing, 
hospitals and clinics, and education.
    The twin aims of the stimulus effort--creating jobs in the short-
run and laying the groundwork for economic growth in the long-run--can 
be achieved in Indian country by focusing on building the kind of 
physical infrastructure necessary for renewable and non-renewable 
energy development in Indian communities.

Energy Development in Indian Country
    My statement will focus on how the development of Indian tribal 
energy is in many respects a ``two-fer'': it will achieve the jobs and 
economic growth goals that the President and Congress have articulated, 
and it will also serve to wean America from her dependence on foreign 
sources of energy including oil, natural gas, and other resources.
    This past May 2008, this Committee held an Oversight Hearing 
entitled ``Regaining Self-Determination over Reservation Resources.'' 
In the course of that hearing, the Committee heard about the enormous 
potential of Indian energy, the new legal and regulatory regimes 
provided by the Indian Tribal Energy Development and Self-Determination 
Act of 2005, and the current challenges tribes face in achieving their 
energy development objectives.
    Indian tribes in the lower 48 states possess a very large volume of 
energy resources--both renewable and non-renewable--and with Federal 
restrictions on exploring for energy in many parts of the country, 
tribal resources present one of the most significant opportunities for 
domestic production in the United States.
    In 2001 the U.S. Department of the Interior (DOI) estimated the 
total dollar value of energy produced from Indian tribal lands for the 
period 1934-2001 to be $34 billion. These revenues derived from the 
production of coal, natural gas, and oil. In terms of undeveloped 
reserves and undiscovered resources, the DOI projected that Indian 
tribal lands could prospectively generate $875 billion derived from 
these same three sources of energy. In the intervening 7 years, the 
prices of energy products have increased so that, currently, these 
revenue projections would be billions of dollars higher.
    In a real sense, the new Indian energy law authorized a sort of 
``energy stimulus'' plan for Indian country: the new law includes 
financial and scientific assistance for tribes to identify and 
inventory their energy resources, requires the Federal purchase of 
energy produced on Indian lands, directs the Department of Energy to 
establish a $2 billion dollar Indian energy guaranteed loan program, 
and includes many other provisions.
    The comprehensive nature of the new Indian energy law reveals 
Congress' clear intent that the law be used to help tribes bring their 
energy objectives from the concept phase to the project development 
phase.
    As with any authorization enacted by Congress, the new Indian 
energy law is comprehensive in scope and will encourage the development 
of Indian energy resources but what it does not (and cannot) provide is 
the financial capital that modern energy project development requires.
    The economic stimulus plan now being developed provides the 
Congress with a once-in-a-lifetime opportunity to provide funding for 
tribal energy projects that will create jobs immediately and will 
result in lasting physical infrastructure and capital assets to help 
grow tribal economies in the out-years.

Capital for Indian Country Energy Project Development
    The leadership of this Committee has lead efforts in Congress to 
make sure Indian country is included in the stimulus plan that will 
become law very shortly. On January 9, 2009, Committee leadership, 
together with 13 other U.S. Senators, issued a letter to President 
Obama urging the inclusion of billions of dollars in Indian tribal 
projects in the economic stimulus plan.
    While I am happy to note that the January 9th letter proposed $4.4 
million for energy development on Indian lands, I must say that this 
amount is woefully inadequate to meet the need for tribal energy 
project development.
    The need for capital in Indian country is not a new phenomenon. 
Eight years ago, in November 2001, the Department of Treasury's 
Community Development Financial Institutions Fund issued ``The Report 
of the Native American Lending Study''--a comprehensive study of 
lending and investment practices on Indian reservations and other lands 
held in trust by the United States. The Report issued dozens of 
findings and made recommendations to the Congress and the President to 
overcome the obstacles encountered by Indian tribes and their members. 
Among its conclusions, the Report states:

        ``Native American economies have about half the level of equity 
        that comparable international economies (that is, countries or 
        regions with similar GDP, population and other demographic 
        factors) have. Further, the Equity Investment Research Report's 
        comparisons to Indian Lands to similar economies suggests that 
        if external equity investors were located in or serving Indian 
        Lands and if the strategies to overcome existing obstacles were 
        pursued and were successful, an additional $10 billion in 
        equity could be invested in the Native American economy.''

    The need for capital in Native communities is great but only part 
of the demand is being met. Some Indian tribes own financial 
institutions to support economic development and housing. In addition, 
there are 19 tribally owned banks helping to provide banking services 
and capital to tribes and their members. There are also credit unions 
and Federally-created tools like Community Development Financial 
Institutions that are now operating in Native communities.
    As important as these sources of capital may be for purposes of 
housing, consumer credit, and small business loans, the volume of 
capital is simply too modest and the institutions lack the capacity for 
the kind of risk involved with energy development. The Native American 
Bank, a consortium of Indian tribes, Alaska Native Corporations, and 
other depositors, has just $59 Million in capitalization to lend across 
the breadth of Indian country and not available for risk associated 
with energy development projects.
    These entities provide services that help meet the demand for 
capital but, frankly, the need for investment capital and growth in 
Indian country are simply too great to be satisfied by the existing 
lenders.

Capitalizing Tribal Energy Projects
    Whereas historically Indian tribes have assumed a passive role in 
the development of their energy resources, NARP's vision is to be 
partners in investing alongside tribes in their own tribal energy 
corporations. The Southern Ute Indian Tribe and the Ute Tribe of Utah 
have both used similar models to achieve extraordinary success and 
benefits for their members.
    Whereas the passive model relies on a lessor-lessee relationship 
between an Indian tribe and its energy partner, NARP's business model 
will help tribes build and operate lasting tribal enterprises that 
bring significant returns to the tribe and jobs and incomes to the 
tribal members.
    The reason I founded NARP is to create an avenue for private sector 
capital to be channeled into Indian country for the development of 
energy and associated resource opportunities. The NARP model relies on 
the proven methodology of providing needed capital to tribes to create 
co-partnered tribally-energy resource companies in the service of 
Indian Self-Determination.
    NARP's focus is not on developing or encouraging private sector 
energy companies in Indian country but investing in energy companies 
owned and operated by the tribes themselves.
    Over the course of more than 15 years working with Indian tribes I 
have raised large amounts of capital for those tribal clients as needed 
for specific projects. My experience demonstrated to me the reality 
that there simply was not an avenue for private capital to be accessed 
by Indian country for development purposes.
    In recognition of the billions of dollars of capital that has moved 
into the energy sector over the last 5 years seeking and competing for 
investment opportunities in exploration and development, mid-stream and 
service companies, the opportunity to establish a ``private equity 
fund'' committed to Indian country at large was necessary and 
appropriate.
    NARP is backed by Quantum Energy Partners, a private equity firm 
founded in 1998 and specializing in the energy industry with over $5 
billion in capital currently under management. With the resources and 
contacts of the Quantum team behind it, NARP will have access to 
significant capital to be used in pursuing energy opportunities with 
Indian tribes, including opportunities to develop oil and gas reserves, 
midstream and downstream assets, power generation and transmission 
assets, geothermal assets, renewable energy assets and water rights and 
associated infrastructure.
    NARP anticipates that it will leverage the capital and contacts of 
Quantum to make direct investments as well as sponsoring the 
development of other energy opportunities involving other participants. 
I am pleased to inform this Committee that NARP was not only successful 
in attracting capital for the purpose of investing in Indian country 
but has secured a level of commitment never seen before in Indian 
country: As a Quantum portfolio company, NARP is a member of an energy-
sector private equity fund with $5 billion under management, and 
therefore has access to significant capital. Under NARP's mandate, its 
capital is solely dedicated to Indian country energy projects, thus 
providing a new and unprecedented capital source for Tribal energy 
investments.

NARP's Current Efforts
    Since inception only seven months ago, NARP officials have visited 
some 15 Indian reservations in the U.S. and no fewer than 21 Canadian 
First Nations. We have entered agreements with the Assiniboine and 
Sioux Tribes of the Fort Peck Reservation, Montana, and the Chippewa 
Cree Tribe of the Rocky Boy's Reservation, Montana, to create and 
develop tribal energy companies for the purpose of developing tribal 
resources.
    In addition, NARP in the advanced discussions stage for similar co-
partnered tribal or First Nation energy companies with tribes here and 
north of the border. We believe that the strong and immediate demand 
for NARP's capital and expertise arises from the capital starvation 
that these tribes and First Nations have experienced for over a century 
and, in particular, this demand arises from the fact that NARP's co-
partnered tribal energy company structure allows tribes and First 
Nations to take active control of their economic and sovereign destiny 
by proactively pursuing development of the energy resources in and on 
their lands.

Recommendations
    One major recommendation that I would respectfully make to the 
Committee and the Congress is to increase the length of time allowed 
for developing projects that rely on the use of Federal tax and other 
incentives. This could be accomplished by extending for an additional 
period of years the placed-in-service or other qualification periods 
for such incentives and projects, rather than setting them to expire 
year-by-year and then renewing them year-by-year. The recent practice 
of Congress in extending these tax incentives on a year-to-year basis 
simply fails to afford the tribes or their private sector partners with 
the kind of certainty and predictability that is required for 
successful project development.
    While the current situation is a hardship for any capital investor 
undertaking a significant capital project that relies on Federal 
incentives, it is an extreme hardship for capital investors in Indian 
country in general and for the tribes with which they collaborate in 
particular. The reason for this is that, given the remoteness of most 
Indian reservations (and the associated long lead time required to 
bring the necessary infrastructure to support the project) and the 
uniqueness of contracting with Indian tribes due to their sovereign 
status and lack of commercial experience, an even longer lead time is 
necessary to make such incentive-driven projects even remotely possible 
to pursue, even for willing capital providers like NARP.
    The existing renewable energy Production Tax Credit and New Market 
Tax Credit are examples of incentives that would be much more useful, 
and therefore used, in projects in Indian country if they were not set 
to expire each year or two and then renewed or reinstated at the last 
minute.
    Just as Congress has seen fit to inject liquidity directly into the 
U.S. banking system, it should also consider providing Indian tribes 
with capital to begin or increase their participation in the formation 
and operation of tribal energy companies with qualified industry and 
financial partners. This capital will serve to stimulate the 
development of good-paying jobs for tribal members and strengthen 
tribal economies in the long-run.
    In so doing, reinvigorated tribal economies can serve as local and 
regional engines of economic growth. In this role, tribal economies 
will perform like those ``emerging markets'' to stimulate rural 
regional economies as have the Southern Ute Indian Tribe in Colorado 
and the Ute Tribe of the Uintah and Ouray Reservation in Utah.
Conclusion
    Mr. Chairman, I am certain that under your leadership the Committee 
will ensure that the needs of Indian country and Indian people are 
included in the stimulus plan so that the plan will have a positive 
impact there and, in the process, help tribes meet the everyday 
challenges faced by their members.
    That concludes my statement and I thank the Chairman for the 
opportunity to present my views on this important issue.
                                 ______
                                 
Prepared Statement of the Lukachukai Community Board of Education, Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Prepared Statement of the Native American Contractors Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement of Marty Shuravloff, Chairman, National American 
                         Indian Housing Council

Introduction
    Good afternoon and thank you Chairman Dorgan and Vice Chairman 
Murkowski for this extremely important hearing on ``Proposals to Create 
Jobs and Stimulate Indian Country Economies.'' It is sad but true that 
even before the collapse of the American housing and financial sectors 
in the fall of 2008, most American Indian and Alaska Native communities 
were plagued by extraordinarily high unemployment and poverty rates. In 
fact, our people have struggled economically not for 100 days but for 
100 years.
    Housing development in Native American communities involves more 
than simply building dwelling units. Because most American Indian 
reservations and Alaska Native communities are in geographically remote 
and rural areas, community development often starts with the design and 
construction of basic physical infrastructure and amenities that most 
Americans take for granted. This includes water and wastewater 
infrastructure, electricity, heat and cooling systems, and a host of 
others. Providing these assets while building homes is an extremely 
costly endeavor and one reason for the high cost of housing development 
in Native communities.
    In Alaska Native Villages, for instance, water and wastewater 
treatment systems are often insufficient or non-existent with nearly 33 
percent of rural Alaskan homes without indoor plumbing. Without 
adequate sewer systems, villagers must use alternative waste disposal 
methods that can create risk of health complications for the community 
and/or possibly create an environmental disaster by contaminating the 
same water supply they use for drinking.
    According to the U.S. Indian Health Service as recently as 1995, 
the gastrointestinal death rate for American Indians and Alaska 
Natives, was 40 percent higher than the rate for all other races in the 
United States. Safe drinking water is essential in preventing the 
spread of several diseases including, hepatitis, typhoid, cholera, and 
paratyphoid.

Indian Development Involves Multiple Agencies
    The U.S. Indian Health Service (IHS) strives to uphold the Federal 
government's obligation to promote the health of American Indian and 
Alaska Native people and to protect the sovereign rights of Indian 
Tribes. One facet of the IHS' mission is to ensure that comprehensive 
personal and public health services are available and accessible to 
American Indian and Alaska Native people.
    The Office of Environmental Health and Engineering within IHS 
houses the Sanitation Facilities Construction Division which is charged 
with providing American Indian and Alaska Native homes and communities 
with essential water supply, sewage disposal, and solid waste disposal 
facilities.
    Federal funding is insufficient to address the health needs of 
Native people and for these activities in particular is highly 
competitive among Indian Tribes and Alaska Native Villages. In addition 
to funding shortfalls, there are restrictions in the law that prevent 
IHS Facilities Construction funding dollars from being blended with 
Federal housing funds in the construction of homes in Native 
communities.

Native American Housing Assistance and Self-Determination Act
    The Native American Housing Assistance and Self-Determination Act 
of 1996 (``NAHASDA,'' as amended, 25 U.S.C. Sec. 4101) addresses the 
need for affordable homes in safe and healthy environments on Indian 
reservations, in Indian communities, Alaska Native villages and on 
Native Hawaiian Home Lands. Since its enactment, NAHASDA has enhanced 
Indian tribal capacity to address the substandard housing and 
infrastructure conditions in by encouraging greater self-management of 
housing programs, greater leveraging of scarce Indian Housing Block 
Grant (IHBG) dollars, and greater use of private capital through 
Federal loan guarantee mechanisms.
    Housing activities that may be funded with NAHASDA assistance 
include new construction, rehabilitation, acquisition, infrastructure, 
and various support services. Housing assisted with these funds may be 
either for rental or for homeownership. NAHASDA funds can also be used 
for certain types of community facilities if the facilities serve 
eligible, low-income residents. While NAHASDA was first enacted in 
1996, it has been amended four times: in 1998, 2000, 2002, and 2008.
    The NAIHC appreciates the unswerving commitment of this Committee 
to last year's reauthorization and cannot say enough about how the 
efforts of the Chairman and Vice Chairman and their excellent staff 
made the reauthorization possible.
    Key to the success of the Economic Stimulus Plan and the long-term 
health of Native economies is physical infrastructure. In addition to 
the ongoing unmet needs in Native communities, few would argue that a 
sound physical infrastructure plays a vital role in encouraging more 
productive tribal economies. As is the case with non-Indian 
communities, a well built and maintained road system, housing, 
electricity, wastewater, and land improvements all contribute the 
necessary foundation for economic growth, increased safety and improved 
quality of life for Native people.
    Recurring challenges to the physical infrastructure issue involve 
access to capital and financing, conflicting statutory and regulatory 
provisions, and a need for comprehensive planning. Current 
appropriations language prevents IHS sanitation funds to be used in 
conjunction with NAHASDA funds to connect new water and wastewater 
infrastructure to the new homes.

The Economic Crisis and the Stimulus Plan
    It seems that the daily business reports continue to paint a bleak 
picture of the American economy: rising unemployment, tight credit, 
weak consumer spending, and falling producer prices.
    Congress began consideration of stimulus legislation in the final 
months of 2008. In fact, legislation was introduced in the 110th 
Congress (H.R. 7110) to authorize what seems now like a paltry sum--$50 
billion--to be spent on a variety of infrastructure activities 
including airports, roads and highways, transportation and transit, 
water projects, schools, and housing. This legislation is said to be 
the ``starting point'' for the stimulus package to be considered in the 
first weeks of February 2009. As these efforts move forward, it should 
be kept in mind that American Indian and Alaska Native economies have 
been plagued by far higher rates of unemployment and poverty for 
decades.
    I hope my statement offers ways that might help alleviate the 
economic difficulties facing America's Native people by focusing on 
initiatives that will have the greatest immediate effect on job 
creation and income stabilization.
    Both President-elect Obama and congressional leaders have suggested 
that of highest priority are those projects that (1) will have 
significant, immediate effects on jobs and income creation in the 
communities they are built and also (2) serve to facilitate and 
encourage future economic growth in those communities.
    As the American economy continues to perform poorly in terms of 
creating jobs and providing income to citizens, Congress and President-
elect Obama are focusing on an Economic Stimulus Plan that would pump 
nearly $1 trillion of direct Federal spending on projects that involve 
our country's physical infrastructure: housing, schools, hospitals, 
water facilities, electricity delivery and renewable energy.
    I applaud those 15 Senators, led by Chairman Dorgan and Vice 
Chairman Murkowski, who on January 9, 2009, issued a letter to 
President-elect Obama outlining the billions of dollars in ``shovel-
ready'' projects that are poised for development in Indian country 
including health facilities, schools, detention and justice centers, 
and others. The January 9, 2009, letter also encourages the expenditure 
of stimulus funding on energy projects and land consolidation, both of 
which hold great promise for immediate job creation and long-term 
economic growth.

Funding for Indian Housing and Infrastructure
    While the January 9, 2009, letter includes $50 million for the 
Department of the Interior's Housing Improvement Program (HIP), it 
fails to include any funding for housing construction, repair, or 
rehabilitation for the Office of Native American Programs (ONAP) within 
the Department of Housing and Urban Development (HUD). As this 
Committee knows, the ONAP administers the Indian Housing Block Grant as 
well as funding for housing-related infrastructure, the Title VI Loan 
Guarantee, and the Section 184 Home Loan Guarantee.
    After an exhaustive review of housing and related infrastructure 
needs and potential projects, the NAIHC has concluded that there are 
more than $2 billion in ``shovel-ready'' projects that can and should 
be funded in the Economic Stimulus Plan.
    Evidently, some in Congress believe that HUD is ``sitting on'' 
nearly $1 billion in Indian housing and related infrastructure project 
funds and are using this misperception as the rationale to exclude 
Indian housing programs at HUD from the Economic Stimulus Plan. I can 
assure this Committee that any already-appropriated funding held by HUD 
is obligated for Indian housing. The nature of the housing construction 
industry is such that funding may be obligated for certain projects and 
expended over many months if not years. In any event, the notion that 
there is fresh, unaccounted for Indian housing funding in HUD's account 
is simply not true and there is every reason to include HUD's Indian 
housing programs in the Economic Stimulus Plan.

Other Recommendations
    In addition, there are a number of qualitative proposals and 
initiatives that can help ensure the success of the Economic Stimulus 
Plan. For instance, in new housing construction, rather than insisting 
on tribal compliance with Federal environmental processes, the U.S. 
might consider relying on the environmental processes developed and 
being implemented by Indian tribes across the country. Just as other 
Federal laws (such as the Davis-Bacon prevailing wage law) are pre-
empted by the application of tribal laws, this would go a long way in 
expediting construction projects and ensuring the maximum number of 
workers in Indian country are put to work quickly.
    In addition, given the emergency nature of our economic situation, 
Congress might consider lifting the prohibition on using Indian Health 
Service funding for housing-related wastewater and water service 
infrastructure in the construction of HUD-assisted housing on tribal 
lands. If Indian tribes and their tribally-designated housing entities 
were authorized to, in essence, ``blend'' Federal funding in this 
manner, homes on tribal lands would be assured of having sanitation and 
water services as a matter of course.
    Congressional leadership and the incoming Obama Administration are 
jointly coming to the same conclusion that the ``most ready'' of the 
``shovel-ready'' projects are those that involve repair and 
rehabilitation of existing structures such as schools, houses, 
hospital, or other buildings. We believe the same holds true for Indian 
country and therefore urge the Committee to consider the expenditure of 
hundreds of millions if not billions of dollars in stimulus funding to 
enable Indian tribes and TDHEs to initiate a ``Building Rehabilitation 
Initiative'' that can put large numbers of tradesmen and others to work 
in a very short amount of time.
    As the Committee is well aware, Federal and tribal structures that 
were built over the past several decades are in bad shape and in need 
of immediate attention. Making these structures energy efficient 
through retrofitting and the application of state-of-the-art technology 
makes a lot of sense and will create large numbers of good-paying jobs 
for Indian people.
    Federal and tribal health facilities located on tribal lands would 
also benefit enormously from the widespread deployment of information 
technology and such as tele-health and tele-medicine, such as the use 
of electronic medical records, long-distance radiology and others.
    The resultant health benefits to tribal members and other users of 
these technologies would be significant and long-term.
    Similarly, these efforts would include remediation of 
methamphetamine lab activities, removal and disposal of asbestos, lead 
paint, and black mold, and other structural problems that make these 
structures uninhabitable.
    The most expeditious way to channel stimulus funding to these 
activities on tribal lands would be to use existing Indian Self-
Determination and Education Act (Pub.L. 98-638) contracts to tribes to 
carry out these initiatives.
    The Committee should also encourage the long-term or permanent 
extension of the Indian Wage Credit and Accelerated Depreciation tax 
incentives that will expire at the end of December 2009. These 
incentives serve to attract capital investment and capital equipment to 
Indian reservations that are used in commercial enterprises that rely 
on Indian labor and bring physical infrastructure to reservations that 
otherwise would not benefit from such investments.
Conclusion
    I thank the Chairman for the opportunity to provide the 
perspectives of the NAIHC and our members and look forward to working 
with the Committee in the weeks and months ahead.
Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                Prepared Statement of the Navajo Nation

    Chairman Dorgan, Vice Chairman Murkowski, and members of the 
Committee, thank you for this opportunity to provide testimony on 
behalf of the Navajo Nation on job creation and economic stimulus in 
Indian Country. My name is Rex Lee Jim. I am an elected Delegate to the 
Navajo Nation Council and serve as the Chairman of the Public Safety 
Committee of the Navajo Nation Council.
    The Navajo Nation has a population of more than 300,000 spread over 
an area larger than West Virginia. The Navajo Nation includes over one-
third of the national on-reservation population of Indian Country. 
Unemployment levels above 50 percent persist on the Navajo Nation 
despite our efforts to find ways to attract various types of businesses 
to locate on the reservation to create jobs and spur economic 
development.
    The Navajo Nation is challenged daily with attracting businesses to 
a reservation that has little or no infrastructure. Many businesses 
explore the possibility of locating to the Navajo Nation before 
realizing the obstacles of inadequately paved roads and the lack of 
electricity, water, and telecommunication services, not to mention 
inadequate public safety services due to limited police presence and 
lack of detention and court facilities.
    The economic downturn in the U.S. and the world economy has 
exacerbated the economic difficulties that were already facing the 
Navajo Nation. Therefore, we support the enactment of an effective and 
targeted economic stimulus plan that includes measures to assist Indian 
Tribes in creating jobs and expanding economic opportunity in Indian 
Country.

Stimulus Package Should Fund the Emergency Fund for Indian Safety and 
        Health
    The 110th Congress recognized the tremendous need in Indian Country 
and responded by enacting the $2 billion ``Emergency Fund for Indian 
Safety and Health'', which was approved as part of the reauthorization 
President's Emergency Plan for Aids Relief (PEPFAR). This landmark 
legislation authorizes funding for public safety, health care, and 
water projects in Indian country. The Navajo Nation applauded the 
enactment of the authorization for the Emergency Fund, and now we urge 
Congress to provide the necessary funding to achieve the important 
goals that the Fund seeks to achieve. Therefore, the Navajo Nation 
urges Congress to provide $800 million for the Emergency Fund as part 
of any economic stimulus bill.

Public Safety is a Key Element of Economic Prosperity
    One of the basic tenets of economic prosperity is a safe 
environment for businesses and citizens. Our economy cannot prosper 
without providing basic public safety to its citizens. Unfortunately, 
public safety on the Navajo Nation has declined due to the lack of 
sufficient police presence, lack of adequate detention facilities and 
an absence of sufficient court facilities.
    It is widely recognized that Indian Country law enforcement has 
been underfunded at nearly all levels of police, investigation, 
prosecution, courts, detention and rehabilitation. Numerous 
Congressional hearings, government reports, and media investigations 
have documented that there is a public safety crisis in Indian Country. 
American Indians experience per capita rates of violence that are much 
higher than those of the general population. According to DOJ 
statistics, Native men and women are still more than twice as likely to 
be a victim of a violent crime as any other racial or ethnic group. 
Nearly a third of all American Indian and Alaska Native women will be 
the victim of sexual assault in their lifetime, the highest rate of any 
racial or ethnic group. Most reservations have well-below the 
recommended number of police officers per capita. Also, U.S. Attorneys 
decline to prosecute more than two-thirds of cases originating in 
Indian Country, which is also well-above national averages. The 
conditions of tribal jail facilities are a national disgrace.
    The U.S. Attorney's Office in Flagstaff estimates that violent 
crime on the Navajo reservation is six times higher than the national 
average. However, we cannot incarcerate criminals without putting them 
at significant physical and health risk due to deteriorating 
facilities. Therefore, in many instances, tribal court is just a 
revolving door for many criminals, and criminals and their victims have 
a complete disregard for our criminal justice system. Communities 
across the reservation and neighboring towns are at risk.
    It takes no imagination whatsoever to understand the scarring 
impact of these high crime rates not only on the victims, but also on 
their communities and on the business environment. In the Native way, 
when one person is harmed, everyone is harmed. Adequate funding for the 
provision of basic public safety services is an essential part of any 
strategy to reduce Indian Country crime rate and provide the same safe 
and secure environment for Native peoples that is enjoyed by most other 
Americans. Without sufficient police, detention facilities, courts, and 
general public safety resources, we cannot address the growing problem 
of crime, which retards our ability to provide peaceful communities and 
a healthy environment for business activity.
    The Federal Government has assumed responsibility for much of the 
day-to-day law enforcement services on Indian reservations. Under the 
Major Crimes Act and other federal laws, Indian communities are 
dependent on the Federal Government for investigation and prosecution 
of many crimes committed on Indian reservations. The Department of 
Justice and Department of Interior share responsibility for law 
enforcement and detention facilities in tribal communities. In 
addition, the Department of Health and Human Services through SAMHSA 
and the IHS, provide much needed treatment, rehabilitation, prevention, 
and early intervention programs. The high rates of crime on 
reservations indicates that this system does not provide sufficient 
resources to keep Indian people safe.

Detention Facilities
    One of the most pressing problems facing Indian Tribes is the lack 
of detention facilities. In 2004, the Department of Interior Inspector 
General published a study of Indian detention facilities entitled 
``Neither Safe Nor Secure--An Assessment of Indian Detention 
Facilities'' (Report No. 2004-I-0056). The Inspector General's office 
was shocked by what it found:

        ``Early in our assessment, it became abundantly clear that some 
        facilities we visited were egregiously unsafe, unsanitary, and 
        a hazard to both inmates and staff alike. BIA's detention 
        program is riddled with problems and, in our opinion, is a 
        national disgrace with many facilities having conditions 
        comparable to those found in third-world countries. In short, 
        our assessment found evidence of a continuing crisis of 
        inaction, indifference, and mismanagement throughout the BIA 
        detention program. BIA appears to have had a laissez-faire 
        attitude about these horrific conditions at its detention 
        facilities.''

    According to the recent report of Shubnum Strategic Management 
Applications, the federal government needs to spend $8.4 billion to 
bring tribal and federal detention centers in Indian Country up to 
current standards and to relieve overcrowding. According the Report, 
when the jails were inspected in spring 2006, many had too many inmates 
and not enough jailers. At the Navajo Nation's Window Rock Detention 
Center in Arizona, two detention officers were assigned to guard 68 
inmates at a time. ``The 68 inmates were packed' on every horizontal 
space in the dormitory cells,'' the report says. ``This included two 
individuals on a single bunk bed and several individuals on the only 
available floor space below the bunk beds. The foul stench was 
extremely high at this hour with the crowded condition.''
    We are grateful that Chairman Dorgan has led the effort to make the 
results of the Shubnum study public, and hope that the Committee will 
continue to lead the fight to address this massive and widely 
acknowledged problem. The federal government must honor its trust 
responsibility to the Tribes and provide resources to repair existing 
facilities and build new detention facilities across all of Indian 
Country.

Navajo Nation Detention Facilities
    In the late 1950s and early 1960s, the Navajo Nation constructed 
six detention facilities. Of our many urgent public safety needs, our 
highest priority is to replace or fully renovate these out-of-date and 
dilapidated facilities. For example, the Tuba City and Chinle detention 
facilities have been closed for health and safety reasons. Our 
remaining facilities at Kayenta, Crownpoint and Window Rock are only a 
few years away from joining Tuba City and Chinle as facilities not fit 
to house animals, much less human beings.
    The detention facilities on the Navajo Nation have deteriorated so 
severely that prisoners can only be kept overnight in three of our six 
adult detention facilities. Since we only have 113 jail beds for the 
entire Navajo Nation, many inmates serve only a portion of their 
sentences due to the lack of available detention facilities. Unless we 
build more detention facilities, criminals arrested in Navajo Nation 
are essentially getting a ``get out of jail free'' card. The problems 
facing the Navajo Nation are not unique. Many other tribes are 
suffering from a lack of detention facilities and deteriorating 
conditions in existing facilities.
    The Navajo Nation has recognized the lack of detention facilities 
as a paramount priority enacted a 1 percent sales tax dedicated for 
judicial/public safety facilities. We have raised our own taxes, 
despite the poor economic situation in the Navajo Nation, to address 
this vital issue. It is time for the federal government to fulfill its 
trust responsibility and join us in providing funding for new detention 
facilities.

Federal Neglect of Navajo Nation Detention Facility Needs
    The Navajo Nation has raised the need for detention facilities for 
many years, and many federal officials have recognized the need for 
additional facilities. However, despite the obvious need of new 
detention facilities, the BIA and the DOJ have not provided the 
necessary funding, or provided solutions for rebuilding the Navajo 
Nation jails. In the last decade, a joint Justice-Interior initiative 
has built or expanded 22 detention facilities in Indian country, but no 
new adult facilities have been built on the Navajo Nation. In fact, at 
the start of this initiative a list was compiled prioritizing the 
facilities needed across Indian country. There were three Navajo 
facilities on that list; every facility ahead of these three have been 
built, as well as several after.
    In fact, the FY 2003 President's budget request contained the names 
of eleven detention center facilities on a priority list that remained 
to be funded. The following table reported in the FY 2003 President's 
budget request lists the eleven remaining facilities, by ranked order:

           Table 1. Unfunded Detention Facility Priority List
------------------------------------------------------------------------
           Rank                           Tribe/Reservation
------------------------------------------------------------------------
7.                          Salt River Pima
8.                          Colville Confederated Tribes
9.                          Navajo-Crownpoint, NM
10.                         Navajo-Kayenta, AZ
11.                         Navajo-Shiprock, NM
12.                         Mississippi Band of Chocktaw Indians
13.                         Tohono O'odham
14.                         Confederated Tribes of the Umatilla Indians
15.                         Eight Northern Pueblo
16.                         San Carlos Apache Tribe
17.                         Three Affiliated Tribes of Ft. Berthold
------------------------------------------------------------------------

    The Navajo Nation was scheduled for three detention facility 
construction projects according to the priority list that was included 
in the President's FY 2003 budget. However, funding for the Tribal 
Prison Construction program has been cut, and the detention facilities 
on the priority list have apparently been abandoned by BIA and the 
Department of Justice.

Lack of Funding for Tribal Prison Construction
    The Correctional Facilities on Tribal Lands program was authorized 
by Section 20109 of the Omnibus Consolidated Rescissions and 
Appropriations Act of 1996 (Pub.L. 104-134). The Program has provided 
grants to Native American and Alaska Native tribes to assist them with 
the planning and construction of correctional facilities for people 
convicted under and subject to tribal law. However, in recent years 
Congress and the Administration have dramatically reduced funding for 
this vital program:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Despite the shocking Inspector General Report in 2004, and the 
incomplete priority list, the Correctional Facilities on Tribal Lands 
Program has been reduced to only providing planning grants and for the 
completion and repair of the facilities that have already begun 
construction. The FY 2006 Justice Appropriations bill, for the first 
time in several years, provided $7,000,000 for construction of the 
Choctaw Justice Center in Mississippi. Since the Administration was not 
acting to address the need for detention facilities, Congress was 
forced to provide an earmark for the construction of one facility. 
Ironically, that facility was ranked lower on the priority list than 3 
Navajo facilities.

Need for Increased Funding for Police
    The President's FY 2008 budget for the Department of Interior, the 
Bush Administration proposed a $16 million increase to combat a 
methamphetamine crisis in Indian Country by improving policing 
capabilities in Indian Country. However, the need for resources for law 
enforcement in Indian country is so great that this increase did not 
adequately resolve the shortfall in police and detention personnel 
facing Indian public safety agencies. In fact, the ``FY 2008 
Departmental Highlights'' document outlining the Safe Indian 
Communities Initiative states that the new funding will, ``Increase the 
percent of BIA/tribal law enforcement agencies that are on par with 
recommended national staffing levels from 38 percent in 2007 to 40 
percent in 2012.'' So, the increase helped marginally, but the need for 
law enforcement staffing assistance in Indian is much greater, and 
federal spending has been consistently inadequate.
    The Navajo Nation understands that Senator Leahy and others have 
called for funding in the stimulus package for the Community Oriented 
Policing Services (COPS), the Byrne grant program and other initiatives 
that assist state and local law enforcement agencies by providing 
resources to hire more police officers and to buttress other anti-crime 
efforts and proven crime prevention strategies. In recent years, these 
and other anti-crime programs have suffered funding cuts that have 
resulted in staffing shortages across the country and fewer cops on the 
street.
    Senator Leahy recently stated that, ``The budget priorities of the 
Bush administration have weakened some of our most important federal 
anti-crime programs. As the nation plunges deeper into recession, it is 
essential that we restore funding to programs like COPS and the Byrne 
grant program so that state and local communities strapped for funds 
can prevent a rising tide of crime.'' If Congress acts to increase 
funding for law enforcement in the stimulus bill, we urge Congress to 
include Indian Country in these efforts.

Emergency Fund
    Congress took a positive first step in enacting a $2 billion 
Emergency Fund for Indian Safety and Health as part of the PEPFAR 
legislation. The new law authorized funding for Indian public safety, 
health care and water projects. The infrastructure, public safety, and 
health projects to be funded by new Trust Fund are exactly the types of 
programs that will provide jobs and spur economic recovery. However, 
while the authorization has been approved, it is uncertain how funding 
will be appropriated into the fund.
    The legislation authorizing the Emergency Fund states, ``There is 
established in the Treasury of the United States a fund, to be known as 
the Emergency Fund for Indian Safety and Health, consisting of such 
amounts as are appropriated.'' The authorizing legislation does not 
describe which appropriations bills will provide the funding or how the 
appropriations will be provided. The Navajo Nation is anxious to 
partner with federal agencies and Congress to assure that the 
authorization is fully funded. Without getting appropriations to the 
fund, no money can be spent from the fund as envisioned in law.
    The economic stimulus bill provides an ideal opportunity for 
Congress to fulfill the promise established with the enactment of the 
Emergency Fund. Therefore, we urge Congress to provide $800 million to 
the Emergency Fund as part of any stimulus legislation enacted by 
Congress.

Working Together the Crisis in Indian Country Public Safety Can be 
        Addressed
    The Navajo Nation has enacted a 1 percent sales tax increase 
dedicated to solving this problem. It is time for the Federal 
Government to join us in providing funding for detention facilities. 
How else is America's largest populated Indian reservation ever to turn 
around its high rate of crime? How else is our criminal justice system 
ever to adequately partner with other jurisdictions, when all we do is 
release our criminals back into our communities? How are we to protect 
our children, families, communities and nation from violent individuals 
who do not respect law and order? It is time to fix this unacceptable 
situation.
    This Committee has shown great leadership in focusing attention on 
public safety issues in Indian Country. We urge your continued support 
and ask that you seek the highest possible funding for the Emergency 
Fund for Indian Safety and Health.
    Thank you for this opportunity to share the concerns of the Navajo 
Nation. Please do not hesitate to contact me if you have any questions 
or if we can be of any assistance. The Navajo Nation looks forward to 
working closely with the Committee to address public safety concerns in 
Indian Country.
                                 ______
                                 
     Prepared Statement of the National Center for American Indian 
                    Enterprise Development (NCAIED)

    Mr. Chairman and Members of the Committee, the National Center for 
American Indian Enterprise Development (NCAIED) applauds you for always 
providing a strong voice to help effectuate initiatives designed to 
spur economic and business development, job creation, and self-
sufficiency in Indian Country, particularly in these challenging times. 
This statement is presented on behalf of the NCAIED, its Board of 
Directors (a renowned group of Native American business and opinion 
leaders), and its network of centers whose dedicated business 
consultants help Indian tribes and Native entrepreneurs start, maintain 
and strive to grow their business enterprises. These centers do 
yeomen's work and, with adequate funding, they could do even more to 
spur business growth and job creation. It is imperative that the 
economic stimulus package ultimately enacted will meet the serious 
economic needs of tribal governments, Native communities and Native 
businesses across the country by including the three groups of 
provisions recommended below.
    Celebrating 40 years of service to Indian Country, the NCAIED is 
the oldest Native non-profit organization dedicated solely to 
developing Native American economic self-sufficiency through business 
ownership. The NCAIED and its network of Native American Business 
Enterprise Centers (NABECs) and American Indian Procurement Technical 
Assistance Centers (AIPTACs) deliver critically needed business 
development, management and procurement technical assistance to Indian 
tribes, Alaska Native village and regional corporations, enterprises 
owned by them, and businesses owned by individual Native entrepreneurs.
    The NCAIED-related centers have proven records of assisting a 
majority of the tribes, providing business and procurement technical 
assistance training to over 10,000 tribal members and 25,000 Native 
businesses over time, and creating economic stimulus by:

  <bullet> assisting clients to secure over $2 billion in contract 
        awards in the last 2 years; and

  <bullet> generating an estimated 41,000 jobs as a result.

    Every NABEC and AIPTAC across the country, whether under our 
umbrella or independent, serves on the front lines with Native 
contractors and other businesses poised for award and performance of 
the ``shovel-ready'' infrastructure, transportation, facilities 
construction, energy development, health IT, and many other stimulative 
initiatives contemplated for the economic recovery package now under 
consideration.

I. Support NCAI's Stimulus Plan
    The NCAIED fully supports the thrust of the plan proffered by the 
National Congress of American Indians (NCAI), as well as the plan 
outlined in the recent letter to President-Elect Barack Obama co-signed 
by Senate Indian Affairs Committee Chairman Byron Dorgan, Ranking 
Member Lisa Murkowski, and other Senators supportive of Indian Country 
both on and off the Committee. Both the NCAI plan, and the Senators' 
plan insist that the finally enacted economic recovery package must 
include provisions that specifically direct funds toward tribal 
governments' infrastructure and capital needs (not just those of state 
and local governments). Tribal governments, working together through 
the NCAI and other national native organizations have identified 
shovel-ready infrastructure projects that will create much-needed jobs 
on reservations. The NCAIED fully supports the NCAI plan that requests 
a total of $5.4 billion to stimulate Indian reservation and surrounding 
rural economies nationwide and put tens of thousands of local residents 
to work. The NCAIED worked with the Native American Contractors 
Association (NACA), as well as with the NCAI, to develop joint NACA-
NCAIED-NCAI economic stimulus recommendations that list the specific 
amounts that make up the total amount requested in the NCAI plan.
    The NCAIED also urges that the recovery package contain the NCAI-
recommended ``Access to Capital'' provisions, including authority for 
tribes to gain better access to loans, taxable bonds, and surety 
bonding through expanded loan guarantees. These authorities, also 
discussed in the joint recommendations, are essential to enable tribes 
and Native businesses to participate more fully in rebuilding our 
infrastructure and economy.

II. Increase Support for Native Business Development
    It is particularly important that the economic recovery package 
includes provisions for Native American business development. Both the 
NCAI plan and the Senators' January 9 letter recommend substantial 
funding for Indian business development through a combination of 
increased authority for guarantee of loans, taxable bonds and surety 
bonds. The NCAIED supports these proposals. The Senators' January 9 
letter also proposes a $2 million increase Community Development 
Financial Institutions (CDFIs) in Indian Country. This modest increase 
will help make more funding available in tribal communities for 
business startups, loans, etc.
    In addition, the NCAIED strongly recommends funding one more 
essential program to spur business development in Native American and 
minority communities throughout the United States: the network of 
business development centers supported by the Minority Business 
Development Agency (MBDA) of the U.S. Department of Commerce. These 
centers include 8 Native American Business Enterprise Centers (NABECs) 
and nearly 30 Minority Business Enterprise Centers (MBECs) and Minority 
Business Opportunity Centers (MBOCs).
    We note that the Reid-Byrd economic stimulus proposal of November, 
2008 (S. 3604) provided additional funds for grants of $200,000 to 
certain veterans resource centers. Similar provisions should be 
included in your economic stimulus package to augment funding for MBDA 
to make additional grants of $100,000-$200,000 to each of its existing 
NABECs, MBECs and MBOCs to help them assist struggling businesses owned 
by Indian tribes and native and minority business entrepreneurs to 
access small business loans, stimulus-related contracting, surety 
bonding, and other business assistance. Depending on the level of 
funding for additional grants, the total amount would be only $3.5 to 
$7 million and would have incredible business generation and job 
creation effects (as reflected in the impact figures listed on page one 
of this statement) in communities suffering the highest poverty and 
unemployment rates in the country.

III. Enhance Tools to Expedite Stimulus Project Completion
    The NACA-NCAIED-NCAI recommendations look beyond the funding issues 
toward mechanisms to enhance the ability of Native American businesses 
to participate in economic recovery infrastructure projects once they 
are funded. To achieve the desired stimulus effect, federal, state, 
municipal and tribal governments will need to initiate and complete 
these projects in short time-frames and will likely rely on contractors 
to do some of the work. Our recommendations will facilitate this 
process by: (1) expanding opportunities to use the Buy Indian Act at 
the Department of Interior and Department of Health and Human Services; 
(2) enhancing the ability of small businesses to form a team to combine 
capabilities to compete more effectively for infrastructure and other 
stimulus-related construction work; and (3) providing better access to 
financing for tribal- and individual Native-owned businesses pursuing 
work on economic recovery-related projects.

Conclusion
    The U.S. constitution recognizes the distinct nature of tribal 
governmental political structures. The Federal Government has created 
distinct economic funding streams for tribal governments separate from 
those in place for state governments, and Indian preferences in 
contracting and employment when federal funds are appropriated for the 
benefit of tribes and their members. Accordingly, the NCAIED urges the 
Congress and the new Obama Administration to honor this unique 
relationship between Native Americans and the Federal Government and 
include tribes and Native business development in meaningful and 
appropriate provisions of any economic stimulus package, as well as 
Fiscal Year 2010 appropriations, prior to final enactment.
                                 ______
                                 
   Prepared Statement of the National Council of Urban Indian Health

Economic Stimulus
    UIHP Infrastructure Projects: The National Council of Urban Indian 
Health has identified five ``ready to build'' infrastructure projects. 
Details of these projects can be found in the appendixes. These 
projects are facilities construction projects designed to accommodate 
increased patient load and services. All of these projects are 
construction ready with finalized, or near to finalized, architectural 
plans and appropriate permits. These projects were stalled due to the 
economic crisis and failure to secure additional lines of necessary 
credit.
    The Urban Indian Health Program does not currently receive 
facilities construction funds from the Indian Health Service however 
Title V of the IHCIA will allow for the distribution and management of 
these types of funds. Typically, for an Urban Indian clinic or program 
to build new facilities or implement large scale renovation projects 
the individual clinic or program must find additional funding streams 
to bankroll that project. The credit crisis has placed substantial 
burdens upon non-profit clinics and programs to finance facilities 
construction and renovation at a time when these facilities are most 
needed. Moreover, because the UIHP does not receive facilities 
construction funds from IHS many of these projects have been 
substantially delayed. These projects will allow the programs to 
provide more efficient services as well as expanded services to meet 
the needs of the patient population.
    The additional services that could be provided upon the completion 
of these infrastructure projects include expanded preventative health 
care, dental services, social services, and primary care. These are 
services not easily accessed by the American Indian and Alaska Native 
community. If the Urban Indian health clinics and programs are unable 
to provide these services often patients chose to go without necessary 
care. Numerous studies have demonstrated that when patients delay 
seeking care the cost of treatment increases exponentially for everyday 
care is delayed, especially for conditions such as heart disease and 
cardiovascular disease. Increasing the Urban Indian Health Program's 
ability to provide services and accept additional patients will relieve 
pressure from other parts of the I/T/U system and thus reduce costs to 
the entire system.

    Total Cost: $19,650,000
    Additional Patients served: 43,942
    New Jobs: Uncalculated, detail is provided in projects summaries 
attached.

Recommendations:
  <bullet> Inclusion of the ``ready-to-build'' infrastructure projects 
        identified by NCUIH in the infrastructure section of any 
        economic stimulus package.
Appendixes:
    A. UIHP 12 Month Infrastructure Summaries
    B. UIHP 24 Month Infrastructure Summaries
   Appendix A--Urban Indian Health Programs--12-Month Infrastructure 
                                Projects
    Hunter Health Clinic, Wichita, KS
    Request: New Facility Build (Health Clinic)
    Cost: $7,600,000
    Jobs: 100
    Description: Hunter Health Clinic needs an updated and larger 
facility to provide culturally competent and comprehensive health 
services to the potential 9,000 American Indians living in the Wichita 
metro area. Currently, Hunter Health Clinic is housed in an 80-year-old 
building that does not support the technology needs for electronic 
records. Hunter Health Clinic provides services to 20,000 patients a 
year and this expansion will allow for 5,000 more patients to be served 
in the first year with continued capacity expansion in subsequent 
years. Everything is ready to begin on this project including rezoning, 
architectural engineering, design, contractor, and preconstruction 
phase.

    Indian Health Care Resource Center of Tulsa, Inc, Tulsa, OK (Note: 
12 to 16 months)
    Request: Facility Expansion (Health Clinic)
    Cost: $8,600,000
    Jobs: 125 construction, 25 additional clinic staff
    Description: Indian Health Care Resource Center of Tulsa needs to 
expand the size of the current facility to increase capacity of 
services for medical and behavioral health, as well as, to create a 
permanent home for the health and wellness and substance abuse 
treatment programs. This project also includes construction of a drive 
through pharmacy, implementation of an electronic health records system 
(EHR), and upgrade to digital radiology. The clinic currently serves 
the 3rd largest urban Indian center in the country and this expansion 
is expected to increase capacity to serve American Indian in the Tulsa 
area by 220% (26,973 current visits to 59,341 with expansion). It is 
expected that the New Construction debt Services will by $755,000 per 
year for 15 years. If Indian Health Care Resource Center did not have 
to borrow the money to meet the need of the growing population, there 
would be $11,325,000 more dollars to provide direct health care 
services over the 15 year period. Currently, the clinic has completed 
all of the engineering and construction drawings and is ready to break 
ground on the project.

    South Dakota Urban Indian Health, Sioux Falls, SD
    Request: New facility (Health Clinic)
    Cost: $300,000
    Jobs:
    Description: The South Dakota Urban Indian Health Clinic needs to 
build a new facility to expand services and capacity to serve the 
potential 8,000 American Indians living in the Sioux Falls metro area. 
Currently, the clinic is housed in a very small 2-exam room facility 
with no patient parking and wiring that cannot appropriately handle the 
electronic system infrastructure needs. The new facility would triple 
the number of patient's the clinic can serve, from 1,203 unduplicated 
users last year to 3,609 users with the new facility. Currently, the 
South Dakota Urban Indian Health Clinic has the space identified, and 
are working with the architect to finalize plans.

    Native American Rehabilitation Association Northwest, Inc., 
Portland, OR
    Request: Facility Remodel and Energy Efficient (Residential 
Treatment)
    Cost: $2,000,000
    Jobs:
    Description: The Native American Rehabilitation Association 
Northwest (NARA) needs to update the 50-year-old Substance Abuse 
Residential Treatment facility. Currently, NARA has 62 beds and 
provides culturally competent substance abuse treatment American 
Indians. This project would provide space for 10 new patients per day 
for a total of 3,650 additional patient bed days per year. The project 
would expand and remodel the building and include much needed energy 
efficient modifications including heating and cooling system, 
biodegradable septic system, solar power, and energy efficient 
lighting. NARA owns the property; plans have been completed, and are 
awaiting implementation.

    Native American Rehabilitation Association Northwest, Inc., 
Portland, OR
    Request: Facility Conversion/Remodel and Energy Efficient 
(Outpatient Treatment)
    Cost: $750,000
    Jobs:
    Description: The Native American Rehabilitation Association 
Northwest (NARA) needs to remodel the old outpatient services facility 
and convert to a transitional housing program for men. There are very 
few places for men to live in a clean and sober environment upon 
leaving residential facilities and this problem is even greater for 
Native men. This project will allow for supportive housing to 
approximately 18 men per year transitioning from residential Alcohol 
and Drug facility. NARA owns the property, plans are in place for the 
remodel, and are ready to begin construction.

   Appendix B--Urban Indian Health Programs--24-Month Infrastructure 
                                Projects
    South Dakota Urban Indian Health, Sioux Falls, SD
    Request: Facility Remodel (Treatment and Support for Release 
Inmates)
    Cost: $400,000
    Jobs:
    Description: The South Dakota Urban Indian Health Clinic needs a 
facility to provide a new service to approximately 400-500 American 
Indian individuals who are released from the State Women's Prison and 
the State Penitentiary, both of which are located within the clinic's 
service area. Unfortunately the number of American Indians in Prison in 
South Dakota is extremely high. In 2000, American Indians represented 
8.6% of the general population, but 22% of South Dakota's prisons 
according to the state Department of Corrections. This project would 
allow the South Dakota Urban Indian health Clinic to provide much 
needed behavioral health and transition services for these released 
prisoners. The Medical Director at the clinic is also the State 
Penitentiary physician and planning has already begun to develop a 
Community Recovery based program. The impact of this project will 
result in lowering cost of incarceration (due to recidivism) and 
developing productive community members to contribute to society. 
Currently, the clinic has identified the space and architectural plans 
complete.
                                 ______
                                 
  Prepared Statement of Rodney M. Bordeaux, President, Rosebud Sioux 
                                 Tribe

Introduction
    On behalf of the Rosebud Sioux Tribe (``Rosebud'') in South Dakota, 
I appreciate this opportunity to bring to your attention the 
overwhelming economic stimulus and infrastructure needs on the Rosebud 
Sioux Tribe Reservation, which is located in south-central South Dakota 
and has twenty communities that encompass a four-county area. The 
877,831-acre Rosebud Reservation borders Pine Ridge at its northwest 
corner and Nebraska at the south and has its tribal headquarters in 
Rosebud, SD. The Rosebud Reservation is home to approximately 19,000 of 
the approximately 26,000 members of the Rosebud Sioux Tribe.
    Rosebud has considerable economic development and infrastructure 
needs in relation to Rosebud's vast natural resources on our 
Reservation and to our Tribal members. According to the Bureau of 
Indian Affairs 2005 Labor Report (``Report''), Rosebud has an 83 
percent unemployment rate. The Report further states that we have 
approximately 14,428 tribal members available for work. Rosebud is 
located in a rural, remote area of Indian Country and has one of the 
most depressed economies in the nation.
    We understand Congress' desire to quickly provide state and local 
governments with an infusion of funds for infrastructure projects, and 
we respectfully request that you work to ensure that Native American 
Tribal governments are also considered as potential recipients of 
funding through the proposed second economic stimulus as the bill moves 
through Congress. Like state and local governments, Tribal governments 
provide essential governmental services to our citizens and neighbors 
and are similarly in dire need of basic infrastructure needs.
    We have identified the following areas of priority for economic 
stimulus needs for Rosebud:

  <bullet> Indian Reservation Roads--$14.2 million;
  <bullet> Tribal Land Enterprise--$9.2 million;
  <bullet> Rosebud Economic Development Corporation--$7.5 million;
  <bullet> Sicangu Nation Employment and Training Program--$489,000;
  <bullet> Rosebud Lagoon--$2.6 million;
  <bullet> Sewer Replacement and Infrastructure at Rosebud--$1.3 
        million;
  <bullet> Rosebud Airport--$9.6 million;
  <bullet> Rosebud Green Energy--$1 million;
  <bullet> Rosebud Home Manufacturing Facility--$2 million;
  <bullet> Rosebud Jail Facility Upgrades--$3 million;
  <bullet> St. Francis Indian School Construction--$9.84 million.

Indian Reservation Roads
    At Rosebud, we have identified the following five Indian 
Reservation Roads projects that the Tribe is capable of moving on as 
soon as possible, and these projects are currently on the Indian 
Reservation Roads Program Federal Lands Highway CSTIP Report.

  <bullet> Rosebud Old Town Streets--Phase I, which includes water, 
        sewer, and street reconstruction, with an estimated cost of 
        $901,500;

  <bullet> Rosebud Old Town Streets--Phase II, which includes water, 
        sewer, and street reconstruction, with an estimated cost of 
        $884,000;

  <bullet> Rosebud to 6 Mile Center, which includes reconstruction of 
        six miles of Bureau of Indian Affairs (BIA) which includes 
        widening, slope flattening and asphalt paving, with an 
        estimated cost of $11.9 million;

  <bullet> Two Strike Lighting, which includes street lighting for 
        safety reasons, estimated cost of $129,500; and

  <bullet> Swift Bear Streets, which includes upgrades and 
        reconstruction, with an estimated cost of $400,000.

Tribal Land Enterprise
    The Indian Land Consolidation Program (ILCP) has purchased $19.3 
million dollars of fractionated interests on Rosebud equivalent to 
144,258.56 acres. The Tribe submitted a proposal to the BIA for the 
return of these ILCP purchased tracts of land to the Tribe with the 
forgiveness of the lien and the return of the lease income for Tribal 
management through the Tribal Land Enterprise (TLE) program. The Tribe 
through TLE could eliminate the administrative cost to the federal 
government with a policy approval of the Tribe's proposal and create a 
sound, cost savings business transaction for both the Tribe and the 
federal government. There is currently $982,508.13 dollars of lease 
income generated from these ILCP purchased lands that the ILCP program 
is going to purchase more fractionated interests with and generate more 
debt in the name of the Rosebud Sioux Tribe. If these funds were 
available to the Tribe to target priority purchases of fractionated 
interests, the successful TLE program could reduce the fractionation 
problem on Rosebud with greater targeted success and management of all 
the lands of our Tribe.
    In addition, the Tribe has several Indian Land Consolidation Loans 
with the Farm Service Agency of the U.S. Department of Agriculture. We 
borrowed $8.5 million dollars to purchase fractionated interests with 
eight loans. After the annual payment just made by the Tribe through 
TLE, the debt is currently $2.8 million. We have been diligent in the 
annual payments on this debt in that over the years of these 20 year 
notes, and paid the federal government over $12 million dollars in 
interest alone.
    The Tribe is seeking the return of the interest paid to the federal 
government, minus the $2.8 million still owed on the loans or the 
forgiveness of this debt as a reward for the success as a lending 
client and the management resolution that TLE has proven. The return of 
the interest to the Tribe would allow us to resolve the fractionated 
interest problem on Rosebud in less than the 20 years predicted by the 
BIA and the ILCP program and without the estimated $22 million dollars 
of federal appropriations that this would require.

Rosebud Economic Development Corporation
    The Tribe is currently addressing economic development and has 
secured funding for two major endeavors to bring much needed employment 
opportunities for our Tribal members. However, we still lack funding 
for the required infrastructure and greatly need assistance in this 
area. First, the development of the infrastructure of the Turtle Creek 
Crossing Grocery Store will allow for the paving, sidewalks, lighting, 
water and sewer and other activities to be completed so that other 
business, including small entrepreneurs, are able to develop in this 
shopping center. We request $4.7 million in funding for the Turtle 
Creek Crossing Grocery Store.
    The second project is the Lakota Water Bottling Plant, which will 
capitalize on our water resources for the Tribe to create approximately 
50 job opportunities for our Tribal members. The bottling plant will be 
built on our tribal lands on acreage where there is currently no 
infrastructure. We request $2.8 million in funding for the Lakota Water 
Bottling Plant.

Sicangu Nation Employment and Training Program (SNETP)
    The Tribe requests increased funding for our SNETP's youth 
employment program the purpose of which is to provide for more youth 
employment opportunities. Youth suicide on the Reservation is a major 
crisis and is the highest in the country. Rosebud has had 32 youth 
suicide completions in the last three years. According to the Indian 
Health Service the Rosebud Sioux Indian Reservation has the highest 
suicide rate in the world for 10-24 year old males. This past year 
SNETP received approximately 689 summer youth applications. However, we 
were able to serve only approximately 200 youth during the summer. 
Rosebud requests $489,000 for the SNETP's youth employment program. 
Funding for this program would have a major, positive impact on our 
Tribal youth, especially with the high number of suicides that our 
community has experienced in the past two years, and provide for 
additional resources for the youths we were unable to serve and keep 
our youth occupied by providing more services in the form of 
employment, incentives for accomplishments, and supportive services in 
their endeavors to overcome barriers.

Rosebud Lagoon Project
    The Tribe is requesting funding for our Rosebud Lagoon Project. The 
total cost of the project is $4,652,180.62. Currently, we have 
$2,100,000 committed ($1 million from the Indian Health Service and 
$1.5 million from Indian Community Development Block Grant) towards the 
project, leaving a requested funding of $2,552,180.62. This will offset 
loans and other tribal commitments to fund the entire project. This 
project is a priority as in order for our new airport to be completed a 
current lagoon has to be closed and relocated. This lagoon will serve 
the entire community of Rosebud, our tribal headquarters, as well as 
our hospital.

Rosebud Sewer Replacement
    The Rosebud Sewer Replacement request is $1 million to replace the 
old sewer pipe. In addition, $300,000 is needed to replace the old 
sewer pipes in the community of St. Francis located on the Rosebud 
Reservation.

Rosebud Airport
    This project is contingent upon Rosebud moving forward on the 
Rosebud Lagoon. A request of $9.6 million will cover the entire cost of 
construction of our new airport. The Tribe's cost-share is 3 percent of 
the total project, which is approximately $290,000. The Federal 
Aviation Administration (FAA) through its Airport District Offices 
(ADO) has requested a list of airport projects that can start 
construction within 120 days of funding becoming available. The Bismark 
ADO has placed Rosebud's airport project on its list for the economic 
stimulus funding.

Rosebud Green Energy
    Rosebud also urges you to support provisions in the proposed 
economic stimulus bill that will promote sustainable energy 
technologies and create ``green jobs.'' More specifically, funding 
should be targeted at the energy efficient and renewable energy 
projects that can be brought online quickly, will maximize job 
creation, will curb greenhouse gases and energy imports, and have the 
least adverse social and environmental impacts.
    At Rosebud, we have two green energy projects we are currently 
working to develop. First, the Owl Feather Warbonnet Wind Farm, which 
is a 30 megawatt farm near one of our communities, St. Francis, is 
ready for construction. We also need to finalize the negotiations with 
the Nebraska Public Power District so we can sell power to them once 
the wind farm is operating. This project can be started immediately and 
completed in the next two years.
    In addition, the Rosebud Tribal Council approved on December 16, 
2008, a Memorandum of Understanding with Citizen Enterprises 
Corporation in Boston, Massachusetts, for the feasibility of developing 
a 200 megawatt wind farm near Mission, South Dakota, in the next five 
years.
    Rosebud strongly supports ``shovel-ready'' projects that can be 
developed in the very near term, preferably within 6-24 months, either 
to reduce wasteful energy use or to produce renewable energy as well as 
create jobs. Longer-term investments in sustainable energy research and 
development merit federal support, but should be addressed in the 
regular annual appropriations bills rather than in the economic 
stimulus legislation. Nuclear power and fossil fuel technologies should 
not be included among those supported by the proposed economic 
stimulus. These technologies cannot be brought online quickly, entail 
unacceptable environmental hazards, and produce far fewer jobs per 
dollar invested.
    The most attractive investments in terms of cost-effectiveness, job 
creation, carbon-reduction, and timeframe may well be those designed to 
reduce energy use in residential, commercial, public, and other 
buildings. Accordingly, a high priority should be funding aimed at the 
permanent weatherization of older buildings and the replacement of 
energy-inefficient lighting, appliances, and HVAC systems. In addition, 
investments in advanced meter and demand-response programs are 
warranted.
    Rosebud strongly supports the investment in renewable energy 
projects that provide for a broad range of technologies, such as wind, 
water, solar, geothermal, and biomass/biofuels, with funding directed 
at smaller, distributed, and off-grid systems as well as larger, grid-
connected, central station projects. Investments to upgrade existing 
transmission systems or create new ``intelligent'' ones to bring 
renewable electricity from remote locations to urban areas may also be 
justified. However, priority should be given to those projects and 
technologies that can be brought online most quickly, have the lowest 
environmental or social impacts, create the largest number of jobs, are 
most cost-effective, and produce the most energy.

Rosebud Home Manufacturing Facility
    Rosebud is developing a small business development office, the 
Rosebud Housing and Workforce Development Initiative, to provide 
affordable, durable housing and economic development for Tribal 
members. The Rosebud Housing and Workforce Development Initiative would 
strengthen Rosebud's workforce and its community through providing 
affordable housing solutions while also incorporating ``green energy'' 
construction and energy efficient materials. The small business 
development office would provide approximately 25 administrative job 
opportunities and 50-75 construction/manufacturing job opportunities 
for Tribal members and construct 60 quality homes annually. In 
addition, the current high housing costs increases the cost of doing 
business, and the initiative would provide affordable housing--also 
quality and durable--to Tribal members. Rosebud seeks $2 million for 
small business assistance to develop the Rosebud Housing and Workforce 
Development Initiative, to provide proper training to the employees, to 
operate the office and construct the housing units, and business 
assistance to develop the office and provide for necessary technology 
and equipment. Currently, Rosebud Sioux Tribe has a critical and urgent 
need to provide housing and workforce development initiatives for our 
Tribal members.

Rosebud Jail Facility Upgrades
    Currently, the adult jail at Rosebud does not have adequate space 
for the service population. The jail itself has consistent water leaks, 
and the air conditioning system fails every summer. There is also no 
space for rehabilitation services for inmates such as a library for 
General Education Development (GED), or higher education services that 
studies have shown to be effective ways to keep inmates out of jail 
once they are released. Obtaining funding for a jail facility for 
Rosebud would provide for much needed facility upgrades at the 
detention center, as well as, expand the facility to provide for 
adequate space for rehabilitation services. Rosebud requests $3 million 
for jail facility upgrades.

St. Francis Indian School Construction
    Rosebud's St. Francis Indian School located on our Reservation is 
in-need of funding to address the major items that were taken off the 
original construction of the high school several years ago. In February 
2000, the St. Francis Indian School was given notice by the Bureau of 
Indian Affairs (BIA) that the school ranked 14th on the list for 
replacement school construction projects. In December 2006, the BIA 
then determined that the projected replacement school construction cost 
for the St. Francis Indian School would be $14.1 million. In 2006, an 
additional $6.3 million was desperately needed to complete the project, 
which was due to project delays (including three re-designs), other 
requirements and inflation costs from the last four years have forced 
the school to make major cuts. Therefore, Rosebud is requesting 
$9,836,655.14 to complete the construction, which factors in the 
inflationary costs (30 percent per year the past two years) that have 
heavily affected moving forward on our project.

Conclusion
    Indian Country would greatly benefit from the investment in 
infrastructure and emphasis on job creation, as outlined for the 
proposed economic stimulus. With an unemployment rate of 83 percent and 
a demonstrated need for basic infrastructure, the proposed economic 
stimulus provides a major opportunity for improving the current 
conditions at Rosebud. It is time for federal government to invest in 
Indian Country and meet its statutory and moral obligations owed to 
Tribes. The United States has a trust responsibility to the Tribe, our 
citizens and our trust resources. We hope that you will work to ensure 
that Native American Tribal governments are included as governmental 
recipients of funds, along with state and local governments, for basic 
infrastructure work in the second economic stimulus.
    Again, thank you for holding this very important hearing for Indian 
Country and for the opportunity to express our views and concerns as 
you move forward with the economic stimulus legislation.
                                 ______
                                 
   Prepared Statement of the Turtle Mountain Band of Chippewa Indians

Introduction
    The Turtle Mountain Band of Chippewa Indians resides on the Turtle 
Mountain Indian Reservation located in north central North Dakota. The 
Reservation is on a six mile by twelve-mile land base and is considered 
one of the most densely populated Reservations, per square mile, in the 
United States. The Tribe's enrollment is approximately 30,500 members, 
of which it is estimated that 16,500 live on-or-near the Reservation. 
Tribal data reports that 50 percent of the Reservation population is 
under the age of 21 years, the population increased 20 percent from 
over the past 10 years and there are over 600 families on the waiting 
list for tribal housing, many of who have been waiting for more than 10 
years.

        The economic data indicate a per capita income on the 
        Reservation as documented in the 2000 Census is at $9,017. 
        Based on our BIA Labor Force Report, the unemployment rate 
        among the Tribe's service population is at 66 percent. With the 
        high unemployment rate, a high need at Turtle Mountain is 
        bringing in a variety of jobs that can fit its diverse labor 
        force.

    It is the lack of employment opportunities and a dire economy that 
has led to a large number of children living in poverty or near-poverty 
conditions in Rolette County. As stated in 2005 Kids Count North 
Dakota, 39.93 percent of Rolette County children live in single parent 
families, and 39.48 percent of children in Rolette County are living in 
poverty. 20.96 percent of the children in Rolette County are living in 
extreme poverty. There is no question that facing the hardship of 
poverty affect a child's academic performance, self-esteem, and 
behavior.
    Additional indicators regarding the socioeconomic conditions of 
Rolette County reveal that 40.29 percent of persons under the age of 21 
receive both AFDC/TANF and Medicaid, compared to the state percentage 
of 6.60 percent; 60.78 percent of Rolette County children reside in 
households that receive food stamps, which is more than three times the 
state rate of 19.92 percent; 8.66 of students in grades 9-12 (exclusive 
of the Reservation) and 38 percent of Reservation-based students have 
dropped out of school, which is astronomical when compared to the state 
rate of 1.96 percent. Out-of-wedlock births of teens ages 13-19 is 
22.22 percent, a staggering rate when compared to almost every other 
county in North Dakota and to the state rate of 6.66 percent. According 
to the 2000 Census, over 40 percent of Tribal families were living 
below the poverty level, and 882 households were headed by single 
mothers struggling to raise some 1,392 children under the age of 18.
    Rolette County has more than twice as many children under the age 
of 12 pass through the juvenile court system than any other 
jurisdiction of the Northeast Juvenile Courts and more than three times 
as many children ages 13-18 pass through the juvenile court system. 
North Dakota Attorney General's Office reveals that American Indian 
children represent 7 percent of all children in North Dakota, but 
represent 30 percent of the children in juvenile detention and 38 
percent of the admissions to the North Dakota Youth Correctional 
Center.
    In 2007, Law Enforcement answered over 10,000 incidents calls. 
Turtle Mountain Tribal Court heard over 4.000 cases including adults 
and juveniles.

Current Economic Change
    The global recession, which was helped brought about by the 
mortgage crisis which, in turn, was brought about by over-inflated home 
prices, and approval of questionable loans to persons, who could not 
afford them, coupled now with the persistent worry of the long term 
effects of a tax-payer bailout, has created an economy that has 
constricted more now than in the last 26 years. There has been 
unprecedented job loss, a credit crunch making borrowing difficult, 
lack of consumer confidence and spending, and spiraling unemployment 
numbers that has put the Nation, Region, State, County and the Turtle 
Mountain Tribe and its Tribal Members at-risk. Except for minimum-wage 
increases, average employee paychecks increases have not even kept up 
to inflation. Last year, the prices on consumer goods seem to rise as 
the gasoline prices rose making even most common groceries such as milk 
and butter almost too expensive to buy. The ever-rampant greed of Wall 
Street, whose whims caused the stock market to decline on speculation 
on whatever was happening in the Middle East, even got into the every 
day worker's retirement savings and the average diversified 401 K 
portfolio lost an average of 40 percent of its worth. Americans are 
losing their jobs, homes and health coverage everyday. If this scenario 
looks bad for the average American, it should be seen through the eyes 
of the Native American Indian, who has spend a lifetime living with 
continuous recession/depression cycles of Reservation life.
    Turtle Mountain Band of Chippewa Indians has long suffered from 
severe poverty and accompanying social distress as measured by indices 
of income, unemployment, housing conditions, family composition, and 
education. These factors are aggravated by a lack of legal, financial, 
and organizational infrastructure. In recent years, the local economy 
has been weakened further by reduction of jobs at the two major tribal 
economic engines, namely Turtle Mountain Manufacturing Company (TMMC), 
and Uniband, Inc. (a data-processing company), due to the loss of 8(a) 
Status from the Small Business Administration that aided the Tribal 
Entities in the bidding process. The loss of 8(a) Status has culminated 
in a loss of contracts for both companies. The recent credit crunch 
could have an impact for the Tribe on financing for bigger projects, 
joint ventures, and equipment upgrades and improvements for Tribal 
Enterprises.
    President Obama's Economic Stimulus/Recovery Package will have the 
three-fold benefit of improving Reservation infrastructure, putting 
tribal members to work as a means to stimulate the tribal economy, and 
putting measures in place that buttress the economic climate such as 
providing for capitalization and access to revolving loans and 
alternative credit with the establishment of increased capitalization 
of Community Development Financial Institutions (CDFI) funds. The Tribe 
is also hopeful that there would be consideration on the creation of 
tribal guaranteed bond and surety bond programs in the BIA's Loan 
Guarantee Program that would truly help the Turtle Mountain Band of 
Chippewa Indians in its participation of economic recovery by helping 
address financial, business, and unemployment needs in our community.

Vision
    The Turtle Mountain Band of Chippewa Governing Body envision the 
people of the Turtle Mountain Indian Reservation having an opportunity 
to contribute to their fullest potential in creating an economy that 
advances their well-being and that of future generations.
    All citizens, including tribal, depend upon an economy that meets 
their basic needs, enables them to be self-sufficient, supports 
employee commitment to family and permits choice in work opportunities.
    The focus and strength of the Tribe is its people; they are their 
own greatest resource. The opportunity inherent to the tribal members 
lies within the Tribe's understanding and knowledge of their history, 
tradition, values and language. Long-term sustainability of the Tribe 
is embedded in the people's ability to articulate whom they are, where 
they are from and their collective hope for the future.
    Over numerous years, federal agencies have developed a variety of 
inter and intra agency programs designed to increase the level of 
economic development services of American Indians. The Turtle Mountain 
Band of Chippewa Indians participated in those programs identifying and 
building upon their assets and resources, it has a history and 
commitment to planning for its future. It continues to implement the 
planning and goals from its 1972 Comprehensive Economic Development 
Plan, as many are relevant today.

        The most significant things that can be done to improve 
        economic conditions on the Turtle Mountain Reservation is to 
        provide or create more real and permanent good-paying jobs 
        locally, related especially to the skills and capability of the 
        men (and women) who live here. These jobs should include 
        creation or expansion of small industries and businesses, 
        particularly in the manufacturing and retail trade sectors. 
        Local educational efforts should focus on career education. 
        Local attempts at economic development should be cooperative 
        and unified effort coordinated by the tribal government to 
        provide support and, if necessary, subsidy to establishment of 
        firms who might locate here. (1972)

    Funding for Tribal Infrastructure needs will help strengthen the 
development process that addresses needs and helps fulfill the 
potential of local people and the communities where they live.
    The Challenge: Advancing Economic and Social Parity among the 
Turtle Mountain Band of Chippewa through the American Recovery and 
Reinvestment Plan
Proposal:
    The Turtle Mountain Band of Chippewa Indians specific proposals for 
the American Recovery and Reinvestment Plan follow. Each of these 
projects is critical for economic recovery of the Tribe and can be 
phase-constructed in two years. The priorities and cost estimates are 
provided below:

------------------------------------------------------------------------
      Priority                                           Amount
------------------------------------------------------------------------
1                    Health Care                $18,000,000.00
2                    Housing                    $50,000,000.00
3                    Water & Sewer              $12,097,000.00
4                    Economic Development/      $12,000,000.00
                      Employment
5                    Nursing Home/Dialysis      $8,000,000.00
                      Center
6                    Airport Renovation         $5,000,000.00
7                    Juvenile Detention         $8,756,000.00
8                    CDFI Capitalization        $1,000,000.00
9                    Tribal Utility/Wind        $5,000,000.00
                      Energy
10                   Roads                      $6,200,000.00
11                   Tribal Headquarters        $5,000,000.00
12                   Educational Scholarships   $500,000.00
13                   Law Enforcement            $5,000,000.00
14                   EPA/Solid Waste            $10,000,000.00
15                   Fire Hall                  $1,372,000.00
16                   Turtle Mountain Community  $1,075,000.00
                      College
17                   Land Consolidation         $1,000,000.00
    Total                                       $150,000,000.00
------------------------------------------------------------------------

Priority 1--Health Care--$18,000,000
    The Quentin N. Burdick Healthcare Facility, in coordination with 
Turtle Mt. Band of Chippewa Indians Comprehensive Health Care Services 
Program (Public Law 93-638 as amended) collaborates to provide health 
care services for the Turtle Mountain population. The Burdick Health 
Care facility addresses the holistic health needs of the Band and that 
service unit area inclusive of Rolette County. The facility houses an 
Emergency Room, Ambulatory Clinic, Inpatient Care Unit, Dental 
services, an Eye Glass Program, and Mental Health Program. There is 
currently 239 staff persons, 13,500 active charts, 25,990 registered 
patients and a total of 106,498 patient encounters (ambulatory visits). 
The decrease in ambulatory care visits in the subsequent three years is 
directly related to the loss/lack of medical providers at the facility.

  <bullet> Facility is operating at 68 percent of budget. Need to 
        increase funding by 32 percent to provide adequate healthcare.

  <bullet> Facility lacks medical doctors as well as a surgeon to meet 
        health care needs of the Tribal population.

  <bullet> Need dental operating funds to adequately serve the Turtle 
        Mountain population.

Priority 2--Housing--$50,000,000
    There is a need for 1,000 new houses for the tribal membership. 
Without rental subsidies from HUD, there are no rental units being 
built. There is also severe overcrowding with several generations or 
relatives living in the same abode. In this stimulus request, the 
Turtle Mountain Tribe is requesting at least 40 units @ $125,000 per 
unit, which includes water& sewer, electrical requirements, site 
development and preparation and drainage field.

Priority 3--Water and Sewer--$12,097,000
    The Turtle Mountain Band of Chippewa Indians continues to struggle 
with meeting the water and waste water demands for an ever growing 
tribal population. The state of the Tribe's infrastructure is in dire 
need of funding to adequately continue those services that provide and 
secure a safe and healthy environment for all. The monies requested 
will be spent the following ways: Corridor 2--Highway 43 Corridor is an 
area where the people and homes are not yet provided with potable 
water. We have estimated a need in the amount of $9.7 million to ensure 
adequate infrastructure to supply potable water to this area. The TMBCI 
is in dire need of funding for waste water improvements. Currently, the 
Tribe relies on two methods of treatment for waste water; conventional 
septic tank systems and tertiary lagoon systems. We are finding 
evidence that the conventional treatments are not working and is 
jeopardizing the environment and waters that dot the landscape of out 
homelands. The existing lagoon systems or cells will require additional 
linings to ensure that all waste water in the cells is not susceptible 
to leaking. Therefore, we are projecting $2,397,000 in funding for this 
waste water and environmental problem.

Priority 4--Economic Development/Employment--$12,000,000
    Job Creation: The Tribe needs assistance in bringing jobs to the 
Reservation that pays a living wage. The Tribe needs outside investment 
to help bolster the tribal economy and business infrastructure. The 
Tribe needs access to loans for business start-ups and expansion. The 
Tribe needs potential partners for joint ventures to share business 
development costs to help stimulate the Reservation economy. The Tribe 
needs assistance with entrepreneurial needs such as a business 
incubator facility, development of business education program for 
potential entrepreneurs, and more capitalization programs for Tribal 
Members. The Tribe is requesting $2.0 million for a business incubator 
facility; $5.0 million for contract start-up costs and equipment 
upgrades for the Turtle Mountain Manufacturing Company; a $3.0 million 
line of credit for Uniband, Inc., and there is a $2.0 million need to 
build roads, water and sewer, and electricity to develop a new 
Industrial Park.
    Revitalization of Tribal Economic Engines: The Tribe needs 
assistance in Pathways to Prosperity's strategy to revitalize tribal 
enterprises such as Uniband, Inc and Turtle Mountain Manufacturing 
Company to identify specific factors currently limiting each 
enterprise's economic performance in terms of profitability and 
employment trends. Analysis of each industry has to be done to see 
where the flaws are and find solutions for the shortcomings. The skills 
needed to turn the corner to profitability need to be determined and 
training requirements have to be met. Help in marketing is greatly 
needed. Heavy debt loads and cash-flow shortages prohibits expansion 
and/or process improvements. The debt of these enterprises has to be 
restructured to provide adequate cash-flow to meet start-up costs for 
contracts, and help pay for equipment improvement and new equipment 
purchase. Low-interest loans to help with all the above need to found 
to make the companies, once again viable and sustained. Partners with 
technical expertise, industry contacts, and investment dollars are 
needed for the fulfillment of potential contracts to help make these 
economic engines regain their successful past.

Priority 5--Nursing Home/Dialysis Center--$8,000,000
    The Tribe is looking at the Economic Stimulus for funding support 
for Nursing Home/Dialysis Center. It will be a 65-bed facility and is 
shovel ready with architectural design and site selection. The current 
dialysis center is a dilapidated building located in a flood zone. 
There are not enough stations to provide adequate dialysis services to 
the high amount of diabetic patients on the Reservation.

Priority 6--Airport Renovation--$5,000,000
    The upgrade of this airport will greatly enhance the economic 
opportunities of the Tribe by extending the runway and widening and 
overlaying, lights and rotating beacon and GPS approach, installing a 
security fence, fuel supply system, purchasing a fire truck, fuel 
trucks, APU, tug, lift baggage hauling equipment, and snow removal 
equipment, and construct a hanger with terminal and office space.
    There is an air carrier interested in using this airport for 
scheduled service to Denver, CO and also to Minneapolis, MN. The 
airport will be used for fixed wing air ambulance, which will save the 
Indian Health Service millions of dollars as patients are flown out by 
helicopter almost daily.
    The Tribe and Tribal Organizations such as the Housing Authority, 
Casino, School system, College will benefit from this because they will 
not have to drive two hours to get to an airport. The Rolette airport 
is only 10 minutes from the Turtle Mountain Reservation. The Tribe will 
also save on travel dollars by not having to pay mileage, travel time 
to employees, parking fees, hotel cost for people leaving early in the 
morning out of Minot, ND.
    This project is in a HUD Renewal Community

Priority 7--Juvenile Detention--$8,756,000
    The Tribe has received its second planning from Correction 
Facilities on Tribal Land. Once we update the last application and 
incorporate the design, the Tribe will be eligible to apply for a 
construction grant. Given the statistics mentioned in this address, the 
need is unquestionable but the Tribe is unsure that the construction 
grant will be approved therefore the Tribe is requesting $8,756,000 to 
construct a 48 bed @600 GSF per Occupant Juvenile Detention Center and 
construction costs include Site Development, Furnishing, Equipment, A/E 
Fees, TERO Fees, and a Contingency Fund.

Priority 8--CDFI Capitalization--$1,000,000
    The Affordable Housing Program, Renewal Community, and Pathways to 
Prosperity (P2P) have collaborated to form a CDFI program on the 
Reservation to provide alternative financing that utilizes a Revolving 
Loan Program for Business and another for assistance on Home Mortgages. 
These two Revolving Loan Programs are in need of further capitalization 
to meet the needs of business owners, potential entrepreneurs, and 
future and present homeowners of the Tribe.

Priority 9--Tribal Utility/Wind Energy--$5,000,000
    Renewable Energy Development: Providing clean renewable energy 
development and green economies in Native Communities should be a top 
priority in the new administration energy policies and decisions. This 
would reverse the trend from exploitation and allow for active 
participation by Tribes in utilizing their own natural resources for 
their good. Federal support must be given for tribes to own and operate 
renewable electricity generating infrastructure, and would provide the 
dual benefits of green economic development and low carbon power where 
it is need most. Efficiency programs to reduce the consumption of fuels 
for heating and cooling and created local jobs weatherizing will help 
tribes reduce the tremendous amount of money that leaves tribal 
communities by having to import energy.
    The Tribe would welcome the assistance from the new administration 
for help in its own renewable energy development in such initiatives as 
wind, solar, biomass, and geothermal development on the Turtle Mountain 
Indian Reservation. The five million dollar request would include 
$200,000 for Energy Efficiency Audits for 4,000 homes @ $50.00 per 
home; $2,700,000 for home weatherization requirements; and $2,000,000 
for strategic planning requirements, and studies and consultant 
assistance related to wind energy development.

Priority 10--Roads--$6,200,000
    According to the most recent BIA Relative Need Distribution Report, 
the current construction backlog for the Indian Reservation Roads (IRR) 
Program is over $42 Billion nationally. As a modest effort to address 
this need and to provide economic stimulus locally, please support the 
following: $4,000,000 to the Turtle Mountain IRR Program to fund a 
four-mile construction-ready project. $1,000,000 to the Turtle Mountain 
BIA Road Maintenance Program to pay for much needed deferred 
maintenance projects to preserve the existing transportation 
infrastructure. $1,200,000 to pay for planned transit projects under 
the Tribal Transit Grant Program. Encourage the National Department of 
Transportation to revert back to previous funding formula, the new one 
is not working, as well, for Tribes.

Priority 11--Tribal Headquarters--$5,000,000
    There is great need for a new tribal headquarters complex, the 
present one is too small for the 400-plus tribal workforce. The Tribal 
Headquarters floods every spring and is infested with hazardous mold. 
In December of 2007, a main water pipe burst and tribal employees could 
not work in that facility for an entire week. Will work with the USDA's 
Community Facilities on this matter, and will have to look for funding 
sources.

Priority 12--Educational Scholarships--$500,000
    This program has experience extreme cuts and there is a need for 
more scholarship/educational assistance to be provided for students 
from the Turtle Mountain Reservation who attends college either locally 
or away.

Priority 13--Law Enforcement--$5,000,000
    The Office of Law Enforcement Services (OLES) continues to be an 
expression of frustration and anxiety both on the part OLES and the 
general public. Many of the complaints relate to poor response time to 
an incident. Equally, Law Enforcement is continually hampered by lack 
of Police Officers to respond to an incident and is compelled to 
prioritize each incident. The budgets are insufficient. The Turtle 
Mountain Law Enforcement budget for FY 2007 was $1,700,159 and ended 
with a deficit of nearly $230,000. There is limited money for 
maintenance, gasoline, uniforms, vests, service revolvers and new 
vehicles. Tribal Officers, in the past, have been utilizing gasoline 
and maintenance money from the BIA and there is no longer any money for 
tribal officers and their vehicles. The $5,000,000 funding request will 
be utilized as follows: We are requesting a new Law Enforcement 
Facility with 45 units @ 450 GSF per Occupant and the cost includes 
Construction, Site Development, Furnishings, Equipment, A/E Fees, TERO 
Fees, and Contingency Fund at a cost of $4,617,400 and a Maintenance 
and Equipment Fund in the amount of $382,600.

Priority 14--EPA/Solid Waste--$10,000,000
    Tire Recycling and Clean-up--The Tribe has had an accumulation of 
roughly 40,000 tons of used tires that it was going to use in the Tire 
Recycling Plant but the endeavor was shelved, and due to environmental 
rules and regulation, there is a need to dispose of the tires. The 
anticipated costs associated with the removal and disposal is 
$1,000,000. Transfer Station Program--The tribal solid waste disposal 
site for community members requires daily management and transfer of 
waste. Due to an accumulation of inert waste materials, there is a need 
for new construction of inert waste cells. The purchase of additional 
equipment and upgrades to the existing equipment is ongoing. The cost 
to upgrade and enhance the solid waste program would be $3,000,000. 
Recycling Program--There has been a need to establish a Reservation-
wide recycling program for various waste materials and also 
transportation to a certified recycling center. The cost to establish 
the program will be $2,000,000, and there is a need to have 5 employees 
to maintain the program. San Haven Cleanup and Restoration--The Tribe 
has been in the process of redeveloping the area formally known as San 
Haven. Since the Tribe purchased the property, it has been vandalized 
and destroyed by unknown individuals and is also a safety hazard to the 
community. A teen has already been killed by falling down an elevator 
shaft at night. The Tribal EPA has conducted Phase I and Phase II site 
assessments to determine the amount of hazardous waste located in the 
existing facilities. We are now in the removal and disposal phase of 
the project. The project cost for cleanup and restoration is 
$5,000,000.

Priority 15--Fire Hall--$1,372,000
    The Tribe is requesting a new 7,500 square ft. Fire Hall, and the 
request will include: Construction Costs, Site Development, Equipment, 
A/E fees, TERO fees, and Contingency Fund.

Priority 16--Turtle Mountain Community College--$1,075,000
    The Turtle Mountain Community College does not have housing for 
their students and are in need of a dorm to accommodate the students 
attending TMCC and cost is $1,000,000. Paving costs for the dorm 
parking lot and additional parking is estimated at $75,000.

Priority 17--Land Consolidation--$1,000,000
    The Turtle Mountain Tribe is requesting $1,000,000 to purchase 
fractionated individual trust property holdings of the allottees in 
order to consolidate the ownership of the allotments.
    The Tribe realizes that it cannot be an isolated island, it must 
not stand apart but rather partner with local, state, federal entities 
in order to pool resources for the betterment of all. For example the 
Tribe has the skilled and educated tribal workforce, and the State and 
the surrounding communities have the where-with-all to bring projects 
into the Reservation or state that neither could do on their own. It is 
with that in mind and pooling of manpower, expertise and knowledge, 
financial and natural resources, and ability and willingness to work 
together in this global economic recession that will be the economic 
beacon that will allow our nations not only to survive but also to 
thrive in this the new road for the 21st century.
    Community and a shared vision is exactly what is needed to survive 
the collapse of global economy as we know it. It is going to take 
strategic partnership to overcome the challenges ahead. Community is 
taken from two words and they are Common and Unity. If we have shared 
purpose, common goals, an a desire to work for the mutual benefit of 
our people, our state and our nation, then we will become one 
community, with all that entails, and become a united presence to 
tackle the tasks of this new economic landscape and together have the 
tools at hand, that will be needed to ensure the future of both of our 
cultures and the Great State of North Dakota and the United States of 
America, as well.
                                 ______
                                 
Prepared Statement of Cyndi J. Allen-Weddell, Vice President, Flandreau 
                           Santee Sioux Tribe

    Dear Senator Dorgan and Members of the Senate Indian Affairs 
Committee:
    I hope this finds you in Good Health, I would like to submit this 
statement to the ``Senate Indian Affairs Committee'' concerning the 
subject of it's hearing on January 15, 2009.
    On the Indian Reservations there are people without Heat, 
Electricity and even Food, the unemployment rates are 80-85%, the sub 
standard housing are in some cases beyond repair, due to the lack of 
funds to maintain them and in to many cases not enough houses for those 
that have no place to call home.
    In South Dakota, Gaming is not the cure all, the Tribal Casinos 
have a limit of 250 machines and the Governor is unwilling to negotiate 
an increase in the amount of machines, citing the percent opposed to 
gaming verses the majority of 53-55% approving Gaming and limited 
Gaming as a State Policy, while at the same time allowing Deadwood to 
increase its machine limits and refusing the Tribes request' for an 
increase in machines during their Compact Negotiations.
    A look at Gaming in Indian Country shows that Gaming has helped the 
Tribes in every respect and intent of the IGRA.
    A solution to the Tribes Financial situations would be an increase 
in the amount of machines allowed at their casinos, revenues generated 
go directly to Social Services, Economic Development, (for those small 
Tribes) per capitas.
    An increase in machines at Tribal Casinos means more jobs, more 
money into the local community, it means Heat, Electricity, Food for 
the Tribal Members, but there will not be more machines for the Tribes 
unless your Committee and the 111th Congress pass that legislation, 
allowing the Tribes to Negotiate Directly with the Secretary of 
Interior on their Gaming Compacts.
    I want to Thank You for your assistance, understanding and 
Government to Government relationship with the Tribes.
                                 ______
                                 
Prepared Statement of Ryan Wilson, President, National Alliance to Save 
                            Native Languages

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
